<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2004</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2004

                              ----------                              


                         TUESDAY, MAY 13, 2003

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:02 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Thad Cochran (chairman) presiding.
    Present: Senators Cochran, Specter, Domenici, Byrd, and 
Murray.

                    DEPARTMENT OF HOMELAND SECURITY

STATEMENTS OF:
        ROBERT C. BONNER, COMMISSIONER, CUSTOMS AND BORDER PROTECTION 
            BUREAU
        ADMIRAL JAMES M. LOY, ADMINISTRATOR, TRANSPORTATION SECURITY 
            ADMINISTRATION
        CONNIE L. PATRICK, DIRECTOR, FEDERAL LAW ENFORCEMENT TRAINING 
            CENTER

               OPENING STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. The hearing will please come to order.
    Today our subcommittee on Homeland Security Appropriations 
continues its hearings on the President's budget request for 
fiscal year 2004 for the Department of Homeland Security.
    This morning, our panel consists of three components of the 
new Border and Transportation Security Directorate. These 
include the Bureau of Customs and Border Protection, the 
Transportation Security Administration, and the Federal Law 
Enforcement Training Center.
    We are very pleased to welcome our witnesses this morning: 
the Commissioner of the Bureau of Customs and Border 
Protection, the Honorable Robert C. Bonner; the Administrator 
of the Transportation Security Administration, Admiral James M. 
Loy; and the Director of the Federal Law Enforcement Training 
Center, Ms. Connie Patrick.
    There is another bureau of the Border and Transportation 
Security Directorate, which is going to be headed by Michael 
Garcia, but he has not yet been confirmed as the head of the 
Bureau of Immigration and Customs Enforcement. No witness was 
available for the Office for Domestic Preparedness which is 
also under the directorate.
    We appreciate your cooperation with our committee, and your 
being here this morning to discuss the budget request for those 
activities under the jurisdiction of your agencies. We 
appreciate the fact that this is a new undertaking for some of 
you in connection with the Department of Homeland Security. 
Others, such as Admiral Loy and Mr. Bonner, have had 
experiences in those agencies, and we appreciate the fact that 
the President and Secretary Ridge have attracted a very 
talented and capable team to run this new Department of 
Homeland Security.
    It is immensely important, the work that is to be done by 
this directorate and the Department, and we are going to 
carefully consider the President's request and hope that we 
will be able to make the correct judgments on allocating the 
limited amount of funding that is available to our 
subcommittee.
    The budget resolution that was adopted limits the amount of 
money that can be spent. And, it is our job to try to identify 
the priorities and to make sure that the money is being spent 
efficiently and in a thoughtful way to protect the security of 
our homeland.
    It is a pleasure, too, as we draw to a close with our 
hearings for this year to work with my good friend, Robert 
Byrd, the distinguished Senator from West Virginia, who is the 
ranking member of the full Committee on Appropriations and 
chose to assume the responsibility as the ranking member on 
this subcommittee.
    I think it indicates the seriousness of the subjects that 
we are dealing with on this subcommittee, and we appreciate his 
assistance and work with us as we carry out our 
responsibilities.
    Senator Byrd.

                  STATEMENT OF SENATOR ROBERT C. BYRD

    Senator Byrd. Mr. Chairman, I thank you for your overly 
charitable remarks concerning me. I am grateful for the 
opportunity to serve with you on this committee. You run a 
tight ship. You are fair and I consider it a real privilege to 
be associated with you in this committee.
    I know of no Senator with whom I could have a greater 
rapport and a better working relationship. I join you in 
welcoming our witnesses to today's hearings. You represent 
three of the four major bureaus that comprise the Border and 
Transportation Security Directorate. All of them have a 
critical role to play in securing our homeland and the 
subcommittee looks forward to hearing from them and to working 
with them.
    The terrorist attacks in Saudi Arabia overnight are a grim 
reminder that there are people in this world who have as their 
aim the destruction of America and the death of its citizens. 
It is a sobering morning.
    These agencies, this department, and, in fact, this 
subcommittee share the duty to do everything possible to 
prevent such attacks from happening within these shores. This 
subcommittee will provide the resources to protect the Nation. 
It is the job of this department to carry out that mission to 
the best of its capabilities.
    Commissioner Bonner has performed ably in his leadership of 
the former U.S. Customs Service. I am pleased that he is 
continuing that performance at the Department.
    Director Patrick is relatively new to her role in leading 
the Federal Law Enforcement Training Center, but she has 
demonstrated her appreciation of the task of training our 
varied law enforcement personnel.
    Admiral Loy did a superb job when he was at the Coast 
Guard, and I appreciate his taking on the daunting task of 
establishing a Transportation Security Administration. However, 
I am troubled that well into the 8 year--8 month of the fiscal 
year, despite a significant shortfall in funding, that Congress 
has yet to receive the spending plan for his agency for this 
fiscal year.
    How can we inquire about his agency's plans for the next 
fiscal year when we have yet to receive information about the 
current fiscal year? I am well aware that the agency is facing 
a budgetary shortfall for this year. And Admiral--and the 
admiral is being forced to make difficult decisions, including 
the laying off of thousands of airport screeners.
    Many members of this subcommittee, including myself, we are 
troubled by the allocation of those cuts. I am disappointed 
that the administration and the OMB have not supported our 
efforts to assist you, Admiral, in bridging your funding gap.
    However, this problem must not be fixed--and I put fixed--I 
say fixed with quotation marks around it. This problem must not 
be fixed by reallocating funds, which the Congress has directed 
to be spent on specific programs. Congressional direction must 
be respected.
    Congress passed several appropriation bills directing that 
this agency take certain steps. The President signed those 
bills into law. In addition, the Homeland Security Act directs 
that funds transferred to the new Department be used for the 
purposes for which they were appropriated. These laws must be 
respected.
    I understand that you are in a very difficult position. You 
have a demanding and important job to do. And we will do what 
we can on this subcommittee under the chairmanship of Senator 
Cochran to provide you with the resources you need to meet your 
mission.
    I only hope that the green eyeshade set downtown is 
listening. We cannot secure the homeland on the cheap. Either 
we are serious about protecting our borders and our 
transportation systems, or we are merely engaged in a public 
relations exercise.
    In addition, as I expressed last week when Under Secretary 
Hutchinson was before this subcommittee, I am concerned that 
the budget for the Transportation Security Administration 
appears to focus the limited resources only on aviation 
security, virtually to the exclusion of other transportation 
systems. Our port, our rail, and other transportation systems 
are also vulnerable to attack.
    And I am committed to doing everything that I can to 
address each of these vulnerabilities. I look forward to the 
testimony this morning, Mr. Chairman, and thank you again.
    Senator Cochran. Senator Domenici, welcome to the meeting 
of this subcommittee.
    Senator Domenici. Thank you, Mr. Chairman.
    Senator Cochran. I am happy to recognize you for any 
opening statement you would like to make.

                 STATEMENT OF SENATOR PETE V. DOMENICI

    Senator Domenici. I appreciate it, just a brief opening 
statement, if you would.
    First, I would like to welcome the commissioner, and 
Admiral Loy, and Director Patrick.
    We are all aware of the events of September 11, and now the 
more recent events, and we know we have a very difficult job 
ahead of us. We must rethink how we do business and how, in 
doing so, to reorganize our government to meet the challenges 
of the future. I believe we have accomplished the first two 
steps in passage of the homeland security bill.
    The next step will be--internal to the Homeland Security 
Department, to bring together all of the pieces of the puzzles 
to make sure that all of the pieces fit.
    It will be our job in this committee to supply you with any 
of the missing pieces, including personnel, equipment, and 
authorities to do your job properly. I look forward to working 
with you--with all three of you in this new Department.
    I would like to highlight just a few areas. First, the area 
I would like to touch upon is border operations. As a Senator 
from a border State, I will work with you, Commissioner Bonner, 
to make sure that you get the proper tools you need to do this 
job.
    It has been 17 years since the Federal Government launched 
a major effort to upgrade the United States' borders, and that 
effort focused only on the southwest border. I have just 
introduced, with many co-sponsors, a border infrastructure and 
technology modernization act.
    This new bill focuses on the borders of both Canada and 
Mexico. The bill has dual goals of facilitating the efficient 
flow of trade, while meeting the challenges of increased 
security requirements.
    It will include more funding for equipment at our land 
borders, additional funding for personnel, funding for 
training, and additional funding for industry-business 
partnership arrangements along the border.
    The future of our border successes lie in modernizing these 
ports of entry, including new modern technology so that they 
are the most modern; not the archaic, ancient border crossings 
that we now have in many places. It is important for the border 
enforcement agencies of the new Department to work with the 
private sector on both sides of the border and reward those 
partners who adopt strong internal controls designed to defeat 
terrorist access to our country.
    My second interest lies in the Federal Law Enforcement 
Training Center, FLETC. It was important that the Federal Law 
Enforcement Training Center was transferred to the new 
department. It is your job to make sure that the transition of 
that bureau of the Treasury Department to the Homeland Security 
Department goes smoothly. It is my understanding that there 
will be tremendous need for training new officers, as well as 
cross-training and advanced training of current employees.
    A few thoughts on FLETC. The DHS needs to catalog all of 
the Department training activities and facilities. It must 
develop short-and long-term plans and analyze agency needs and 
maximize the use of current facilities, and project future 
capacity needs.
    It is very important that Homeland Security use the proven 
resources of FLETC before using non-FLETC facilities. I know 
that FLETC has an ancillary facility in my State, and you know 
about it too, at Artesia, New Mexico. It is growing. It is new, 
and it is playing a very important role. I hope that it will 
continue to operate as an integral part of your mission.
    I have a third interest that I will just briefly mention 
and call it domestic air cargo security. I only mention it 
because I am hopeful that those in charge of it will make use 
of the great capacity of our national laboratories at Sandia 
and Los Alamos and Lawrence Livermore, in helping make this 
transport of domestic air cargo and security as easy as 
possible, and as modern as possible as quickly as possible.
    Thank you very much, Mr. Chairman.
    Senator Cochran. Thank you, Senator, for your statement and 
your contribution to the work of this subcommittee.
    Senator Murray, I am happy to recognize you for any opening 
statement that you would like to make.

                   STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. Mr. Chairman, thank you. I just want to 
welcome all of our witnesses. Let me just say that this is a 
very important hearing, because we all know the importance of 
security since September 11 obviously, but we also know the 
economic impacts of the decisions we make in balancing that.

                           prepared statement

    And my State is extremely important. We are the number one 
trade State in the Nation and we want to make sure our borders 
are secure, that our ports are secure, but that we impact the 
flow of commerce as little as possible, because it is having a 
severe impact on our State as we struggle with the economy. So 
I do have a number of questions to ask both Mr. Bonner and 
Admiral Loy in that time period.
    Senator Cochran. Thank you very much, Senator.
    The subcommittee has received a statement from Senator 
Campbell which will be inserted in the record.
    [The statement follows:]

         Prepared Statement of Senator Ben Nighthorse Campbell

    Thank you Mr. Chairman and I'd like to thank our witnesses for 
taking the time to come talk to us today.
    My constituents in Colorado, as well as the entire Nation, are 
looking toward this Committee to provide the necessary funds to protect 
those who travel our country's skies, seas, railways, and roads. The 
three of you here today are responsible for ensuring the safety of our 
borders, the security of our skies, and for training the personnel 
needed to perform these duties. Not an easy task for any of you, but I 
look forward to working with all of you to meet these challenges and to 
ensure that our Nation's priorities are well balanced.
    While I commend you all for the advancements made in our Nation's 
security infrastructure, there are a few concerns I have about possible 
loopholes that remain in the security network. There have been many 
questions as to whether or not our focus on security is appropriately 
balanced in the right areas to prevent additional terrorist attacks. 
Our borders, for instance, while more closely watched than they were a 
few years ago, still need to be better patrolled, both in the north and 
the south.
    Security at airports nationwide has improved, though efforts have 
focused mainly on passengers and their luggage. Loopholes still exist 
in the air transportation of cargo. I also believe that loopholes still 
exist with fixed-base operations, or FBO's, as they are called. My 
concern is that literally just anyone can get on a private aircraft 
carrying whatever they want and go wherever they please.
    Port security is no less frightening. About 95 percent of U.S. 
imports come by container ship and there are over 2,500 of these ships 
at sea. Once these containers come off the boats, the can be driven 
anywhere by anyone with a CDL license or placed on a train to any point 
in the United States. While Colorado has no such ports, as the Senate's 
only CDL-licensed member, I know how easily these containers can move 
across the country as soon as they are off-loaded from the ships.
    The protection of our borders and shorelines is imperative to our 
country's economy which is dependent on travel and the easy mobility of 
commerce. Additionally, the people of the United States deserve the 
ability to move about our Nation in a safe and secure manner.
    I believe that we have made major advancements very quickly by 
upgrading our security procedures, response plans, and better training 
personnel to react and respond in times of need. This is very important 
as no issue is more paramount to me and this committee than the safety 
of the American people.
    Again, thank you, Mr. Chairman. I look forward to hearing the 
testimonies of our guests and I will have a number of questions to ask 
at the appropriate time.

    Senator Cochran. I think we will hear opening statements 
from each of the witnesses before we get into questions, and we 
would encourage you to make summary statements of your printed 
statements. We have those statements. We thank you for them and 
they will be printed in the record in full.
    Mr. Bonner, we will start with you. Mr. Bonner is the 
Commissioner of the Bureau of Customs and Border Protection.

               STATEMENT OF COMMISSIONER ROBERT C. BONNER

    Mr. Bonner. Thank you, Chairman Cochran and Senator Byrd, 
Senator Domenici, Senator Murray. I am pleased to appear before 
you today to discuss the Customs and Border Protection and the 
President's 2004 budget request for this new agency within the 
Department of Homeland Security.
    As you know, on March 1, just 2\1/2\ months ago, customs 
inspectors of the former U.S. Customs Service, immigration 
inspectors of the former INS, agricultural inspectors formerly 
with the Animal and Plant Health Inspection Service of the 
Agriculture Department, and the entire Border Patrol, merged to 
form the new Bureau of Customs and Border Protection within the 
Department of Homeland Security. This means, by the way, that 
about one-half of all the personnel of the former INS are now 
part of the Bureau of Customs and Border Protection.
    Customs and Border Protection is certainly the largest and, 
I believe, perhaps the most profound actual reorganization 
taking place as a result of the creation of the Department of 
Homeland Security.
    The creation of Customs and Border Protection means that 
now for the first time in our country's history, all agencies 
of the United States Government with significant border 
responsibilities are unified into one agency of our Government, 
into one border agency. When combined with the customs trade, 
revenue, and support functions, the new agency, Customs and 
Border Protection, has a requested budget of $6.7 billion and 
41,000 FTE, and that means that Customs and Border Protection 
personnel are over one-fifth of the entire personnel of the 
Department of Homeland Security, which is a reflection, I 
believe, of how important the security of our borders is to the 
security of our homeland.
    For the first time, we are now able to take a holistic view 
of our Nation's borders and to devise a comprehensive strategy 
for the ports of entry and, indeed, for the entirety of our 
Nation's border, because now one agency, not multiple agencies, 
is responsible for the management of our country's borders.
    By unifying the border agencies, a good government reform 
advocated in many studies over the past 30 years, I am 
convinced that we will be far more effective and efficient than 
we were when border responsibilities were fragmented among four 
different agencies and three different departments of our 
Government as they were prior to March 1 of this year.
    I have already moved to unify the management of all of the 
inspectional personnel at our border ports of entry by 
designating one port director to be in charge of all of the 
inspectional functions, customs, immigration, and agriculture 
at each of the 307 ports of entry of the United States. And I 
have put in place a full-time transition management office to 
focus on achieving a fully unified agency as rapidly as 
possible.
    I also have put into place a clear and understandable chain 
of command, from the port directors at all of our 300-plus 
ports of entry to Customs and Border Protection Headquarters, 
and similarly have established a clear and short chain of 
command for the Border Patrol into Customs and Border 
Protection Headquarters.
    The priority mission of Customs and Border Protection is 
homeland security. And for a border agency, that means nothing 
less than preventing terrorists and terrorist weapons from 
entering our country. That is the priority mission of Customs 
and Border Protection, plain and simple.
    And we need to perform that priority mission without 
stifling the flow of legitimate trade and travel. We do this, 
in part, by pushing our border out, extending our zone of 
security beyond our physical borders. We must also accomplish 
our priority mission while continuing to perform the many very 
important traditional missions of Customs and Border 
Protection.
    Support from Congress through the fiscal year 2002 
supplemental and the 2003 budget has put us in a very good 
position to carry out our priority and traditional missions. 
Our total program increase for fiscal year 2004 is $338 
million. And that funding will help us to develop and expand 
our ``smart border'' initiatives like the Container Security 
Initiative, our overseas program for identifying and 
prescreening high-risk containers before they leave foreign 
ports for ports of the United States. I want to thank the 
committee members for their support of this initiative in 
fiscal year 2003.
    Since I announced the Container Security Initiative just 
over a year ago, a total of 15 countries representing 18 of the 
top 20 foreign container ports have agreed to implement the 
Container Security Initiative with us.
    The 2004 funding we are requesting will enable us to expand 
the program to other foreign ports beyond the top 20. Our 
funding request will also support expansion of the Customs-
Trade Partnership Against Terrorism, a program in which we 
partner with the private sector to protect the entire supply 
chain against potential exploitation by terrorists.
    So, Mr. Chairman, this new agency, I can tell you, faces 
two great challenges. One is merging the border agencies, which 
we are in the process of doing; and secondly, fulfilling our 
priority and our traditional missions.
    But now that all the border agencies have been unified into 
Customs and Border Protection, we are in a better position to 
accomplish those goals. And with the continued support of the 
President, and the leadership of Secretary Ridge and Under 
Secretary Hutchinson, and the support of this committee, and 
the Congress, I am confident that Customs and Border Protection 
will play a major role in the Department of Homeland Security 
by better securing our borders against the terrorist threat.

                           PREPARED STATEMENT

    Mr. Chairman, I thank you for the opportunity to testify 
and I would be happy to answer any questions that the members 
might have.
    Senator Cochran. Thank you very much, Mr. Bonner, for your 
statement.
    [The statement follows:]

                 Prepared Statement of Robert C. Bonner

Introduction and Overview
    Chairman Cochran, Ranking Member Byrd, Members of the Subcommittee, 
it is a privilege to appear before you today to discuss Customs and 
Border Protection's 2004 budget request--the first ever budget request 
for this new agency in the Department of Homeland Security.
    As you know, on March 1, 2003, immigration inspectors from the 
Immigration and Naturalization Service (INS), agricultural inspectors 
from the Animal and Plant Health Inspection Service (APHIS), customs 
inspectors from U.S. Customs Service, and the entire Border Patrol 
merged to form the Bureau of Customs and Border Protection--BCBP--
within the Border and Transportation Security (BTS) Directorate of the 
Department of Homeland Security. Now, for the first time in our 
country's history, all agencies of the United States government with 
significant border responsibilities have been brought under one roof. 
With our combined skills and resources, we will be far more effective 
than we were when we were separate agencies. I was honored to be 
appointed by the President to serve as the Commissioner of U.S. Customs 
in September 2001, and now I have the great privilege of serving as the 
first Commissioner of BCBP.
    I want to thank Congress for the focus and support it provided in 
creating the new Department of Homeland Security, and the new Customs 
and Border Protection agency within that Department. As the head of 
BCBP, I look forward to working with you to ensure that BCBP 
successfully achieves its critical mission.
    The priority mission of BCBP is to prevent terrorists and terrorist 
weapons from entering the United States. That extraordinarily important 
priority mission means improving security at our physical borders and 
ports of entry, but it also means extending our zone of security beyond 
our physical borders--so that American borders are the last line of 
defense, not the first line of defense. And we must do this while 
continuing to perform our traditional missions well--the combined 
missions of Customs, immigration, and agriculture inspectional officers 
at our borders, as well as the Border Patrol. In sum, the BCBP's 
missions include apprehending individuals attempting to enter the 
United States illegally; stemming the flow of illegal drugs and other 
contraband; protecting our agricultural and economic interests from 
harmful pests and diseases; protecting American businesses from theft 
of their intellectual property; and regulating and facilitating 
international trade, collecting import duties, and enforcing U.S. trade 
laws. We must perform our all important security mission without 
stifling the flow of legitimate trade and travel that is so important 
to our Nation's economy.
    Support from Congress through the fiscal year 2002 Supplemental and 
the fiscal year 2003 budget has put us in good stead to carry out our 
mission. The President's total program increase request for BCBP in 
fiscal year 2004 is $338,183,000. These funds will help BCBP fulfill 
its mission-critical responsibilities, first and foremost of which is 
preventing terrorists and terrorist weapons from entering the United 
States. These funds will continue to support the automation and 
information technology programs that will improve overall operations of 
the agency, and the traditional missions for which BCBP is responsible.
    Key program increases BCBP is requesting in its fiscal year 2004 
budget include:
  --$61,754,000 for the Container Security Initiative, which will 
        support continued operation and expansion of the program, 
        including the stationing of BCBP personnel in additional key 
        international ports to examine high-risk cargo before it is 
        placed on ships bound for the United States;
  --$16 million for the Customs-Trade Partnership Against Terrorism and 
        the Free and Secure Trade Program to increase supply chain 
        security and expedite the clearance of legitimate trade; and
  --$57.8 million for deployment of additional Non-Intrusive Inspection 
        (NII) technology to increase our ability to detect conventional 
        explosives, nuclear weapons, radioactive components, and other 
        weapons of mass destruction.
    In my statement, I will discuss these programs and others, and how 
BCBP uses and will continue to use them to accomplish its mission. I 
would like to begin, though, with a brief update for the Subcommittee 
on the status of the standup of BCBP.

Standup of Customs and Border Protection
    On March 1st, approximately 40,000 employees were successfully 
transferred from the U.S. Customs Service, the Immigration & 
Naturalization Service, and the Animal and Plant Health Inspection 
Service to the new Customs and Border Protection agency in the 
Department of Homeland Security. Each of the agencies merging into BCBP 
worked closely to effect the transfer. Prior to and after the standup 
of the agency on March 1st, Under Secretary Hutchinson and I both 
traveled around the country to talk with employees of BCBP. I am 
pleased to report that there is a high level of enthusiasm, dedication, 
and commitment to the Department of Homeland Security and to BCBP's 
mission. The men and women of BCBP are ready, willing, and able to do 
their part to protect our Nation.
    Secretary Ridge, Under Secretary Hutchinson and I have established 
clear, understandable chains of command for all BCBP personnel, and 
have directed that operations not be interrupted. To this end, 
effective March 1, 2003, twenty interim Directors of Field Operations 
(DFOs) were appointed, based on the twenty-office field structure of 
U.S. Customs, to exercise line authority over 317 ports of entry within 
their jurisdiction. At each of the ports of entry--land, sea, and air--
interim Port Directors were appointed to be in charge of and 
responsible for all the BCBP inspection functions, customs, 
immigration, and agriculture. A clear chain of command was also 
established for the Border Patrol, with the Border Patrol's twenty-one 
Sector Chiefs reporting directly to the Chief of the Border Patrol, who 
reports to me.
    This is the first time there has been one person at each of our 
Nation's ports of entry in charge of all Federal Inspection Services. 
We are in the process of competitively selecting individuals to fill 
these DFO and Port Director positions on a permanent basis, and that 
process should be completed in the near future. In addition, a full-
time Transition Management Office has been put in place to help address 
the challenges that come from the standup of any new organization. That 
office is staffed with representatives from all the incoming agencies.

Responding to the Terrorist Threat
    As the single, unified border agency of the United States, BCBP's 
mission is vitally important to the protection of America and the 
American people. In the aftermath of the terrorist attacks of September 
11th, numerous initiatives were developed to meet our twin goals of 
improving security and facilitating the flow of legitimate trade and 
travel. Funds from the fiscal year 2004 budget will help us expand 
those initiatives to ensure further protection of both the American 
people and the American economy. Our strategy in implementing these 
initiatives--and accomplishing our twin goals--involves a number of 
factors, including (A) improving targeting systems and expanding 
advance information regarding people and goods, (B) pushing our ``zone 
of security outward'' by partnering with other countries, (C) pushing 
our ``zone of security outward'' by partnering with the private sector, 
(D) deploying advanced inspection technology and equipment, (E) 
increasing staffing positions for border security, and (F) working in 
concert with other agencies.

           TARGETING AND THE NECESSARY OF ADVANCE INFORMATION

    Information is one of the most important keys to our ability to 
increase security without stifling legitimate trade and travel. Good 
information enables us to more accurately identify--or target--what is 
``high risk,'' defined as a potential threat, and what is low risk or 
absolutely no risk whatsoever. The separation of high risk from no risk 
is critical because searching 100 percent of the cargo and people that 
enter the United States would unnecessarily cripple the flow of 
legitimate trade and travel to the United States. What is necessary and 
advisable is searching 100 percent of the high-risk cargo and people 
that enter our country. To do this, we need to be able to identify what 
is high risk, and do so as early in the process as possible. BCBP has 
several programs and initiatives that help us accomplish that task.

National Targeting Center (NTC)
    The National Targeting Center (NTC), created last year with fiscal 
year 2002 Emergency Supplemental funding, has significantly increased 
our overall capacity to identify potential terrorist threats by 
providing centralized, national targeting of passengers and cargo for 
the first time. NTC inspectors and analysts use a sophisticated 
computer system to monitor, analyze, and sort information gathered by 
BCBP and numerous intelligence and law enforcement agencies against 
commercial border crossing information. By mining the information in 
that system, NTC personnel identify potential terrorists and terrorist 
targets for increased scrutiny at the border ports of entry. When NTC 
personnel identify potential threats, they coordinate with our officers 
in the field and monitor the security actions that are taken. Because 
multiple agencies both contribute information to the National Targeting 
Center and rely on it for information, the Center assures a coordinated 
and centralized response to potential threats.

Automated Targeting System (ATS)
    The Automated Targeting System (ATS), which is used by NTC and 
field targeting units in the United States and overseas, is essential 
to our ability to target high-risk cargo and passengers entering the 
United States. ATS is the system through which we process advance 
manifest and passenger information to pick up anomalies and ``red 
flags'' and determine what cargo is ``high risk,'' and therefore will 
be scrutinized at the port of entry or, in some cases, at the foreign 
port of export.
    In fiscal year 2002, we implemented a domestic targeting initiative 
at all U.S. seaports using the Automated Targeting System. Under that 
initiative, all manifests for ocean going cargo destined for the United 
States are processed through ATS and reviewed by trained personnel. 
When high-risk shipments are identified, inspectional officers at U.S. 
seaports conduct standardized security inspections on those shipments. 
Importantly, the goal is to inspect 100 percent of the high-risk sea 
cargo. We are already working on putting the same system in place for 
cargo transported by truck through the land border ports of entry.
    Furthermore, in April 2002, USDA National Information Technology 
Center (NITC) received access to ATS. ATS now receives complete Customs 
data feed for all ports, with all bills and entries of agricultural 
interest.

24-Hour Rule
    Common sense tells us that the earlier in the process that we have 
information, the more effective and efficient we can be in using that 
information to identify high-risk cargo and eliminate potential threats 
before they have a chance to reach our ports of entry.
    To that end, last year, a final advance manifest regulation--the 
so-called ``24-hour rule''--was issued to require the presentation of 
accurate, complete manifest information on oceangoing cargo destined 
for the United States 24 hours prior to loading of a container on board 
a vessel at the foreign port. The regulation also improves the quality 
of information presented by prohibiting the vague descriptions of cargo 
such as ``FAK'' (Freight All Kinds). The data is processed through the 
ATS system, and reviewed by the NTC to identify high-risk oceangoing 
cargo.
    On February 2, 2003, a strategy was undertaken to ensure compliance 
with the 24-hour rule, following a 90-day grace period to permit the 
trade to adjust its business practices. The compliance strategy has 
involved, for the first time, issuing ``no-load'' orders and denying 
permits to unlade in the event of non-compliance. Compliance with the 
rule is high, and we are receiving more and better information through 
our Automated Manifest System (AMS) significantly earlier in the 
process. This greatly improves our ability to detect, deter, and 
eliminate potential terrorist threats involving sea cargo before they 
become a reality.

Trade Act of 2002--Advance Information on Other Modes
    Successful targeting of high-risk goods transported through other 
commercial modes is as important as successful targeting of high-risk 
goods transported by sea. As with oceangoing cargo, good information 
received earlier in the process is the key to that successful targeting 
and the application of sound risk management principles.
    In the Trade Act of 2002, Congress recognized the importance of 
such advance information by mandating presentation of advance manifest 
data on all commercial modes, both inbound and outbound. BCBP is in the 
process of working through the consultative process called for in the 
Trade Act of 2002 to determine the most appropriate advance cargo data 
requirements for land, rail, and air cargo. We held public hearings in 
January, launching a process of discussion and proposal preparation 
that will ultimately lead to our issuing rules later this year. During 
this process, we have met continuously with all segments of the trade. 
This process will help us ensure that the final rules meet the security 
objectives of BCBP while also taking into account the realities of the 
businesses involved in the different transport modes.

Advance Passenger Information System
    Advance information is also critical to our efforts to identify 
individuals who may pose a security threat. Before September 11th, 
2001, air carriers transmitted information on international airline 
passengers in advance of their arrival to the Advance Passenger 
Information System (APIS) on a purely voluntary basis. Legislation 
enacted by Congress in late 2001 made submission of this information 
mandatory, and funds allocated from the fiscal year 2002 Supplemental 
and the fiscal year 2003 budget have enabled us to begin upgrading and 
expanding APIS and move to a mandatory program in a very short time. An 
informed, enforced compliance plan has resulted in 99 percent of all 
passenger and crew information (including those pre-cleared outside the 
United States) now being transmitted through APIS in a timely and 
accurate manner.

 PUSHING OUR ZONE OF SECURITY OUTWARD /PARTNERING WITH OTHER COUNTRIES

    BCBP must do everything possible to advance and improve on our 
smart border initiatives and push our zone of security outward--that 
is, to make our borders the last line of defense instead of the first 
line of defense. We have done this on a far reaching basis by 
partnering with other countries on our Container Security Initiative, 
one of the most significant and successful initiatives developed and 
implemented after 9-11. We are also extending our zone of security 
through partnerships with Canada, our neighbor to the north, and 
Mexico, our neighbor to the south. Those partnerships enable us jointly 
to better secure the North American perimeter.

Container Security Initiative (CSI)
    Oceangoing sea containers represent the most important artery of 
global commerce--some 48 million full sea cargo containers move between 
the world's major seaports each year, and nearly 50 percent of all U.S. 
imports (by value) arrive via sea containers. Approximately 6 million 
cargo containers arrive at U.S. seaports annually. Because of the sheer 
volume of sea container traffic and the opportunities it presents for 
terrorists, containerized shipping is uniquely vulnerable to terrorist 
attack.
    In January, 2002, the Container Security Initiative (CSI) was 
unveiled to address this threat. Under CSI, which is the first program 
of its kind, we are identifying high-risk cargo containers and 
partnering with other governments to pre-screen those containers at 
foreign ports, before they are shipped to our ports.
    The four core elements of CSI are:
  --First, identifying ``high-risk'' containers, using ATS and the 24-
        hour rule, before they set sail for the United States
  --Second, pre-screening the ``high-risk'' containers at the foreign 
        CSI port before they are shipped to the United States
  --Third, using technology to pre-screen the high-risk containers, 
        including both radiation detectors and large-scale radiographic 
        imaging machines to detect potential terrorist weapons.
  --Fourth, using smarter, ``tamper-evident'' containers--containers 
        that indicate to BCBP officers at the port of arrival whether 
        they have been tampered with after the security screening.
    Since CSI was announced in January 2002, the program has generated 
exceptional participation and support. The goal for the first phase of 
CSI was to implement the program at as many of the top 20 foreign 
container ports--in terms of volume of cargo containers shipped to 
United States seaports--as possible, and as soon as possible. Those 
ports account for nearly 70 percent, over two-thirds, of all cargo 
containers arriving at U.S. seaports. Within 1 year of our announcement 
of CSI, the governments representing 18 of the top 20 ports agreed to 
implement CSI, and those governments where the remaining two ports are 
located have expressed support for the initiative and a desire to 
participate. CSI has been implemented and is already operational in Le 
Havre, France; Rotterdam, the Netherlands; Antwerp, Belgium; 
Bremerhaven and Hamburg, Germany; Felixstowe, England; Yokohama, Japan; 
and Singapore, the largest container transshipment port in the world. 
We are also operational at the Canadian ports of Halifax, Montreal, and 
Vancouver, and will be operational in Hong Kong this month. CSI will be 
operational at other CSI ports soon.
    We are in the process of formulating the second phase of CSI. Under 
CSI Phase II, we will implement the CSI program at other foreign ports 
that ship a significant volume of cargo to the United States, and that 
have the infrastructure and technology in place to support the program. 
We have already signed CSI agreements with Malaysia and Sweden, 
covering the two major ports of Malaysia and Gothenburg, Sweden, the 
main container port for the Nordic countries. To date, a total of 15 
countries (including Canada) have agreed to implement CSI with us, and 
at least 7 other countries that qualify have already expressed a desire 
to join. Once we have Phase II implemented, we anticipate that CSI will 
cover approximately 80 percent of the containers coming to the United 
States.
    I want to express my gratitude to the Committee members for their 
support of CSI in fiscal year 2003. With the $62 million increase in 
funding that we are requesting for CSI in fiscal year 2004, we will 
complete implementation in the top 20 ports, and expand CSI to other 
ports around the world. In fiscal year 2004, BCBP will also continue to 
pursue ongoing multilateral initiatives to enhance container security.

Partnership with Canada
    Since the terrorist attacks of September 11, 2001, we have worked 
closely with Canada to develop and implement initiatives that increase 
security and facilitate travel and trade at our shared 4,000 mile 
border. Many of these initiatives have been implemented under the Smart 
Border Declaration entered into between the United States and Canada in 
December 2001. This Declaration focuses on four primary areas: the 
secure flow of people; the secure flow of goods; investments in common 
technology and infrastructure to minimize threats and expedite trade; 
and coordination and information sharing to defend our mutual border. 
By benchmarking our security measures and sharing information, we are 
able to relieve pressure and congestion at our mutual land border.

In-Transit Container Targeting Program
    One example is the In-Transit Container Targeting Program, which 
served as a model for the CSI program. Under this program, Canadian 
inspectors are stationed at our seaports in Newark and Seattle, and 
BCBP officers are stationed at Halifax, Montreal, and Vancouver. Our 
personnel are helping to target and pre-screen cargo containers 
arriving at Canadian seaports that are in transit to the United States, 
and Canadian Customs and Revenue Agency inspectors are doing the same 
at U.S. seaports for shipments in transit to Canada. Approximately $2.4 
million in 2002 and 2003 funding has enabled us to develop and 
implement this program.

Free and Secure Trade (FAST)
    Another of these initiatives is the Free and Secure Trade, or FAST, 
program. Through FAST, importers, commercial carriers, and truck 
drivers who enroll in the program and meet our agreed to security 
criteria are entitled to expedited clearance at the Northern Border. 
Using electronic data transmission and transponder technology, we 
expedite clearance of approved trade participants. The FAST program 
fosters more secure supply chains, and enables us to focus our security 
efforts and inspections where they are needed most--on high-risk 
commerce--while making sure legitimate, low-risk commerce faces no 
unnecessary delays.
    FAST was announced by President Bush and Prime Minister Chretien in 
Detroit in September 2002, and it is currently operational in 27 lanes 
at six major crossings along the northern border. Eventually FAST is 
projected to expand to all 25 commercial centers located throughout the 
northern border. The increase of approximately $3.9 million that we are 
requesting for the FAST program in fiscal year 2004 will enable us to 
expand FAST on the northern border, as well as develop and implement a 
pilot similar to FAST on the southern border with Mexico.

NEXUS
    With Canada, we have also implemented a program that enables us to 
focus our resources and efforts more on high-risk travelers, while 
making sure those travelers who pose no risk for terrorism or 
smuggling, and who are otherwise legally entitled to enter, are not 
delayed at our mutual border. This is the NEXUS program, under which 
frequent travelers whose background information has been run against 
crime and terrorism indices are issued a proximity card, or SMART card, 
allowing them to be waived expeditiously through the port of entry. 
NEXUS is currently operational at six crossings located at four major 
ports of entry on the northern border: Blaine, Washington (3 
crossings); Buffalo, New York; Detroit, Michigan; and Port Huron, 
Michigan. We also recently opened a new NEXUS lane at the International 
Tunnel in Detroit. Some upcoming expansion sites for NEXUS include 
Niagara Falls, New York; Alexandria Bay, New York; and Pembina, North 
Dakota.

Partnership with Mexico
    We have continued important bilateral discussions with Mexico to 
implement initiatives that will protect our southern border against the 
terrorist threat, while also improving the flow of legitimate trade and 
travel.
    With respect to cargo crossing our border with Mexico, for example, 
some of the fiscal year 2004 funds we are requesting for the FAST 
program would be used to implement a pilot FAST program on the southern 
border. We also continue to work on a possible joint system for 
processing rail shipments and on shared border technology.
    Another initiative is the SENTRI program. SENTRI is a program that 
allows low-risk travelers to be processed in an expedited manner 
through a dedicated lane at our land border with minimal or no delay. 
SENTRI is currently deployed at 3 southwest border crossings: El Paso, 
San Ysidro, and Otay Mesa, and expansion plans are being considered. In 
fact, our SENTRI team met with their Mexican counterparts last week to 
discuss expansion logistics.

      PUSHING SECURITY OUTWARD /PARTNERING WITH THE PRIVATE SECTOR

Customs-Trade Partnership Against Terrorism
    Any effort to ``push our zone of security outwards'' and protect 
global trade against the terrorist threat must include the direct 
involvement of the trade community. The Customs-Trade Partnership 
Against Terrorism, C-TPAT, is an initiative that was proposed in 
November 2001 began in January 2002, to protect the entire supply 
chain, against potential exploitation by terrorists or terrorist 
weapons. Under C-TPAT, companies sign an agreement with BCBP to conduct 
a comprehensive self-assessment of their supply chain security and to 
improve that security--from factory floor to foreign loading docks to 
the U.S. border and seaports--using C-TPAT security guidelines 
developed jointly with the trade community.
    Companies that meet security standards receive expedited processing 
through our land border crossings, through our seaports, and through 
our international airports, enabling us to spend less time on low-risk 
cargo, so that we can focus our resources on higher risk cargo. C-TPAT 
is currently open to all importers, air, sea, and rail carriers, 
brokers, freight forwarders, consolidators, non-vessel operating common 
carriers (NVOCCs), and U.S. Marine and Terminal operators. As of 
October 1, 2002, C-TPAT eligibility for trucking companies along the 
U.S./Canada border has been made available through the Free and Secure 
Trade Program. (Participation in C-TPAT is a requirement for bringing 
goods from the United States into Canada through the FAST lane.) We are 
currently developing the mechanism and strategy to enroll foreign 
manufacturers and shippers into C-TPAT. The intent is to construct a 
supply chain characterized by active C-TPAT links at each point in the 
logistics process.
    To date, over 2,200 companies are participating in C-TPAT to 
improve the security of their supply chains. Members of C-TPAT include 
60 of the top 100 importers and 32 of the 50 largest ocean carriers. To 
make sure that C-TPAT is realizing its promise, BCBP is developing 
expertise in supply chain security. In December 2002, we began 
providing training in the security validation process to ten 
supervisory customs inspectors. In January 2003, these individuals 
started the validation process in cooperation with our C-TPAT partners.
    We used $11 million in fiscal year 2002 and fiscal year 2003 funds 
to begin implementing C-TPAT. The $12.1 million funding increase we are 
requesting for C-TPAT in fiscal year 2004 will enable us to continue to 
expand the program, including adding new C-TPAT Security Officers and 
headquarters staff to help oversee the program.

            DEPLOYMENT OF TECHNOLOGY, EQUIPMENT, AND SYSTEMS

    BCBP depends on a broad range of technology and other tools to 
effectively inspect people and goods entering the country, including 
technology for detecting weapons of mass destruction, explosives, 
chemicals, and contraband. We are requesting a funding increase of 
$119.2 million to enable us to deploy a variety of additional 
inspection technology and equipment that will increase the number of 
inspections, improve security, minimize risks to our personnel, and 
facilitate processing.

Non-Intrusive Inspection Technology
    For example, non-Intrusive Inspection (NII) technology provides for 
a more effective and efficient, as well as less invasive, method of 
inspecting cargo, compared with drilling or dismantling of conveyances 
or merchandise. NII equipment includes large-scale x-ray and gamma-ray 
imaging systems, portal radiation monitors, and a mixture of portable 
and handheld technologies to include personal radiation detection 
devices that greatly reduce the need for costly, time-consuming 
physical inspection of containers and provide us a picture of what is 
inside containers.
    The Committees on Appropriations have generously funded NII in 
fiscal year 2002 and fiscal year 2003. Along with the amounts funded in 
those years, the $57.8 million we are requesting for NII technology in 
fiscal year 2004 will enable us to add radiation detection systems and 
isotope identifiers on the southwest border, radiation detection 
systems and Mobile Vehicle and Cargo Inspection Systems (VACIS) on the 
northern border, Mobile VACIS at seaports, isotope identifiers and x-
ray equipment for international mail, and isotope identifiers at 
Express Courier hubs, as well as additional inspector positions for 
deploying and operating this equipment. This technology will detect 
anomalies and the presence of radiological material in containers and 
conveyances, with minimal impact to port operations in a fraction of 
the time it takes to manually inspect cargo. It will give BCBP a 
tactical edge in keeping weapons of mass destruction and instruments of 
terrorism from entering the United States.

Hardening of Northern Border
    After the terrorist attacks of September 11th, efforts were stepped 
up to ``harden''--to prevent unauthorized crossings of--the northern 
and southern land borders. In addition to staffing increases, the 
hardening of these ports of entry involved the installation of gates, 
signs, lights, and remote surveillance systems at ports of entry, many 
of them in remote locations, along the vast northern border with 
Canada. The Border Patrol also deployed additional agents to strategic 
locations along the northern border to aid in providing security and 
deterring future attacks.
    Funding from fiscal year 2003 is enabling us to continue to improve 
the northern border infrastructure by deploying additional barriers, 
gates, and bollard systems; security lighting; secure communications 
(voice/data/messaging capabilities); signage addressing operational 
security; and video security systems. We will also continue bolstering 
Border Patrol staffing and technology between the northern border ports 
of entry in fiscal year 2004.

                                STAFFING

    As important as our efforts to improve targeting, build 
partnerships with other countries and industry, and deploy technology 
are to preventing terrorism, these efforts simply cannot be effective 
if we do not have adequate staffing and training of inspectors, canine 
enforcement officers, and Border Patrol Agents at and between the 
border ports of entry to carry out our mission. The most important 
component of BCBP's success in protecting America and the American 
people lies in the men and women who work directly on our Nation's 
frontlines.
    One need only recall that it was a Customs inspector, Diana Dean, 
who in December 1999 stopped and arrested an Al Qaeda terrorist from 
crossing into the United States from Canada with a trunk load of 
powerful explosives in his car. His mission, as we now know, was to 
blow up Los Angeles International Airport.
    Inspector Dean relied on nothing but her training to pick up on 
Ahmed Ressam's nervous behavior, his unusual travel itinerary, and his 
evasive responses to her questions. And thanks to her skill and 
professionalism, and the skill and professionalism of her fellow 
inspectors at Port Angeles, Ressam was arrested and a deadly Al Qaeda 
terrorist plot to do great harm to American lives was foiled.
    I am pleased to tell you that in fiscal year 2002, the number of 
new customs inspectors, canine enforcement officers, and special agents 
was more than doubled. Many of these new hires were able to relieve 
customs inspectors who had been sent to the northern border for 
temporary duty after the terrorist attacks of September 11, 2001, and 
to ameliorate the huge amounts of overtime being put in by U.S. Customs 
inspectors at our ports of entry.
    1,025 new immigration inspectors were hired in fiscal year 2002, 
and the beginning of fiscal year 2003, 355 of whom have been 
specifically assigned to supplement northern border enforcement 
activities. The Border Patrol hired 2,050 new agents in fiscal year 
2002, and, as of February 2003, a total of 560 Border Patrol Agents 
have been deployed all along the Northern Border. It is also worth 
noting that 125 additional Border Patrol agents and 4 Border Patrol 
helicopters have been redeployed temporarily to the Northern Border in 
support of Operation Liberty Shield. We intend to have a total of 1,000 
Border Patrol Agents deployed to the northern border this year.
    Our fiscal year 2004 budget request includes an additional $13 
million to continue to fund journeyman-level pay upgrades for Border 
Patrol Agents and Immigration Inspectors. Attrition rates for these 
positions are reaching crisis proportions, so it is essential that BCBP 
provide to them the upgrade from journeyman-level GS-9 to GS-11 that 
became effective for Customs Inspectors in August 2002.
    I am extremely grateful for the strong support shown by Congress to 
implement critical staffing increases at and between our border ports 
of entry. I can assure you that because of them, our Nation is more 
secure. The standup of BCBP--and its integration of all the Federal 
Inspection Service (FIS) personnel under one roof--gives us the 
unprecedented opportunity to make America's frontline personnel even 
more effective and efficient in carrying out their duties. In fiscal 
year 2004, we will focus on achieving a unified agency and integrated 
operations at our ports of entry.

     PARTNERSHIP WITH BUREAU OF IMMIGRATION AND CUSTOMS ENFORCEMENT

    In performing our priority homeland security mission, BCBP will 
foster cooperative efforts with other agencies. Because the mission 
facing us has components that reach broadly into other agencies both 
within and outside of the Department of Homeland Security, such 
cooperation is essential to our success. This includes cooperation 
with, among others, the Bureau of Immigration and Customs Enforcement 
(BICE). Close cooperation between agents carrying out investigations 
and inspectors conducting inbound and outbound searches at the ports of 
entry is crucial for ensuring the continued success of operations that 
advance both our homeland security mission, and our traditional 
missions, including cooperation with respect to trade fraud, 
intellectual property rights violations, controlled deliveries of 
illegal drugs, and money laundering.

Automation/Information Technology
    Mr. Chairman, no discussion of a successful strategy to protect the 
American people and the American economy in the 21st century would be 
complete without consideration of the central importance of automation 
and information technology to BCBP's mission. The Automated Commercial 
Environment (ACE) and International Trade Data System (ITDS) are BCBP's 
major automation/information technology efforts.

Automated Commercial Environment
    ACE is an important project for BCBP, for the business community, 
for our country, and for the future of global trade. If done properly, 
it will reform the way we do business with the trade community. It will 
also greatly assist BCBP in the advance collection of information for 
targeting high-risk cargo to better address the terrorist threat. And 
in doing so, it will help us expedite the vast majority of low-risk 
trade.
    The successful and timely design, implementation, and funding of 
ACE is a priority of BCBP. It has been and continues to be one of my 
top priorities as Commissioner. Increasing support from Congress and 
the Administration for ACE has been essential to the development of the 
new system. Funding of $130 million in fiscal year 2001 and $300 
million in fiscal year 2002 allowed us to establish the fundamental 
design framework for ACE, and to begin developing user requirements for 
the new system, in concert with our prime contractor, the e-Customs 
partnership led by IBM. Funding of $307 million in fiscal year 2003 
enabled us to continue development and begin to deliver on the first 
installment of ACE benefits to the trade community.
    The development of ACE and the efforts to put its capabilities to 
work on America's borders has continued full throttle. Starting this 
year, BCBP and trade community users will receive initial online 
account capabilities. Ultimately, ACE will enhance border security and 
deliver efficiencies to the trade process by providing interagency 
information sharing, and real-time, cross-government access to more 
accurate trade information. By centralizing and integrating the 
collection and analysis of information, ACE will enhance BCBP's ability 
to target illicit cargo, illegal persons, and unsafe conveyances. The 
trade data will be analyzed prior to arrival, allowing advanced inter-
agency assessment of risks and threats to determine which goods and 
people must be scrutinized. Results will determine if, upon arrival, a 
shipment is to be examined or cleared for release.
    I want to thank Congress again for its past support of ACE. The 
continued support of ACE with $307 million in funding for fiscal year 
2004 will enable us to keep pace with our schedule for ACE releases in 
2003 and 2004.

International Trade Data System (ITDS)
    One important, fully integrated component of ACE is ITDS. The ITDS 
initiative is an e-Government strategy being designed, developed, and 
deployed jointly with ACE that will implement an integrated, 
government-wide system for the electronic collection, use, and 
dissemination of the international trade transaction data required by 
the various trade-related federal agencies. It is customer-focused and 
will serve as the government's ``single window'' into international 
trade data collection and distribution. Significantly, ITDS will also 
improve risk assessment by providing pre-arrival data that allows 
border enforcement agencies to perform selectivity and targeting prior 
to arrival to assess risk and deploy inspection resources. Over 100 
agencies will be integrated through ITDS with ACE, of which 48 have 
been identified as having admissibility and export control 
responsibilities at the border.
    Through ACE, the ITDS will be capable of linking the government's 
law enforcement and other databases into one large-scale relational 
database that tracks all commerce crossing our borders. ITDS extends 
the functionality of ACE by bringing together critical security, public 
health, public safety, and environmental protection agencies under a 
common platform. That platform will allow businesses to report data 
through the use of a single, harmonized data set.
    The $11.2 million we are requesting in the fiscal year 2004 budget 
for ITDS will allow us to continue to develop and implement ITDS, and 
keep us on schedule to have full functionality rolled out by winter 
2006-2007.

Other Traditional Missions
    Although BCBP's priority mission is preventing terrorists and 
terrorist weapons from entering the United States, we know that we 
must--and will--accomplish that priority mission while continuing to 
perform our traditional missions well. Included among those missions 
are our responsibilities for interdicting drugs at borders and points 
of entry, apprehending individuals who enter the United States 
illegally, regulating and facilitating international trade, and 
protecting U.S. agricultural and economic interests from harmful pests 
and diseases.

Drug Interdiction
    Our counterterrorism and counternarcotics missions are not mutually 
exclusive, and one does not necessarily come at the expense of the 
other. The initiatives we put in place to prevent terrorists and 
terrorist weapons from entering the United States will enable us to be 
more effective in seizing other illegal contraband, including illegal 
drugs. And, it is worth noting that the lessons we have learned in our 
battle against international drug trafficking will help us in the fight 
against international terrorism. In many ways, our priority mission of 
preventing terrorists and terrorist weapons from crossing our borders 
is a natural outgrowth of our interdiction role.
    Our heightened state of security along America's borders will 
strengthen, not weaken, our counternarcotics mission. As we add 
staffing for both inspectors at the ports of entry and Border Patrol 
Agents between the ports of entry, acquire more inspection technology, 
conduct more questioning of travelers, and carry out more inspections 
of passengers and goods in response to the terrorist threat, it should 
come as no surprise that drug seizures will increase as well. As an 
example heightened security along the southwest land border produced a 
dramatic rise in the amount of cocaine seized in fiscal year 2002, 
compared to fiscal year 2001. Overall the amount of cocaine seized rose 
76 percent at the southwest land border stations. In addition, in 
fiscal year 2002, total Border Patrol narcotics seizures included over 
1.2 million pounds of marijuana and over 14,000 pounds of cocaine.
    Some specific recent examples of our successes against drug 
smuggling include:
  --On March 23, 2003, BCBP inspectors seized 394 pounds of cocaine in 
        Miami, Florida. The cocaine was found in false compartments in 
        the plane walls and ceiling.
  --On March 10, 2003, BCBP inspectors seized more than five tons of 
        marijuana in Laredo, Texas. The load was valued at over $10 
        million.
  --On March 13, 2003, Border Patrol agents seized 83.5 pounds of 
        cocaine and 3,141 pounds of marijuana in Laredo, with a 
        combined value of over $5 million.
  --During the week of March 1, 2003, BCBP inspectors seized $2.4 
        million of narcotics at the Hidalgo/Pharr Port of Entry, 
        including 559 pounds of marijuana, 74 pounds of cocaine, and 
        4.5 pounds of heroin.
    Effective coordination between inspectors at the ports of entry and 
agents who carry out investigative activities is essential to the 
success of our counternarcotics mission. For that reason, BCBP will 
continue to cooperate closely with special agents in BICE to carry out 
this mission.

Apprehending individuals entering illegally between the ports of entry
    The Border Patrol, now part of BCBP, is specifically responsible 
for patrolling the 6,000 miles of Mexican and Canadian international 
land borders and 2,000 miles of coastal waters surrounding the Florida 
Peninsula and the island of Puerto Rico. Their primary task is securing 
America's borders between official ports of entry. Foremost, the Border 
Patrol's mission is to provide for the national security of the United 
States by preventing the illegal entry of people, goods, and contraband 
across our borders. Secondly, Border Patrol operations are designed to 
detect, interdict, and apprehend those who attempt to illegally enter 
the United States or transport any manner of goods or contraband across 
our borders. The Border Patrol also maintains traffic checkpoints on 
highways leading from border areas, conducts city patrol and 
transportation checks, and carries out anti-smuggling investigations.
    The Border Patrol executes its mission through a proper balance of 
agent personnel, enforcement equipment (such as a fleet of specialized 
aircraft and vehicles of various types), technology (such as sensors 
and night vision cameras), tactical infrastructure (such as roads and 
vehicle barriers), and intelligence and liaison efforts. Often the 
border area in which these efforts are brought to bear is a barely 
discernible line in uninhabited deserts, canyons, or mountains.
    Although the scope of the Border Patrol mission has not changed 
since the terrorist attacks of September 11, 2001, enforcement efforts 
have been accelerated, to enhance Border Patrol presence along the 
northern border and to make clear that its priority mission--like 
BCBP's--is keeping terrorists and terrorist weapons from entering the 
United States. As we expand that presence on the northern border, it is 
also essential that we expand control of the southwest border.
    In fiscal year 2001 and 2002, Border Patrol Agents apprehended a 
combined total of over 2 million people for illegally entering the 
United States. In fiscal year 2004, the Border Patrol will continue 
focusing on strengthening northern border security between the ports of 
entry; maintaining and expanding border enforcement capabilities on the 
southwest border, with primary focus on the Arizona corridor; and 
expanding and integrating technologies with other components of BCBP to 
support border control efforts.

Preventing individuals from entering illegally at the ports of entry
    With respect to preventing individuals from entering the country 
illegally at the ports of entry, BCBP works with the Department of 
State to ensure BCBP inspectors have the tools they need to verify the 
identity of visa holders and the authenticity of visas issued by the 
Department of State. Data on holders of immigrant visas is transferred 
electronically to ports of entry. When the electronic record is updated 
to reflect an immigrant's admission at a port of entry, that data is 
transferred electronically to the Bureau of Citizenship and Immigration 
Services for production of a permanent resident card and creation of 
the immigrant file.
    More importantly, beginning in 2002, immigration inspectors--now in 
BCBP--have had access to photographs and data transmitted 
electronically by the Department of State relating to holders of 
nonimmigrant visas. This permits inspectors to review visa application 
data and verify the identity of the holder. Senior BCBP and State 
Department staff met during the week of March 24 to reaffirm their 
commitment to these initiatives and to outline new goals for electronic 
data sharing that will expand the exchange of data between State and 
BCBP, and further enhance both the visa issuance and inspections 
process.

Regulating and facilitating international trade
    BCBP maintains responsibility for regulating and facilitating 
legitimate international trade. With the right level of industry 
partnership and the right combination of resources, we can succeed not 
only in protecting legitimate trade from being used by terrorists, but 
also in actually building a better, faster, more productive system of 
trade facilitation for the U.S. economy. The Office of Trade Relations 
has helped ensure effective, extensive communication between U.S. 
Customs and all facets of the trade community. It remains a central 
point through which the trade community can convey issues to BCBP, 
especially the broad issues of how we do business together, and how we 
improve the security of our country against the terrorist threat.

Protecting U.S. agricultural and economic interests from harmful pests 
        and diseases
    An important part of BCBP is the agriculture border inspection 
program formerly in the Agriculture and Plant Health Inspection Service 
(APHIS). Thus, a significant part of BCBP's mission is preventing 
agricultural pests and diseases from crossing U.S. borders, either 
through intentional--possibly terrorist--acts, or through unintentional 
means. BCBP minimizes the threat of invasive species entering the 
United States by conducting inspections of travelers and cargo at our 
ports of entry. We have revised the Customs Declaration as directed by 
the Committee. The global economy and free trade expansion have 
dramatically increased the volume of passengers and cargo arriving in 
the United States from foreign locations, and this has created an 
increased need for agriculture inspection resources. In addition, 
foreign animal diseases, such as Foot-and-Mouth Disease (FMD), that 
exist in other countries pose serious threats to our livestock industry 
and therefore require us to increase inspectional activities at our 
borders.
    The President's fiscal year 2004 funding request will provide 
additional inspections and canine teams that will increase our 
effectiveness in preventing dangerous diseases and pests from entering 
the United States.

User Fees
    User fees make up a significant portion of BCBP's budget. In fact, 
combined, they represent over $1 billion of our overall budget. An 
additional $1.1 billion in Merchandise Processing Fees is collected as 
an offset to our appropriations. In fiscal year 2003, we expect to 
collect $991 million in user fees, $305 million of which comes from 
fees established under the Consolidated Omnibus Budget Reconciliation 
Act (COBRA). We expect to collect $1.1 million in Merchandise 
Processing Fees in fiscal year 2003. The fiscal year 2004 budget 
request assumes that the fees established under COBRA, which expire at 
the end of the fiscal year 2003 will be reauthorized.

Conclusion
    Mr. Chairman, Members of the Subcommittee, I have outlined a broad 
array of initiatives today that, with your assistance, will help BCBP 
to protect America from the terrorist threat while fulfilling our other 
traditional missions. We know that this new agency, BCBP, faces great 
challenges in merging the border agencies and in fulfilling both our 
priority and traditional missions. But, now that all the Federal 
Inspection Services and the Border Patrol have been unified in BCBP, 
under the Department of Homeland Security, we are in a far better 
position to meet those challenges and accomplish those goals. We will 
be far more effective working together, than we were as separate 
agencies in different departments. With the continued support of the 
President, DHS, and the Congress, BCBP will succeed in meeting the 
great demands placed upon it, and will play a key role--by better 
securing our border against the terrorist threat--in the Department of 
Homeland Security.
    With your support for BCBP's 2004 budget request, we will be able 
to build this new agency, continue and expand our counterterrorism 
initiatives, and improve our efforts to protect America, the American 
people, and the American economy.
    Thank you again for this opportunity to testify. I would be happy 
to answer any of your questions.

    Senator Cochran. We will now hear from Admiral James M. 
Loy, Administrator of the Transportation Security 
Administration.

                   STATEMENT OF ADMIRAL JAMES M. LOY

    Admiral Loy. Good morning, Senator Cochran, Senator Byrd, 
and members of the Subcommittee. First, let me offer my 
condolences to the Senate on the loss of Senator Long. I know 
that long-serving, distinguished member is on all of your minds 
this morning.
    Mr. Bonner and Director Patrick, they both work 
tremendously in our new Department of Homeland Security and I 
am proud to sit with them here this morning. I am pleased to 
testify this morning and allow me to congratulate each member 
on their assignment to this enormously important committee. As 
we work together today, we still are at war, both overseas and 
here at home as we try to understand and cope with this 9/11 
security environment.
    We need look no further than today's headlines, as Senator 
Byrd has reminded us, the truck bombs in Riyadh, Saudi Arabia, 
let alone the TOPOFF exercise that is being run in Seattle and 
Chicago. This is today's business, and we are in the midst of 
it. Thank you, sir.
    The global war on terrorism is a frightening notion to many 
Americans, because we know so little about this new enemy with 
no flag and no borders, but with a hatred that truly seems to 
defy our comprehension. And I join you today, representing a 
TSA relocated into the Department of Homeland Security. It is 
clearly the right place for us, because our mission is 100 
percent homeland security.
    I can report to you that as a person, we at DHS are working 
hard to build the Department's capacity to secure America. Let 
there be no doubt it is very hard work.
    There seemed to be vulnerabilities everywhere. And the 
President has provided the vision, the Congress has provided 
the framework, and Secretary Ridge is leading the way to 
breathing life into DHS. We will get this right.
    I will be brief this morning, Mr. Chairman, I would like to 
mention just a couple of words on four things. First to look 
back over my shoulder for a moment. I spent 42 years in 
uniform. I went to war in Vietnam. I went to Valdez where there 
were 11 million gallons of crude oil in Prince William Sound. I 
commanded ships at sea. I directed operations that saved tens 
of thousands of lives, Haiti and Cuban migrant crises. And I 
can truthfully say that this past year has been the most 
challenging and rewarding leadership experience of my life. It 
continues apace today with no end in sight.
    The work is gratifying. The stakes are impossibly high. I 
am surrounded by deeply committed patriots and am enormously 
proud of what we have accomplished this past year. I am also 
enormously appreciative of the patience shown by the 
Administration and the congressional subcommittees who provided 
oversight and resources as we grappled to meet the 36 mandates 
outlined in ATSA.
    We literally re-baselined our budget a half-a-dozen times 
over the course of this past year, as we learned day by day 
what the price tag on one hand and the programmatic direction 
on the other should be for this new agency.
    We are really still doing that. Week by week, we juggle 
both the job description and the budget. I believe that is 
pretty normal, as the Congress and the Administration sort out 
the expectations that they have for this new agency.
    Even as we speak, we continue to sort out a spending plan 
for the rest of fiscal year 2003. I hope to have that to the 
committee shortly. We have certainly learned from this 
experience and want to work closely with you on our fiscal year 
2004 requirements so that we can avoid the significant 
adjustments necessary to accommodate the allocations not 
included in the President's request.
    The Congress has been particularly patient with me as we 
respectfully disagreed on the size of the screener work force 
needed to secure our airports. As you know, we are grappling 
with that now as part of our effort to make efficiency and 
effectiveness our trademarks at this agency.
    You have all heard many times the inventory of 
accomplishments this past year, so I will not repeat them. What 
I will repeat is the pride we all take at TSA in what we got 
accomplished.
    Were there holes and bad days and things we wish we did 
better? Of course. We were and we are at war. But even those 
things we did poorly are being systematically cleared up one by 
one. You have my pledge to complete that task. And in the 
meantime, we have done a lot of things well, on time, on 
budget, and against huge expectations that they simply could 
not be done.
    Second, the President's 2004 budget seeks $4.81 billion, 
about half of which is to be financed by the passenger and 
airline fees established in ATSA. This budget is dedicated to 
stabilizing and strengthening our essential missions.
    The request is some $350 million less than the budget 
enacted in the fiscal year 2003 Omnibus Appropriations Act. 
That is reasonable considering how much of our 2002 and 2003 
experience focused on one-time start-up costs, including $1 
million per machine and significant contractor outlays.
    The President's request seeks funding in five major areas: 
aviation security; maritime and land security; intelligence; 
R&D; and administration. And the documents submitted itemize 
specific dollars for all five areas, and I will gladly go into 
specifics during questions.
    Third, I would like to comment on a small but very 
important group of special projects that we have underway. Much 
has been written recently about CAPPS II. I certainly invite 
the Committee's questions, but let me just say it will be the 
most significant tool we build to contribute to both security 
and customer service. We have offered a number of briefs to the 
Congress, and they have all been well attended. And we will 
provide more as requested.
    I understand deeply the privacy implications of the 
project, and we are reaching out systematically to gain counsel 
and input from all as we build this project and its privacy 
strategy. I am absolutely committed to providing Americans a 
full measure of both security and privacy, and I ask for your 
informed support for this project.
    Our Transportation Worker Identification Credential project 
is now in its evaluation stage. It will offer efficient and 
effective leaps forward in identification and verification and 
access control for workers across the transportation system. I 
am appreciative of the Committee's support for TWIC and ask 
that it continue.
    These two projects, TWIC and CAPPS II, provide the 
foundation blocks for a ``Registered Traveler'' Program, which 
will expedite processing for those who volunteer to meet its 
specifications.
    Lastly, the Federal Flight Deck Officer Program. We have 
trained and graduated our prototype class of 44 volunteer 
pilots, which we conducted at FLETC. We will learn from that 
experience and tweak the curriculum as necessary to press on to 
the full scope training that will add another dimension to our 
layered security system in aviation.
    Mr. Chairman, I want to address just three personal 
organizational goals, and I intend to focus on them until I get 
them right. The first is to finish the work we started at the 
Nation's airports. We crossed the country twice and left a wake 
behind us in many places. We must finish the checkpoint 
reconfiguration work where needed, and we must finish the 
explosives detection installations in many airports across the 
country.
    A few airports must still be brought to 100 percent 
electronic screening. Others must be kept in compliance as the 
busier flying season approaches. Equipment must be repositioned 
because it had to be installed often in haste and in lobbies to 
meet the 12/31/2002 deadline.
    There are some airports where simple efficiency and 
effectiveness suggest inline EDS installations as the only 
reasonable alternative. And my goal is to optimize the use of 
every dollar appropriated for this task to get as much of this 
work done as soon as possible.
    I thank the Congress for the provision of the Letter of 
Intent (LOI) tool. It will instantly enable us to negotiate 
with airport directors to leverage private sector capital to 
accomplish these projects and then reimburse those airports 
over multiple budget cycles.
    My second goal is hinged to the first. We will aggressively 
manage the size of our workforce. I have two staff projects 
underway to right-size the screener workforce. One in the short 
term, and one midterm, both based on risk management 
principles.
    I will challenge every position in the model used and 
insist the new standard pass the common sense test. I will also 
challenge every FSD, Federal security director, to optimize his 
or her management of the resulting screener force. That means 
we replace attrition over the next couple of months, even 
years. The focus as we do that will be on part-time hiring to 
provide the flexibility necessary at those airports. We will do 
this work with great respect to our workforce but we will meet 
the reduction goals and do so with the first skills-based 
retention program in this Government's history.
    My last focus, Mr. Chairman, will be on building an 
adequate administrative support structure in TSA. I must ensure 
that we have in place the structure to adequately deal with 
contract oversight, workforce administration, EEO complaints, 
customer inquiries, and those other classic support functions 
that we only talk about when they do not get done well.
    Our new H.R. contractors will be held accountable for what 
we expect of them. We brought aboard 55,000 people in very 
short order and are only now building the H.R. infrastructure 
they deserve. These are dedicated Americans employed to provide 
us the security we demand, and we owe them the model workplace 
that I have described.
    In closing, Mr. Chairman, allow me to follow up on the 
discussion the subcommittee had with Mr. Hutchinson last week. 
Several members asked him about transportation sectors other 
than aviation. ATSA is very clear that TSA is responsible for 
the security of the entire transportation system. And I take 
that charge quite seriously and am close to the first draft of 
a national transportation system security plan. We will deal 
with aviation, maritime, rail, transit, highways, and pipelines 
as the six critical elements of that system.
    Our intention is not to necessarily do security in those 
other five sectors in the people-intensive way that we were 
required to do so in aviation. But we must ensure the other 
modes are adequately security conscious.
    The Congress has expressed a keen interest in ports and 
rail, and I believe my charter is to be able to advise 
Secretary Hutchinson and Secretary Ridge as to the security, 
status and readiness of the entire system. I look forward to 
working with all the transportation stakeholders in the 
Congress to eliminate any weak links from our system and to 
integrate this work into the greater homeland security 
challenge being met by DHS.

                           PREPARED STATEMENT

    Thank you, Mr. Chairman. I look forward to your questions, 
sir.
    Senator Cochran. Thank you very much, Admiral Loy.
    [The statement follows:]

               Prepared Statement of Admiral James M. Loy

    Good morning, Chairman Cochran, Senator Byrd, distinguished Members 
of the Subcommittee. I am pleased to testify before the Subcommittee on 
the fiscal year 2004 Budget request for the Transportation Security 
Administration (TSA). I join you today representing TSA as part of the 
new Department of Homeland Security (DHS). Our inclusion in this new 
department is both fitting and natural, because our mission is 
completely aligned with the mission of DHS. Secretary Ridge is deeply 
engaged in fusing together the 22 agencies contained in DHS, and TSA is 
proud to be a part of the DHS team working to find efficiencies, make 
management improvements, and coordinate the necessary protection of our 
homeland.
    In a little over a year of existence, TSA has achieved much. We 
have met 100 percent of the aviation screening mandates and all of the 
other statutory deadlines set by Congress. We have focused on getting 
the job done and done well. Although we are off to a great start, there 
is still more to do to successfully accomplish our transportation 
security mission. Much of this additional work is about understanding 
the bigger picture of our national transportation security system, 
which is intermodal, interdependent, and international in scope.
    We wish to thank you for addressing TSA's critical needs with 
additional funding in the War Supplemental. This funding represents 
much needed relief in continuing to achieve results that are critical 
to our mission. We appreciate the additional resources and are taking 
action to fulfill the direction set in the legislation. We are working 
with your staff to explain our revised fiscal year 2003 TSA spending 
plan. As I recently announced, TSA will be reducing its workforce--
3,000 by May 31, 2003, and an additional 3,000 by September 30, 2003--
in the months ahead. In addition, TSA will reduce the cost for law 
enforcement and move away from fixed point stationing of officers, all 
the while maintaining appropriate security requirements. TSA also is 
working rapidly to implement the provisions of the supplemental 
legislation providing assistance to airlines for strengthening cockpit 
doors and for TSA-mandated aviation security costs and foregone 
revenue. We fully intend to make these disbursements within 30 days as 
Congress directed.
    Now I would like to speak to you about where TSA is going and how 
our fiscal year 2004 budget will get us there. I urge you first to 
consider TSA's critical budget needs in the context of where we have 
been. We have had to use available resources to build our organization 
from the ground up at the same time we have been focused on 
accomplishing our mission.
    I can report to you today that TSA has produced significant results 
during its short existence:
  --On Saturday, April 19, 2003 the inaugural class of volunteer 
        commercial pilots graduated from TSA's Federal Flight Deck 
        Officer (FFDO) training. After 48 hours of intensive training, 
        these pilots were sworn in as federal law enforcement officers, 
        with jurisdiction limited to the flight deck, or cockpit. These 
        officers add another layer of security to the skies.
  --We have identified, intercepted, and therefore kept off aircraft 
        more than 4.8 million dangerous items, including 1,101 
        firearms; nearly 1.4 million knives; 39,842 box cutters; 
        125,273 incendiary or flammable objects; and 15,666 clubs.
  --We have put in place a Federalized passenger and baggage screener 
        workforce, which has been widely complimented as professional, 
        courteous, and competent.
  --We have recruited, trained, and deployed a professional cadre of 
        Federal Air Marshals, who protect passengers and provide 
        security on aircraft.
  --We have implemented 100 percent screening of checked baggage 
        through EDS or Congressionally approved alternative means.
    I am personally committed to making TSA a model workplace as we 
achieve these and even greater results. This means building and 
maintaining carefully a professional culture across the organization to 
form a foundation for future success. This culture includes:
  --Aligning our operational programs with DHS and TSA threat-based 
        risk management plan;
  --Close and constant communication with the entire TSA workforce and 
        our stakeholders about our mission, vision, values, and goals 
        and objectives;
  --A commitment to rigorous performance management, both at the 
        organizational and individual levels;
  --Creating a diverse and inclusive workplace culture based on mutual 
        respect, fairness, optimal communication, cooperative problem 
        solving and teamwork, and enabling all TSA employees to perform 
        at the highest level;
  --Continued targeted investments in critical training and information 
        technology to reduce the size of the workforce while maximizing 
        its impact;
  --Creating a streamlined and effective administrative infrastructure 
        to support all our operations.
    A key aspect of a true learning organization is to learn from past 
mistakes. We had some missteps last fall as we moved rapidly to hire 
screeners to meet the Congressionally mandated deadlines for 
Federalizing passenger screening checkpoints and complete 100 percent 
checked baggage screening. We have learned from these challenges and 
will continue to improve in this fiscal year and fiscal year 2004. Over 
the past several months, we have implemented several acquisition, 
financial, and other management initiatives that address fiscal year 
2002 concerns raised by the Subcommittee.
    As we build our culture and the organization, we must constantly 
focus on our mission. TSA's mission is to protect the Nation's 
transportation systems to ensure the freedom of movement for people and 
commerce. Our vision is to continuously set the standard for excellence 
in transportation security through TSA's people, processes, and 
technologies. We have embraced the values of integrity, innovation, and 
teamwork as we pursue excellence in public service. TSA also strives to 
be efficient and effective in its use of resources.
    Our strategic goals provide a clear understanding of our security 
responsibilities, including awareness of the full scope of potential 
risks; deployment of comprehensive prevention, protection and response 
activities; and organizational mandates to optimize performance and 
stewardship requirements. We are building a system of performance and 
accountability that incorporates a clear line of sight linking every 
employee's role and responsibility to the central TSA mission and 
strategic goals.
    In establishing and communicating our mission, vision and values, 
and in identifying our strategic goals, we have given all TSA employees 
and the stakeholders we serve a clear agenda of purpose and excellence. 
Our budget identifies the programs and resources required to most 
effectively achieve TSA's goals.
    In accomplishing our mission, we are also acutely aware of the 
challenge of maintaining balance--between freedom and security, and 
between security and customer service. Our mission is to ensure freedom 
of movement for people and commerce, and our process is to meet the 
needs and expectations of the American people with the greatest 
consideration for their privacy and the least disruption to their 
routine behavior. Our top priority is providing maximum security with 
minimum intrusion. TSA's fiscal year 2004 Budget of $4.812 billion is 
dedicated to stabilizing and strengthening our essential mission. Our 
fiscal year 2002 and fiscal year 2003 budgets included many large 
start-up costs, including the purchase and installation of necessary 
explosives detection equipment. Although these costs will not recur in 
fiscal year 2004, savings are partially offset by recurring costs for 
maintenance and administration. Before I summarize the key elements of 
our fiscal year 2004 Budget request, I would like to highlight several 
programs that I know are items of interest to Members of the 
Subcommittee.
  --Computer Assisted Passenger Pre-screening System.--Funding in the 
        amount of $35 million is requested for development of the 
        second generation Computer Assisted Passenger Pre-Screening 
        System (CAPPS II). CAPPS II is an automated threat assessment 
        tool for airline passengers that can be modified based on new 
        intelligence information and changing threat priorities. It 
        will enhance aviation security, refine the passenger secondary 
        screening selection process, and improve airport passenger 
        flow. We are aware of privacy concerns with this system and are 
        building strong privacy protections into the system to address 
        those concerns. We will continue to work with key stakeholders 
        as development of this system moves forward. As Secretary Ridge 
        has committed to Congress, we will work closely with the 
        Department's newly appointed Privacy Officer to ensure that 
        CAPPS II respects the privacy rights of Americans. We have also 
        held several briefings, both in closed and open session, for 
        Members of Congress and their staffs and will work with 
        Congress to create a better understanding of what CAPPS II is 
        and is not.
  --Federal Flight Deck Officers.--A request of $25 million will 
        support the first full year of implementation of federal flight 
        deck officer training, which supports the recently passed 
        legislation authorizing the arming of pilots. These pilots will 
        complement the Federal Air Marshals deployed within the 
        aircraft and will be authorized to act only if the cockpit is 
        threatened. TSA has established an initial program for 
        participant qualification and is planning for requalification 
        certification. Our prototype class just graduated April 19, and 
        it is expected that the training program will be ready for full 
        deployment in late fiscal year 2003 and fiscal year 2004.
  --Transportation Worker Identification Credential.--This initiative 
        focuses on developing identification standards for documents to 
        identify individuals for access purposes. Multiple types of 
        technology are being evaluated to determine the best approach.
  --Registered Traveler.--TSA requests $5 million to develop a 
        registered traveler program that will pre-screen low risk 
        travelers so that available resources can focus on unknown and 
        high-risk individuals.
  --Air Cargo Security.--The TSA budget requests $20 million to design 
        and develop a random, threat-based, risk-managed freight 
        screening process and continue the development of an automated 
        and enhanced ``known'' shipper program. It is estimated that 
        there are 12.5 million tons of cargo transported per year, 2.8 
        million tons of which is now secured on passenger planes and 
        9.7 million tons on cargo planes.
  --Explosives Detection System (EDS) Installation.--TSA is continuing 
        to work with airports to install remaining EDS systems and will 
        continue to ensure that all checked baggage is screened. As 
        part of our effort to utilize letters of intent (LOI) to 
        optimize these installations, TSA expects to amend its fiscal 
        year 2004 request within the proposed funding level to finance 
        LOI costs. We will do so in the near future.
    The five major components of the TSA budget are Aviation Security, 
Maritime and Land Security, Research and Development, Intelligence, and 
Administration.

Aviation Security
    The majority of TSA's budget is centered on securing the air 
transportation system, as provided in the Aviation and Transportation 
Security Act. The September 11 terrorist attacks highlighted the need 
for vigilant aviation security, and there is every indication that 
aviation will continue to be an attractive target for terrorist groups.
    Our first priority is to protect air travelers by continuing to 
build on the aviation security measures now in place at all of the 
Nation's more than 400 commercial airports, maintaining a balance 
between world-class security and outstanding customer service. TSA has 
set into place a system of reinforcing rings of security to mitigate 
the risk of future terrorist or criminal acts. These security measures 
cover air traffic from curbside to cockpit, supported overall by 
intelligence and threat analysis. In full compliance with Congressional 
deadlines and mandates, passenger and baggage screening operations are 
federalized and meet established standards of screening 100 percent of 
checked and unchecked baggage. The screeners we have trained and 
deployed put a face on TSA and provide to the American public the most 
visible expression of our efforts. Their thoroughness, professionalism, 
and courtesy are key elements in restoring and maintaining the 
traveling public's confidence in the safety of aviation. We have also 
deployed state-of-the-art metal detectors and explosives detection 
machines.
    TSA has selected 158 Federal Security Directors to oversee air 
transportation security, and worked with State and local officials to 
post law enforcement personnel at passengerscreening checkpoints. I 
appreciate the authority provided by Congress for flexible stationing 
of law enforcement officers where we feel it is appropriate. TSA both 
performs background checks for TSA airport personnel, and also 
undertakes regulatory inspection and enforcement of agency security 
directives. We are providing these security measures with a workforce 
that is proud of its important work and that has won the respect of the 
traveling public.
    The $4.2 billion request for aviation security activities for 
fiscal year 2004 includes approximately $1.8 billion for passenger 
screening, $944 million for baggage screening, and $1.5 billion for 
airport support and enforcement.
    Fully funding the fiscal year 2004 funding request will allow TSA 
to ensure the safety of the traveling public in secure airport 
terminals and aboard aircraft. TSA will continue to implement 
efficiencies in screening operations, including both technological 
enhancements and cross training of passenger and baggage screeners, to 
further reduce the reliance on personnel. As a result, our 2004 request 
represents a staffing decrease of 3,000 screeners as compared to 2003 
levels.
    We are requesting $27 million to expand deployment of technologies 
to improve physical security at the passenger and baggage screening 
checkpoints. We will be augmenting existing surveillance systems 
currently in use or planned at many airports, sharing cost and 
information with airports.
    The President is requesting a total of $45 million for risk 
management initiatives to increase the effectiveness and efficiencies 
of the passenger screening process. This includes the $35 million for 
the CAPPS II project already described above, plus $5 million to 
support the creation of a registered traveler program to increase 
security while decreasing the hassle factor for travelers. The goal of 
such a program is to better utilize available resources by focusing on 
unknown and high-risk individuals. Another $5 million is requested to 
continue background checks for airport personnel and vendors operating 
in secure terminals of an airport to streamline the gate screening 
process.
    To provide baggage-screening security, TSA uses a combination of 
EDS; explosives trace detection machines (ETD), and where necessary 
other congressionally approved alternative methods of screening, such 
as passenger-bag match, canine teams, and physical search. EDS is 
deployed as a cost-effective screening process at many of the higher 
volume and high-risk airports, and ETD is deployed as a comparable 
screening system of acceptable effectiveness at those airports where 
operational factors do not warrant EDS deployment.
    In 2004, TSA will continue to improve the efficiency and 
effectiveness of baggage and cargo screening. We expect ``on-screen'' 
resolution procedures to reduce many false alarms. We request $100 
million for in-service upgrades and maintenance of approximately 8,000 
explosives trace and detection devices at more that 400 commercial 
airports. TSA will continue to develop information on EDS performance 
to assure that our baggage screening equipment and procedures represent 
the most effective and reliable operations available.
    Consistent with our multi-layered approach, TSA requests $900 
million to provide strong security direction and enforcement presence 
on-site at the Nation's commercial airports. This funding will support 
a numbers of different activities. This includes the 158 Federal 
Security Directors and support staff, the required leasing of airport 
space and the development of IT infrastructure to support those 
offices. These funds will provide resources for working with State and 
local law enforcement personnel, where appropriate, to ensure passenger 
safety and national security. This funding will also continue the 
regulatory screening and enforcement program to monitor security 
measures performed by airport operators and air carriers. It is 
imperative that a standardized approach to physical aviation security 
measures be implemented at the Nation's airports. TSA field inspectors 
across the country will perform the regulatory screening and 
enforcement activities, which were previously administered by the 
Federal Aviation Administration's Civil Aviation Security program. 
Finally, this funding includes funds requested to expand the Federal 
Flight Deck Officer program to train and arm volunteer pilots.
    A request of $600 million will support the full complement of 
officer and support staff assigned to the Federal Air Marshal Service 
(FAMS). The Federal Air Marshals are an integral part of our layered 
rings of security for aviation, defending against on-board passengers 
intending to harm an aircraft and our aviation system.

Maritime & Land Security
    As the prospect of further terrorist attack continues to loom, the 
security of maritime and land transportation systems merits additional 
consideration. TSA, as part of the Border and Transportation Security 
Directorate, is partnering with other DHS organizations, such as the 
Coast Guard, the Bureau of Customs and Border Protection, the 
Information Analysis and Infrastructure Protection (IAIP) Directorate 
and the Science and Technology Directorate of DHS, to address other 
surface and maritime transportation security responsibilities.
    The Memorandum of Agreement I have signed with the Federal Aviation 
Administration and correspondence I have exchanged with Secretary 
Mineta establish the framework for continued cooperation with the 
Department of Transportation. We continue to partner with the operating 
administrations of the Department of Transportation, that provide a 
vital link with the transportation providers to ensure that there is 
neither duplication nor are there gaps in critical federal 
transportation security initiatives. The framework provides a vehicle 
for continuing cooperation and collaboration, and paves the way for 
further security-related legislation, rulemaking, resource utilization, 
and administration of transportation security grants.
    TSA is proceeding on a number of fronts, including.--(1) awarding 
grants to improve the security of ports and cargo, (2) working with the 
IAIP Directorate and the Coast Guard to design a terrorism risk 
assessment tool tailored specifically to maritime and surface 
transportation facilities, and (3) working with our other federal 
partners to ensure intermodal consistency, where appropriate, in 
security regulations for the national transportation system, including 
requirements that will facilitate assessing and improving the security 
of transportation facilities and infrastructure.
    TSA's Maritime and Land operations are continuing to work with 
IAIP, the Coast Guard, and the Bureau of Customs and Border Protection 
to develop security standards and regulations for all non-aviation 
modes of transportation. These efforts will include benchmarking to 
establish best practices, industry outreach, and extensive 
collaboration with Department of Transportation (DOT) agencies in order 
to leverage these agencies stakeholder contacts and transportation 
expertise. These standards will not displace or conflict with the 
security standards being developed by other federal agencies. Rather, 
they will complement the efforts of other federal agencies to ensure 
there are no gaps in the security of the national transportation 
system.
    Specific project funding included in the fiscal year 2004 
President's request includes $55 million for the Transportation Worker 
Identification Credential (TWIC), a sophisticated access control 
credential, and $2.5 million to complete work on our Operation Safe 
Commerce pilot program, to continue to learn the best approach to 
dealing with the container vulnerability threat.

Research & Development
    TSA is requesting $20 million for aviation related research and 
development initiatives in 2004. This request includes initiatives 
related to Next Generation EDS ($10.0 million), and Air Cargo ($10.0 
million). The Next Generation EDS initiative aims to increase 
throughput and lower false alarm rates at equivalent or better 
detection performance capability. This program will perform simulation 
and modeling of alternative checked baggage-screening technologies, and 
expand systems testing of off-airport screening capability. This 
research will also explore EDS screening capabilities for small 
airports.
    The request of $10 million for the Air Cargo Pilot will support 
research and development of new performance methodologies in detecting 
threats to air cargo. The 2004 effort will continue to address how 
existing devices and procedures can best be applied to air cargo, and 
to investigate new air technology security concepts, including advanced 
sensors for effective cargo screening.

Intelligence
    TSA is requesting $13,600,000 to continue to support 100 TSA 
intelligence positions in 2004. Included in the base funding request 
are base salaries and benefits, including locality pay, and data base 
access and equipment maintenance requirements. As part of DHS, TSA will 
work to integrate its analysis and products with other intelligence 
components of DHS while continuing to support its transportation 
customer base with analysis on transportation security and 
intelligence. DHS will disseminate information on possible threats as 
rapidly as possible to our Federal Security Directors, airport staff, 
and airline personnel, current and strategic warnings will be provided 
regarding threats to U.S. transportation modes, and trends and changes 
in targeting will be identified. TSA is working with IAIP to increase 
its intelligence capabilities increase in other transportation areas 
and to disseminate information to other key officials.

Administration
    Funding in the amount of $421.2 million is requested for essential 
administrative support of program activities. This amount represents 
less than 10 percent of TSA's total budget request, and provides 
financial and human resources support; information technology support; 
policy development and oversight; performance management and e-
government; communication, public information and legislative affairs; 
training and quality performance; internal conduct and audit; legal 
advice; and overall headquarters administration.
    Effective use of information technology (IT) is key to TSA's 
success, and $145.2 million of the administrative request supports 
information technology core requirements, which are being provided 
through a managed service contract.
    As a new organization, we have used the opportunity of our ``clean 
slate'' to create a lean administrative infrastructure that can serve 
as a model for other agencies. We have outsourced high volume 
administrative activities to streamline Government operations.
    TSA's management structure and business processes are fully aligned 
with the President's Management Agenda, and we are establishing a 
culture of management efficiency through initiative and innovation.
    In the human capital area, training and performance assessment will 
continue to receive high priority focus and resources, and in fiscal 
year 2004, TSA will address human capital planning, standards for 
internal accountability systems, and organizational development. We 
have stood up a large organization and now must concentrate on building 
the infrastructure to support that workforce.
    Competitive sourcing has been a key component of TSA since its 
inception, and TSA will continue to use the private sector to perform 
commercial functions whenever possible and appropriate. For example, 
TSA has outsourced the hiring, training, and servicing of screeners; 
the design and installation of explosives detection equipment; and the 
redesign and reconfiguration of passenger checkpoints. In fiscal year 
2004, TSA will continue to pursue contracting opportunities, 
particularly in the areas of equipment deployment and financial 
management, incorporating robust contract oversight into this process.
    Financial management is identified as a fundamental element of 
improving management of government programs. At its standup, TSA 
implemented the Department of Transportation's Delphi financial 
management system. Under the Department of Homeland Security, we are 
migrating to Oracle Financials, and exploring the use of Oracle and 
other financial systems to meet all Joint Financial Management 
Improvement Program requirements and to give managers budget and 
performance information on their program operations.
    The TSA budget request includes funding to continue to implement 
and maintain a comprehensive, enterprise-wide architecture to support 
TSA's mission and the President's E-Government initiative. This 
architecture will be the transport mechanism for data and will provide 
the necessary support services to TSA's major programs. TSA will also 
continue its e-government efforts through the implementation of the 
TSAWeb to provide public information as well as shared services and all 
mission-critical, operational and administrative applications for 
internal and external stakeholders.
    We will adopt budget and performance integration as the fundamental 
structure of TSA's program planning and execution to make sure we 
support and fund those programs that make American transportation 
systems more secure. We will establish accountability by linking how 
much we're spending with what we're achieving. TSA intends to implement 
full integration of cost accounting that links costs to performance 
goals and therefore to performance results.
    I have initiated a rightsizing project that will enable us to 
reduce the screener workforce as called for in both the fiscal year 
2003 and fiscal year 2004 budgets. Obviously, this will be done in a 
manner that is consistent with maintaining the security paradigm. We 
will use a riskbased approach to rightsize our workforce and 
demonstrate to the President and Congress that we are obtaining the 
maximum security and protection for the traveling public from the 
resources provided. That is our challenge and I intend to meet it.
    Mr. Chairman, Senator Byrd, Members of the Subcommittee, we intend 
to meet our responsibility for providing security for the Nation's 
transportation systems with both sensitivity and common sense, by 
meeting core statutory requirements, by developing and implementing 
supplementary programs, and by partnering with Federal, State, and 
local agencies, and with private industry and other stakeholders, to 
advance the mission of protecting our homeland.
    The role of the Transportation Security Administration in meeting 
this challenge is unmistakable. The nine stars and eleven stripes that 
appear behind the American eagle on the TSA logo are a daily visual 
reminder of the ``Why'' of our organization. The programs and resources 
I have talked about today represent the ``How''. I appreciate the 
support TSA has received from this Subcommittee and look forward to 
working with you as we continue this important effort. I will be 
pleased to answer your questions.

    Senator Cochran. We will now hear from Ms. Connie Patrick, 
Director of the Federal Law Enforcement Training Center.

                STATEMENT OF DIRECTOR CONNIE L. PATRICK

    Ms. Patrick. Good morning, Chairman Cochran, Senator Byrd, 
and the other distinguished members of the committee. It is a 
pleasure to be here with you today to discuss the President's 
fiscal year 2004 budget request, our first under the Department 
of Homeland Security.
    This marks our first opportunity to appear at--for me to 
appear before a Senate subcommittee since being appointed the 
Director of the Federal Law Enforcement Training Center in July 
2002.
    I want to extend my appreciation to Secretary Tom Ridge and 
Under Secretary Asa Hutchinson, who have already demonstrated 
their enthusiastic and unqualified support for the vital role 
of the FLETC and the role it is expected to play in the new 
Department of Homeland Security.
    I also want to acknowledge the support the Congress has 
long extended to the FLETC. I stand ready to work with you and 
direct the FLETC towards successful completion of the 
objectives set forth by the Administration and Congress in the 
protection of our national security and interests.
    The two pillars upon which FLETC was founded are quality in 
training and economy of scale. Neither of these can be achieved 
without the cooperation of our partner agencies. There are now 
75 partner agencies who train at the FLETC. And we all train 
under the concept of consolidated training, which means we 
share training knowledge and experience, funds, and law 
enforcement training uniformity and standardization to 
accomplish the mission.
    FLETC is now 33 years old. We have trained more than 
500,000 agents and officers across government, and have 
graduated them from both agent and officer training programs. 
Those programs include statutory requirements for law 
enforcement, as well as ethical training, firearms, physical 
training, investigative skills and techniques. I think it is 
important to mention that for every dollar given to training, 
it goes not directly to one agency, but to 75 agencies.
    Mr. Chairman, as we enter a new era in law enforcement 
operations in the United States, I believe that FLETC is a 
great example of a government approach intended by the 
legislation creating the Department of Homeland Security, a 
means to harmonize the work of many law enforcement agencies 
through common training, while at the same time maintaining 
quality and cost efficiency.
    In fiscal year 2003, 65 percent of the FLETC's projected 
workload will come from the nine law enforcement agencies 
transferred into Homeland Security. In fiscal year 2004, this 
work will continue to be above 50 percent of our estimated 
total Federal training workload. And within the last week those 
numbers have been reported to me to be approximately 73 percent 
of our workload, will come from the nine law enforcement 
agencies now in Homeland Security. In addition to that, we 
maintain robust State, local, and international law enforcement 
training activities, many of which will help further complement 
the mission to secure our homeland.
    Under the leadership of Secretary Ridge and Under Secretary 
Hutchinson, FLETC intends to work closely with all segments of 
DHS. FLETC, as a member of DHS, will help support the unity of 
command and the coordination and efficiency themes sought in 
the public law that created the Department.
    FLETC has a long history of service to many of the DHS 
components, to include the Secret Service, the Customs and 
Immigration and Naturalization Services, including the Border 
Patrol, the Federal Protective Service, and most recently, the 
Transportation Security Administration.
    With the establishment of the Bureaus of Customs and Border 
Protection and Immigration and Customs Enforcement, FLETC is 
ready to help facilitate, develop, and implement new training 
and cross-training programs. We recognize that much of this 
effort and expertise will necessarily come from the agencies 
involved, and that there will be significant adjustments made 
over time to all DHS-related training programs, basic and 
advanced. We are already involved in a systematic review of the 
existing training for these new entities to address the need to 
meld the duties of the participants. In the meantime, training 
will continue unabated to achieve the expectations of our 
agencies.

                    FISCAL YEAR 2004 BUDGET REQUEST

    In this fiscal year 2004 budget, the President submitted a 
budget request for the FLETC that included an operating 
expenses appropriation of approximately $122 million, and 754 
FTE. The request for the Capital Acquisitions appropriation is 
approximately $24 million, for a total request of just over 
$146 million.
    FLETC's overall fiscal year 2004 budget is $206.058 million 
based on an estimated $60 million in funds to be reimbursed by 
partner agencies for certain training and related services. As 
a matter of long-established fiscal policy, the FLETC 
operations are partially covered by agency reimbursements in 
addition to the appropriation authorized by Congress. 
Essentially, this has evolved to a point where FLETC funds the 
mandated entry-level training and facility development and 
operations, while the participating agencies reimburse us for 
certain training costs and support.

                         OVERVIEW OF OPERATIONS

    As part of my discussion, I would like to provide you with 
a brief overview of the operations of FLETC. We conduct both 
basic and advanced training for the vast majority of the 
Federal law enforcement officers in the United States. We 
provide training for State, local, and international officers 
in specialized program areas and support the training provided 
by our partner agencies that is specific to their individual 
mission needs.
    In addition to our onsite training at the FLETC residential 
facilities, some advanced training, particularly for State, 
local, and international law enforcement, are exported to 
regional sites, many of which are in your States, and that 
provides a lower cost of training to our customers, as well as 
making it more convenient for them to obtain training.

                                WORKLOAD

    As a result of the September 11 attacks, our partner 
agencies' workload have increased significantly. We are 
projecting the greatest increase in training requirements in 
our history. And to give you just a scale on that, before 2001, 
our highest training workload was about 25,000 students. This 
year we will train approximately 37,000, and the numbers 
projected for next year are somewhere around 55,000 students.
    Over the years, the FLETC has experienced a number of 
periods of sustained growth in the training requests by its 
partner agencies, and we have been able to accommodate those by 
being innovative in the use of our existing resources. To meet 
the training needs, the FLETC continues to work on a 6-day 
workweek at the Glynco facility, which we began in January of 
2002.
    This format allowed FLETC to accelerate training to get 
students on the streets more quickly. In fact, we have 
graduated about 2,000 more students this year than we would 
have had we not been on a 6-day work week, just to meet the 
needs of our agencies, primarily those in DHS.

                  FACILITIES CONSTRUCTION MASTER PLAN

    For future planning purposes, FLETC contracted with a 
private firm experienced in facility planning to conduct a 
study that will project future facility requirements. This 
study should be completed shortly. It is a three-phase plan 
that will place emphasis on eliminating capacity shortcomings 
at all FLETC sites.
    It is important to point out that as we consider the plan 
to be--that we consider this plan to be a living document that 
may still undergo significant changes in the future as the 
requirements of DHS agencies become clearer.

                    SELECTED ACHIEVEMENT HIGHLIGHTS

    Very briefly, I would like to discuss just a couple of the 
specific achievements based on the support Congress and the 
Administration have given us. We have exceeded all of our 
performance targets. We completed our third year of a financial 
audit with an unqualified opinion. We have begun partnering 
with the Office of Personnel Management to provide law 
enforcement training on the new GOLEARN site. This partnership, 
initiated on January 20th of 2003, provides the first-responder 
communities secured, encrypted access to both general and 
customized law enforcement training. We are very excited about 
the great opportunities that lie ahead in the field of 
technology through the use of blended learning, combining the 
best uses of distance learning and hands-on residential 
learning.
    And finally, I want to note the progress that has been made 
in the area of accreditation and standardization. This project 
is fully underway, working in collaboration with Federal 
agencies, including the FBI, DEA, and the U.S. Postal 
Inspection Service; private organizations; professional 
associations; and others to develop a format to accredit 
training facilities, the instructors, and programs and courses 
provided by every Federal law enforcement training 
organization. When this is fully implemented, it may prove to 
be one of the more far-reaching impacts that we have seen in 
law enforcement since the establishment of consolidated 
training itself.

                               CONCLUSION

    In closing, let me assure you that we are ready to provide 
the highest quality law enforcement training at the lowest 
possible cost. Substantial savings is being realized through 
the operation of consolidated training sites. We are aware of 
the important opportunities and challenges that remain ahead. I 
want to publicly commend the remarkable people at FLETC and in 
our partner agencies who have contributed so much to the 
success of consolidated training. This concludes my prepared 
statement, and I would be pleased to answer any questions that 
you might have at this time.
    [The statement follows:]

                Prepared Statement of Connie L. Patrick

    Chairman Cochran, Senator Byrd, and distinguished members of the 
Subcommittee. It is a pleasure to be with you today, and I am pleased 
to discuss the President's fiscal year 2004 budget request for the 
Federal Law Enforcement Training Center (FLETC)--its first under the 
Department of Homeland Security.

                            OPENING REMARKS

    This marks the first occasion that I am appearing before the 
Homeland Security Subcommittee since my appointment as Director of the 
FLETC in July 2002. I want to extend my appreciation to Secretary Tom 
Ridge and Under Secretary Asa Hutchinson, who have already demonstrated 
their enthusiastic and unqualified support for the vital role the FLETC 
is expected to play in the new Department of Homeland Security (DHS). I 
also want to acknowledge the generous support the Congress has long 
extended to the FLETC. I stand ready to work with you and direct the 
FLETC towards successful completion of the objectives set forth by the 
Administration and Congress in the protection of our national security 
and interests.
    The two pillars upon which the foundation of the FLETC was formed 
are quality in training and economy of scale. Neither of these can be 
achieved without the cooperation of our partner agencies. More than 75 
Federal agencies are now participating in the FLETC concept of 
consolidated training, which means shared training knowledge and 
experiences, better use of available funds, and law enforcement 
training uniformity and standardization. During its 33-year history, 
more than 500,000 agents and officers, across all three branches of 
government, have graduated from training conducted at FLETC, ranging 
from individual agency statutory enforcement responsibilities and the 
more common elements of training required for all agencies, including 
ethics, firearms use, physical training, and investigative skills and 
techniques. Furthermore each dollar provided to FLETC goes for the 
benefit and use of every partner organization.
    Mr. Chairman, as we enter a new era in law enforcement operations 
in the United States, I believe the FLETC is a good example of the new 
government approach intended by the legislation creating the DHS: a 
means to harmonize the work of many law enforcement agencies through 
common training, while at the same time maintaining quality and cost 
efficiency. In fiscal year 2003, 65 percent of the FLETC's projected 
training workload will come from nine law enforcement agencies 
transferred to the new Homeland Security department. In fiscal year 
2004, this workload will continue to be above 50 percent of our 
estimated total Federal training workload. In addition, FLETC maintains 
robust State, local, and international law enforcement training 
activities, many of which will help further complement the mission to 
secure the homeland.
    Under the leadership of Secretary Ridge and Under Secretary 
Hutchinson, FLETC intends to work closely with all segments of DHS. 
Placing FLETC within the DHS will help to support the ``unity of 
command'' and the coordination and efficiency themes sought in the 
public law that created DHS. FLETC has a long history of service to 
many of the DHS components--the U.S. Secret Service, the former Customs 
and Immigration and Naturalization Services including the U.S. Border 
Patrol (USBP), the Federal Protective Service and more recently, the 
Transportation Security Administration (TSA).
    With the start-up of the Bureaus of Customs and Border Protection 
and Immigration and Customs Enforcement, FLETC is ready to help 
facilitate, develop, and implement new training and cross training 
programs. We recognize that much of this effort and expertise will 
necessarily come from the agencies involved, but there likely will be 
significant adjustments made over time to all DHS-related training 
programs, basic and advanced. Already, an effort is underway to 
systematically review existing training for these new entities and to 
address whatever capabilities are needed to meld the duties of the 
participants. In the meantime, training will continue unabated to 
achieve all of the hiring expectations of our agencies.
    Our experience with the TSA is evidence of our capability to work 
collaboratively, flexibly and quickly. For example, together our two 
agencies developed and implemented a new Federal Air Marshal (FAM) 
training program within days of the September 11, 2001 attacks. FLETC 
also assisted in the development of the security screeners prototype 
training and is currently assisting in the prototype of a Federal 
Flight Deck Officers (FFDO) training program.

                    FISCAL YEAR 2004 BUDGET REQUEST

    In his fiscal year 2004 budget, the President submitted a budget 
request for the FLETC that included an Operating Expenses (OE) 
appropriation of $122,379,000 and 754 full-time equivalents (FTE). The 
request for the Capital Acquisitions (CA) appropriation is for 
$23,679,000 and provides funding for all of the cyclical maintenance 
and upkeep of our permanent sites, including renovation of several 
older facilities in Glynco, GA.
    Together, the OE and CA fiscal year 2004 requests total 
$146,058,000. FLETC's overall fiscal year 2004 budget is $206,058,000 
based on an estimated $60,000,000 in funds to be reimbursed by partner 
agencies for certain training and related services. As a matter of long 
established fiscal policy, the FLETC operations are partially covered 
by agency reimbursements in addition to the appropriation authorized by 
Congress. Essentially, this has evolved to a point where FLETC funds 
the mandated entry level training and facility development and 
operations, while the participating agencies reimburse us for certain 
training costs and support.
    The fiscal year 2004 budget also revises FLETC performance measures 
to align them with the organization's mission and funding, consistent 
with the President's Management Agenda for budget and performance 
integration.

                         OVERVIEW OF OPERATIONS

    As part of my fiscal year 2004 budget discussion, I would like to 
provide the Committee with a brief overview of the operations of the 
FLETC and the resulting workload.
    The FLETC conducts basic and advanced training for the vast 
majority of the Federal Government's law enforcement officers. We also 
provide training for State, local, and international law enforcement 
officers in specialized areas, and support the training provided by our 
partner agencies that is specific to their individual mission needs. 
There are now more than 200 separate training programs offered through 
the FLETC and its partners. Twenty-three agencies maintain training 
academy operations at Glynco, GA, three are housed at Artesia, NM and 
one is located in Cheltenham, MD.
    The FLETC provides entry-level training programs in basic law 
enforcement for police officers and criminal investigators, along with 
advanced training programs in areas such as marine law enforcement, 
anti-terrorism, computer forensics, health care fraud, and 
international banking and money laundering. Training is conducted at 
Glynco, GA, Artesia, NM, and Charleston, SC facilities.
    The Charleston, SC site was established in fiscal year 1996 to 
accommodate a large increase in the demand for basic training, 
particularly the former USBP. The training workload increase over a 
period of years for the former USBP and other former Immigration and 
Naturalization Service (INS) training categories was the direct result 
of initiatives to control illegal immigration along the United States' 
borders. That training is expected to continue to be of substantial 
importance with respect to the integration of border personnel and 
functions.
    In addition to the training conducted on-site at the FLETC's 
residential facilities, some advanced training, particularly for State, 
local, and international law enforcement, is exported to regional sites 
to make it more convenient and affordable for our customers. The use of 
export sites for other types of training has proven to be highly 
successful. In using these sites, most of which are local police 
academies, the FLETC does not incur any capital expenditure 
obligations.

                                WORKLOAD

    During fiscal year 2002, the FLETC graduated 32,092 students, 
representing 160,677 student-weeks of training. This total included 
22,158 students who were trained at Glynco, GA; 5,952 students trained 
at Artesia, NM; 959 students trained at the training site in 
Charleston, SC; and 3,023 students trained in export programs. There 
were 19,881 basic students; 9,188 advanced students; and 3,023 
international students trained, providing for an average resident 
student population (ARSP) of 3,090.
    As a result of the tragic September 11th attacks, our partner 
agencies' workload projections increased significantly. FLETC is 
projecting the greatest increase in training requirements in its 
history. In fiscal year 2003, the FLETC will train 37,848 students 
representing 205,692 student-weeks of training. This total includes 
30,184 students to be trained at Glynco, GA; 3,423 students at Artesia, 
NM; 1,899 students in Charleston, SC; and 2,342 students in export 
programs. A total of 22,746 basic students; 12,760 advanced students; 
and 2,342 international students are projected for a total ARSP of 
3,956. Simply stated, this growth is unprecedented.
    Over the years, the FLETC has experienced a number of periods of 
sustained growth in the training requests by its partner agencies, and 
we have been able to accommodate most of these increases by being 
innovative in the use of our existing resources. To meet the training 
needs, the FLETC continues the 6-day workweek at Glynco, GA that was 
started in January 2002. By implementing this format, FLETC will be 
able to accelerate training to get students graduated more quickly and 
``on the streets''. Our inclusion of an additional day of training 
resulting in a 6-day workweek in fiscal year 2002, and into fiscal year 
2003, has enabled us to graduate over 2,000 more law enforcement 
officers and agents than we could have graduated on the normal 5-day 
workweek. Through the use of a multi-year reemployed annuitant hiring 
authority granted by the Congress in the Supplemental Appropriations, 
fiscal year 2002 (Public Law 107-206); careful scheduling of 
instructors and programs; and other measures, good progress has been 
maintained in meeting requirements. The fiscal year 2004 budget request 
includes sufficient funding to provide the level of training being 
requested by our Partner Agencies.

                  FACILITIES CONSTRUCTION MASTER PLAN

    I would also like to brief you on the status of the progress that 
has been made in expanding the FLETC's facilities. The FLETC initiated 
a multi-year facilities construction program at the end of the last 
decade in order to meet the training growth needs of our partner 
organizations. Following the terrorist incidents of September 11, 2001, 
FLETC sites have been used nearly to capacity. For future planning 
purposes, FLETC contracted with a private firm experienced in 
facilities and site development to conduct a study that includes 
Artesia, NM; Glynco, GA; and Cheltenham, MD. The study, which should be 
completed in late spring, is a three-phase plan that places emphasis on 
eliminating the capacity shortcomings of Center facilities. With 
respect to facility construction, I also wanted to take a moment to 
discuss the Washington DC area site and some other accomplishments.
    Initial funds were appropriated in fiscal year 2001 for the 
development of a training site within the Washington, DC area, 
primarily for short-term requalification training and as a site for in-
service U.S. Capitol Police (USCP) training. The site ultimately 
selected, following an extensive review of available Federal sites, was 
the former naval communications base in Cheltenham, MD. Since assuming 
ownership of the Cheltenham, MD property, excellent progress is being 
made in design and development work. A completely enclosed and 
environmentally-safe firearms complex is under construction and 
expected to be completed in the fall of 2003, and construction will 
begin on a vehicle training complex for non-emergency, obstacle and 
pursuit driving and related support facilities in the next month or so. 
Also, consistent with appropriations, FLETC placed the highest priority 
on completion of an in-service academy operation for the USCP, for 
which the dedication and opening ceremony was conducted in September 
2002. The new building contains classrooms, offices and support 
capabilities to train 50-100 officers at any one time.
    Also, design work already has been completed and construction begun 
for most of the remaining projects, the majority of which will be 
completed by late 2003. The District of Columbia Metropolitan Police 
Department (MPDC) has transferred $4,000,000 to FLETC to help defray 
the cost of the firearms range complex. MPDC is one of the principal 
agencies specifically incorporated into the legislation as a partner 
organization at Cheltenham, MD. In total, the FLETC projects more than 
60 agencies in the Washington, DC area will receive requalification 
training at Cheltenham, MD when it is opened.
    With respect to other construction, I should note that in Artesia, 
NM the new Administration Building was completed this year. We expect 
to complete the new dining hall in June. Design has begun on a new 
classroom building that was funded in the fiscal year 2003 
appropriation. In Glynco, GA, the new Port-of-Entry Building became 
operational in March 2003. Later this year we plan to complete the 
renovation or construction of the Indoor Firearms Building, the 
Administrative Building and the Anti-Terrorism Building. Next year we 
plan to complete a Firearms Multi-Activity Building and an indoor 
Firearms range.

                 SELECTED OTHER ACHIEVEMENT HIGHLIGHTS

    I would also like to discuss briefly some of the FLETC's other 
specific achievements based on the past support of Congress and the 
Administration.
    In fiscal year 2002, the Center's overall performance against its 
most critical performance target, the Student Quality of Training 
Survey measure, was very good. A total of 99.3 percent of all 
graduating basic training students expressed satisfactory or higher 
rating of their training. Also, the FLETC's training costs measurement 
was below the cost figure established for the variable unit cost per 
basic student-week of training. The plan projected a weekly cost of 
$927, and the actual cost was $802. The volume of training conducted 
and the efficient management of facilities scheduling allowed us to 
realize reductions in costs.
    In fiscal year 2002, the FLETC had its third complete audit of its 
financial records and systems and received another ``unqualified 
opinion'' for its operations. By changing processes and procedures, the 
FLETC has been able to meet mandated goals. Systems standardization and 
integration played major roles in achieving fast-close and data quality 
end-of-year submissions.
    During fiscal year 2002, on behalf of U.S. law enforcement 
agencies, FLETC assumed the lead for the establishment of a United 
States International Law Enforcement Academy (ILEA) operation in 
Gaborone, Botswana, the first of its kind on the African continent. The 
official opening ceremonies were conducted in March 2003, with the 
President of Botswana and other African nation dignitaries 
participating. The academy, like similar sites in Europe and the Far 
East--under the joint direction of the Departments of State, Justice 
and now Homeland Security--is providing training to law enforcement 
officers from nations throughout that region, and is jointly funded by 
the Government of Botswana and the U.S. Department of State.
    The FLETC also has begun partnering with the Office of Personnel 
Management (OPM) to provide law enforcement training on the new OPM 
GOLEARN.gov training site. This partnership initiated on January 20, 
2003, provides the first responder communities (law enforcement, 
firefighter, public safety and health, and security personnel) secure, 
encrypted access to both general and customized law enforcement 
training. We are excited about the great opportunities that lie ahead 
in the field of this technology through the use of ``blended learning'' 
--combining the best uses of distance learning and hands-on residential 
learning.
    Finally, I want to note the progress that is being made in the area 
of accreditation and standardization of Federal law enforcement 
training based on an fiscal year 2002 appropriation and other 
authorized funds. This project is fully underway. FLETC is working in 
collaboration with Federal agencies, including the Federal Bureau of 
Investigation, the Drug Enforcement Administration, and the U.S. Postal 
Inspection Service; private organizations; professional associations; 
and others, to develop a format to accredit training facilities, 
instructors, and programs and courses provided by every Federal law 
enforcement organization. When fully implemented over the next several 
years, this project may prove to have the most far-reaching impact on 
the way law enforcement training is conducted at the Federal level 
since the establishment of consolidated training itself.

                                CLOSING

    In closing, let me assure you that FLETC is committed to providing 
the highest quality law enforcement training at the lowest possible 
cost. Substantial savings are being realized through the operation of 
consolidated training sites. We are also aware of the important 
opportunities and challenges that lay ahead.
    The fiscal year 2004 budget request provides the resources to 
enable the FLETC to manage its responsibilities and continue to serve 
as a leading Government provider of high-quality law enforcement 
training to Federal, State, and local law enforcement officers. With 
the requested funds, the FLETC will provide cost-effective and 
contemporary law enforcement training, support the specialized training 
needs of State, local and international agencies, and deliver 
preventive and investigative law enforcement methodologies and 
terrorism training. I look forward to continuing to work with you and 
your support to successfully accomplish these objectives.
    I also want to publicly commend the remarkable people at FLETC and 
in our partner agencies who have contributed so much already to the 
success of consolidated training. Their talented assistance will 
continue to be of great benefit.
    Mr. Chairman and Members of the Subcommittee, this concludes my 
prepared statement. I would be happy to answer any questions you may 
have at this time.

                               COBRA FEES

    Senator Cochran. Thank you very much, Ms. Patrick.
    Mr. Bonner, I am going to ask each of you a question or two 
and--because we have several Senators here this morning, I am 
going to limit my initial round of questioning to 5 minutes and 
hope that other Senators will limit theirs to that time as 
well. We will continue to go around as long as Senators have 
questions to ask.
    In connection with the fees that are collected by your 
bureau, these are authorized by law. There are many different 
fees, as you know, immigration user fees, agriculture 
inspection fees. Some were authorized back in 1985 in the 
Consolidated Omnibus Budget Reconciliation Act (COBRA).
    The fees authorized by the COBRA expire as a matter of law 
at the end of this fiscal year. My question is, do you have a 
plan in place for making a recommendation to the Congress for 
new legislation authorizing the continued collection of fees, 
because well over $300 million worth of fees are going to be 
collected under that Act? It seems to me that if you have not 
started that process you need to start thinking about what you 
are going to recommend to the Congress in the way of new 
authority to collect fees.
    Mr. Bonner. Yes. Senator, you are absolutely right. A very 
important part of our funding comes from, and historically has 
come from, the so-called COBRA fees. And a large percentage of 
those are the air passenger user fees. Those have been used 
historically to fund virtually all of the U.S. Customs 
overtime, as well as approximately 1,100 to 1,200 actual FTE, 
in other words, Customs inspection positions.
    And those fees sunset, or expire, at the end of this fiscal 
year. The ideal plan would be that we would get appropriated 
funding to cover these, but I believe the plan that we are 
pursuing right now is to ask the Congress and this committee to 
extend these COBRA fees beyond the end of this fiscal year.
    And, in fact, if that does not happen, we will have a gap 
in the Customs and Border Protection budget of around $250 
million, because that is how much is generated right now 
primarily through air passenger user fees to support all of our 
overtime, and these 1,100 to 1,200 FTE.
    This is consistent with the Administration's request that 
when the budget came over the Administration has taken the 
position that it would be desirable to extend these COBRA fees, 
including the air passenger user fee.
    So that would be our plan. I am very hopeful that there 
will be an extension for 1 or more years of these user fees, so 
that we can continue to fund the overtime and inspectional 
positions that are supported by these user fees.

                        TSA SCREENER REDUCTIONS

    Senator Cochran. Admiral Loy, you recently announced that 
you were going to reduce the number of airport screeners, those 
who work looking at baggage and performing other security 
responsibilities at our Nation's airports. A lot of cutbacks 
are going to be made. I trust savings will be achieved in this 
effort.
    But, in doing that, you have established some categories in 
terms of size and employments at airports. One of our airports 
notified me that thinks it has been miscategorized. They have 
been put in a lower category than they think they ought to be 
in terms of the number of screeners. Specifically, this is the 
Biloxi/Gulfport or Gulfport/Biloxi airports depending on which 
town you are in, that is how you say that--you have got to be 
careful--on the Mississippi Gulf Coast, and it has been growing 
pretty rapidly down there in terms of the amount of business it 
handles. How would they go about appealing that decision, if 
they believe it is a factual miscalculation, and they are going 
to end up having to reduce screeners way beyond what they would 
have if they had been accurately categorized?
    Admiral Loy. Mr. Chairman, we are obviously after the truth 
and the right data to use for this enormously important 
calculation. We have challenged our Federal security directors 
responsible for all the 430 airports across our country to work 
with our airport directors in the aftermath of having received 
the figures that we provided. And should there be some 
structural error like you were just describing, we will work 
with that airport to get the right number.

                       FLETC FACILITIES EXPANSION

    Senator Cochran. Ms. Patrick, I heard you talk about the 
growth in the capacity that you are going to experience in 
terms of training Federal law enforcement officials. I assume 
this is going to require expansion of facilities or upgrading 
of facilities. Is there, in this budget, funding being 
requested for that purpose so you can accommodate the new 
responsibilities of the Center?
    Ms. Patrick. There are no capital acquisition items in this 
budget proposal. However, we are currently conducting a study 
to determine our capacities, not only at FLETC facilities, but 
at all of those facilities that are within DHS.
    And prior to coming into the Department of Homeland 
Security, we did not have jurisdiction over those facilities. 
And now that we are all co-located within DHS, Mr. Hutchinson 
has asked us to look at capacities to be gained for the benefit 
of all, at all those facilities, and that study is currently 
underway.
    We believe that we will be able to meet this year's goals 
and our master plan, 15-year master plan, will be completed 
this year, and we will have submissions for the fiscal year 
2005 budget that will have capital acquisition within it.
    Senator Cochran. Thank you very much.
    Senator Byrd.
    Senator Byrd. Thank you, Mr. Chairman.
    Thank you, members of the panel. We have a good audience 
this morning. Someone said something about looking over their 
shoulder. There are plenty of people watching you. I think it 
was Milton who said, ``They also serve who only stand and 
wait.''

                               U.S. VISIT

    Commissioner Bonner, one crucial component of providing for 
homeland security is ensuring that we, as a Government, know 
which foreigners are visiting our country, why those foreigners 
are here, and that those foreigners depart when they are 
required to do so. Our existing visa tracking systems are not 
doing the job.
    According to your budget justification documents, the 
illegal alien population has risen to record levels. The 
undocumented alien population has grown from approximately 3 
million in 1990 to an estimated 9 million today. In other 
words, it has tripled in 10 years.
    Your department estimates that approximately 40 percent of 
those 9 million individuals are aliens who arrived in this 
country lawfully, but who had subsequently violated the terms 
of their non-immigrant status. These are the 3.5 million 
individuals that an effective entry/exit system should track.
    The budget before us requests $480 million for the new 
entry/exit visa tracking system. This is $100 million over last 
year's level of funding. Recently, Secretary Ridge announced a 
major change in the program proposing to create the U.S. VISIT 
system and to add biometric identifiers to the mix.
    An entry/exit system was originally authorized by the 
Congress in 1996. A September 1998 deadline to get the system 
up and running was not met. A March 2001 deadline was not met.
    Now, the Department is required to meet a December 2003 
deadline, 7 years after an entry/exit system was originally 
authorized. Why should this subcommittee--Commissioner Bonner, 
why should this subcommittee believe that the Department is 
going to be successful in meeting the deadline for getting this 
system up and running? It has not done very well thus far.
    Mr. Bonner. Well, I would say, Senator Byrd, the Government 
has not done very well in getting it up and running given the 
history, but it is a new era. That is number one.
    The agency that was responsible for implementing the entry/
exit system was the INS. It was part of the Justice Department. 
I think there is some issue, by the way, historically as to 
whether and when that was funded. I do not think we need to go 
into that, but I would say this, it is a new era. There is a 
new department in government that is now responsible for taking 
on and implementing the entry/exit system, which I believe 
Secretary Ridge has renamed U.S. VISIT.
    And I know that this is among the highest priorities of the 
Department of Homeland Security--to implement an entry/exit 
system that will give us the ability to identify those 
individuals who have legally entered the country with visas but 
have either overstayed their visas or are no longer entitled to 
be in this country. We will have a system that will let us know 
that they have not exited the country and we will be able, with 
the appropriate resources, to locate and remove them from our 
country.
    Now, I believe that this is going to be done, because I am 
very much aware that Secretary Ridge himself and Under 
Secretary Hutchinson are personally involved and committed to 
making this happen, and obviously I and everybody else within 
the Department of Homeland Security will be contributing to 
that effort to see that it gets done.
    It is huge. If I said that this is not an extraordinary 
challenge to get this done within the timelines that have been 
set forth by the Congress, I would be less than candid with 
this committee, because----
    Senator Byrd. What----
    Mr. Bonner [continuing]. I think it is an enormous 
challenge. I actually personally----
    Senator Byrd. My time is short.
    Mr. Bonner. Yes.
    Senator Byrd. What time--if you will forgive me?
    Mr. Bonner. Yes, sir.
    Senator Byrd. What specific steps are you taking to make 
this happen?
    Mr. Bonner. Well, number one, I understand that there has 
been a program review undertaken by the Department of Homeland 
Security. I further understand that the ownership, if you will, 
of this program is going to be vested in the Border and 
Transportation Security Directorate, and that there is every 
intention, Senator, of meeting the ambitious timeline, which is 
by December of this year. We will do everything we can to have 
an entry/exit system deployed at least to certain of the 
international airports within the timeline.
    Customs and Border Protection is contributing to this, 
because the entry/exit system ultimately is going to have to be 
put at international airports, the land borders, every place 
that people move in and out of this country. And so we are 
contributing to what the infrastructure issues are, and the 
funding requirements. There is also obviously, as you know, an 
information technology and a biometric part of this.
    But it is a task that is being undertaken by the Department 
of Homeland Security, not just within Customs and Border 
Protection.
    Senator Byrd. You have referred to biometrics, are you 
working with the Defense Department in this regard?
    Mr. Bonner. Senator, I do not know, but I believe the 
Department of Homeland Security is. As I say, Customs and 
Border Protection has not been given ownership of this program. 
Nobody has come to me and said, ``Commissioner Bonner, I want 
you to make this happen.'' So I am not personally and directly 
involved in the actual development of the program at this 
juncture.
    Senator Byrd. The reason I ask, the Defense Department has 
a biometrics program, which the Appropriations Committee has 
been following and funding. You have referred to----
    Mr. Bonner. I will find out for you, Senator, and----
    Senator Byrd. Thank you. You have referred to your need for 
resources, financial resources. The budget requests $480 
million for the entry/exit system. In light of the recently 
announced biometrics component to the new U.S. VISIT system, 
will this request be enough?
    Mr. Bonner. I do not know the answer to that. I will have 
to----
    Senator Byrd. Is there anyone there who can help you on 
that question?
    Mr. Bonner. Well----
    Senator Byrd. Anyone that----
    Mr. Bonner. This is something that is going to have to be 
answered at the departmental level by the responsible program 
managers, Senator Byrd. I will pass it along and we will see if 
we cannot get you an answer.
    Senator Byrd. Well, we will hope for that.

                    FISCAL YEAR 2004 BUDGET REQUEST

    One crucial component of providing for homeland security is 
that you be provided with the--with adequate funding resources, 
and at our hearing with Under Secretary Hutchinson last week, I 
asked him how much he had requested of the OMB for his agencies 
for the coming fiscal year. He said that he did not have that 
information in front of him, and when I asked if he would 
provide the information to the committee I believe he fuzzed up 
the response a little bit.
    I understand the requirement that agency heads must support 
the President's budget request as submitted, but agency heads 
must also be responsive to the Congress, the elected 
representatives of the people. The military branches are not at 
all shy about providing information to the Congress on their 
original requests for funding. And this causes me to wonder why 
other agencies are more reluctant than the military.
    I believe that the budget request for most of the 
Department of Homeland Security agencies are insufficient. It 
would be valuable for the committee to know what the agencies 
that are actually defending the homeland think their budget 
requirements are, not just the final opinion of the budget 
personnel at the Office of Management and Budget.
    Commissioner Bonner, how much did you request in the way of 
funding in your fiscal year 2004 budget submission to the 
Office of Management and Budget?
    Mr. Bonner. Senator Byrd, first of all, just by way of 
process, this is an incredibly unusual year in one sense, 
because we are merging with Customs all of these other 
elements, the Border Patrol, all of the immigration inspection 
program, and so forth.
    I have absolutely no idea what was requested for Border 
Patrol or the Immigration Inspection. I had no part in how that 
was developed. When that budget was developed, INS was part of 
the Justice Department, and it went to the Attorney General. 
Something went forward from the AG to OMB.
    I obviously played a part in developing the U.S. Customs 
budget request, and processing that up through the Treasury 
Department.
    I can tell you that there was, of course, an unusual 
process this year in the sense that the Treasury Department 
looked at our budget, and I guess it is fair to say, they 
punted. They did not know what to do with it and so forth.
    I can tell you that I believe as a result of then Governor 
Ridge's capacity in the Office of Homeland Security, we did get 
a substantial initiative funding ultimately through OMB.
    As I sit here, I do not know exactly what our request was. 
I am very aware of the question you put to Under Secretary 
Hutchinson, and I do not want to give you, Senator, a fuzzy 
answer.
    At this point I think that prudence would dictate that if 
you are interested, and I think you are interested, in what 
request ultimately went to OMB with respect to, let us say, the 
Customs side of this budget, that is something I just have to 
tell you, I would need to consult with the Department 
leadership as to what position they are going to take with the 
request that you made of Under Secretary Hutchinson.
    And I do not know precisely what that position is, but I am 
just a mere Commissioner of the Customs and Border Protection, 
and I have a chain of command, which is I report to Asa 
Hutchinson as the Under Secretary, and he reports to Secretary 
Ridge.
    So I do not want to fuzz an answer here. I am just going to 
say that I will look into that question. I understand the 
request the Senator is making. If there is a way that we can 
affirmatively respond to that request, I will make every effort 
to see that we do that.
    Senator Byrd. Well, if you can, do that. The people have 
the right to know and the elected representatives of the people 
on this committee have a right to know. But we also need to 
know in order to adequately meet your funding needs. And you 
referred to the need for having adequate resources in your 
statement. And it would be very helpful to the committee--as a 
matter of fact having been on this committee now 45 years--I am 
in my 45th year on the Appropriations Committee, that is a 
rather, in a way, stunning response to a very legitimate 
question.
    Will you provide this subcommittee with that information 
for the record?
    Mr. Bonner. I will, if after discussions with the 
Department, it is okayed.
    Senator Byrd. You mean--are you meaning to say to me if it 
is okay that this committee has that information?
    Mr. Bonner. I----
    Senator Byrd. The reason we--the reason it helps the 
committee is because we really know then what you perceived as 
being the needs, the funding needs in order to meet your goal 
and carry out your responsibility. We really get a better 
insight if we have that information.
    Mr. Bonner. Senator, I know exactly what you are saying. I 
have been around, actually have testified before the 
Appropriations Committee and subcommittees, and I understand 
the important work that this committee has and must do, so I 
understand that. But you did put the request to Under Secretary 
Hutchinson, and I know that that is being looked at in terms of 
whether the Border and Transportation Security Directorate and 
the component agencies under the Border and Transportation 
Security Directorate can provide the information. The request 
essentially went to OMB.
    Senator, with all due respect to you, sir, and to this 
committee, I will make it very clear the importance that you 
attribute to this and, frankly, the importance for the 
committee itself, the subcommittee, in terms of its evaluation 
of the budget request to have this information. I will get an 
answer back to you, but it will have to be after consultations 
with the higher-ups in the Department of Homeland Security.
    Senator Byrd. Would you accept----
    Senator Cochran. Senator, your time has expired.
    Senator Byrd. Yes. I just have a P.S. here. Would you 
accept a slight modification to your own statement, ``and the 
importance to the Department''?
    Mr. Bonner. I will accept that as well.
    Senator Byrd. I thank the Commissioner.
    Senator Cochran. Thank you, Senator.
    Senator Domenici.
    Senator Domenici. Thank you very much, Mr. Chairman.
    Well, let me stay with you, Mr. Bonner, for a little bit.

         U.S. BORDER INFRASTRUCTURE AND TECHNOLOGY REQUIREMENTS

    You heard me in my opening remarks talk about the borders 
of the United States between Mexico and Canada. I happen to 
know something about it because one of my early appropriations 
assignments, about 12 or 14 years ago, happened to be the 
subcommittee that had the border. That was the only time in the 
past 40 or 50 years that we did anything of a comprehensive 
nature in an effort to repair and modernize some of the border 
facilities.
    So I have a very serious interest in the condition of the 
border crossings and the equipment on the borders with Mexico 
and Canada--I know more about Mexico than Canada. I have 
introduced a bill, on which I think we will have a hearing 
soon.
    That says one of the shortcomings is that we do not have a 
master plan for how we go about bringing these border crossings 
current, which ones need to be reformed, remodeled, torn down, 
rebuilt, added to, et cetera, and in which order. We do not 
have any plan for what new technology there is and how we can 
implement the use of the new technology at our border 
crossings.
    I say to you there is nothing more important with reference 
to the control of our borders, both for trade and contraband 
and illicit crossings than that these borders be made modern. 
Do you agree with that?
    Mr. Bonner. I do. I am also familiar with a good many of 
the ports of entry, both on the northern and southern border, 
and we have some serious modernization we have to do, and 
infrastructure improvements to do that would permit better 
security with technology, and at the same time be able to 
better facilitate the movement of legitimate trade and people 
across----
    Senator Domenici. Sir, I believe that border crossings 
between Mexico and the United States in particular require a 
little bit of vision, require that somebody begin to think 
about the future.
    I can imagine a day when there would be a common border 
crossing manned by Mexicans and Americans, and that we would 
not go through two crossings, and that the technology be modern 
for both sides. I can imagine a couple of border crossings that 
would be built as now, within the next 18 months, as ultra-
modern crossings with every modern type of technology 
available, sort of as a model to look at, to see what can be 
done for our borders to bring them into a better state of 
repair. This is not because we want them to look good or 
because I am a high-tech buff, but rather they will do a much 
better job.
    Could you talk to that and could you assure the committee 
that you are going to look into modernization of these ports of 
entry and implementation of modern technology at the crossings?
    Mr. Bonner. I will assure you right now that that is 
something that we are looking at, we will continue need to look 
at, and I would like to work with this committee and you, 
Senator, with respect to how that might best be done, where the 
priority areas are, and how we construct the infrastructure so 
that we are efficiently using the existing technology we have, 
detection technology and the like, radiation detection 
technology, and so on, in the best possible way.
    I think this is a very important issue. It is something 
that I have been discussing with Secretary Ridge over the last 
18 months or so. I have had discussions with the Canadians and 
the Mexican Government about how we might work better together.
    Senator Domenici. Yes.
    Mr. Bonner. Right now, we have maybe four or five very 
small ports of entry that are shared with the Canadians.
    Senator Domenici. Yes.
    Mr. Bonner. So it is not as if it has never been done. It 
can be done. We need to look at doing more of that.
    Senator Domenici. I wonder if you would take a look at 
Senate Bill 539 and tell the committee what you think about it 
in terms of whether it might help meet the needs that you are 
identifying together for the border.
    Mr. Bonner. Right. Is this the bill that you have 
recently----
    Senator Domenici. Yes, that I have alluded to.
    Mr. Bonner. Right. And as I think you may know, Senator, 
the Congressional Affairs Office has been working with members 
of your staff on that legislation. I have not studied it in 
depth yet.
    Senator Domenici. Yes, I understand.
    Mr. Bonner [continuing]. To be familiar with----
    Senator Domenici. I do not need a lot of explanation on it. 
I would just like you to take a look at it, and through your 
good office comment for the record on what parts of it you 
think you need, and whether it should be implemented.
    Mr. Bonner. I would be happy to do that. With your 
permission, Senator, is that something I can do and submit 
something for the record?
    Senator Domenici. Absolutely----
    Mr. Bonner. All right.
    Senator Domenici [continuing]. In due course. Is that 
correct, Mr. Chairman?
    Senator Cochran. We would appreciate the fact that you 
would do that. We will make that a part of the record.
    Mr. Bonner. All right. Thank you.
    [The information follows:]
                                 S. 539
    As requested, the Bureau of Customs and Border Protection (BCBP) 
has reviewed S. 539, the Border Infrastructure and Technology 
Modernization Act. The bill responds to the infrastructure issues 
facing many ports of entry. It would dramatically further address the 
requirements identified in the Ports of Entry Infrastructure Assessment 
Study completed by the U.S. Customs Service in consultation with GSA 
and other Federal Inspection Service agencies in June 2000. The agency 
appreciates the support of Senator Domenici and his cosponsors.

           ``FIRST USE'' ASSURANCE FOR FLETC-OWNED FACILITIES

    Senator Domenici. I will quickly go to my next question. It 
has to do with FLETC.
    Ms. Patrick, there are some people that know that this 
Senator has a genuine and longstanding interest in FLETC.
    That is why, Senator Byrd, quite by accident when I was a 
brand-new Senator, I attached a rider to a public works bill 
where FLETC was going to be built brand-new somewhere here in 
Maryland. I put a little rider on the bill and said, ``Do not 
build it for a year and look around the country and see if we 
happen to have a place we already own.''
    And guess what? In the 10 month of that study, they found 
this Navy base, which is where it is now, this giant facility 
in Georgia. It was found that way.
    And so since that time, I have had an interest in FLETC, 
and a piece of it is now in New Mexico at Artesia. It is 
growing. What I would like to know from you, ma'am, on the 
record, I would like your assurance that as you look at 
training needs that you will, in fact, use FLETC's facilities 
first for the required training that FLETC is expected to do 
under the law. Secondly, that people will not be sent to other 
kinds of training centers and facilities in preference to a 
FLETC-owned facility, if there is facility available for such 
training. Can we have that assurance?
    Ms. Patrick. You can.
    Senator Domenici. I believe you are already aware of that 
problem as it exists, as I have expressed it to you, in my 
office, are you not?
    Ms. Patrick. I am.
    Senator Domenici. Sometimes agencies want to move trainees 
off to some other place closer to a home or where they would 
like to be, miles away from where the training, original 
training is, and you are going to look at whether or not that 
is a practical thing for FLETC in the future, is that correct?
    Ms. Patrick. Yes, I am.

                        UNMANNED AERIAL VEHICLES

    Senator Domenici. My last question has to do with the use 
of unmanned vehicles on the border. Who is the expert on that? 
Does that belong to you too, Mr. Bonner?
    Mr. Bonner. I may not be the expert on it----
    Senator Domenici. Yes.
    Mr. Bonner [continuing]. But it really belongs to me.
    Senator Domenici. Could you tell me if there is a plan 
being developed as to where we will use and what we will do 
with unmanned vehicles in an effort to assist us with 
ascertaining what is going on our borders?
    Mr. Bonner. Now, by unmanned vehicles, you mean the drone 
aircraft and that sort of thing----
    Senator Domenici. Yes.
    Mr. Bonner [continuing]. That have been used so 
successfully by our military----
    Senator Domenici. Yes.
    Mr. Bonner [continuing]. And--overseas?
    I know there is a lot of interest in this, and I do not 
mean to be unresponsive. I have asked for a briefing myself----
    Senator Domenici. All right.
    Mr. Bonner [continuing]. As to how unmanned vehicles or 
drones could be helpful. I think there is some potential there, 
but I want to make sure that it makes sense. There is potential 
in the sense that we have, as you know, on our southwest border 
with Mexico, we have a huge problem that remains, and that is 
that we do not totally control the borders of our country.
    Senator Domenici. Right.
    Mr. Bonner. And we have huge amounts, significant amounts 
of both illegal aliens and illegal drugs flowing across that 
border through the ports of entry and between the ports of 
entry. We do not have in my judgment a sufficient surveillance 
air capability in the Border Patrol at this juncture for that. 
So it sounds like something that might be very, very helpful, 
but I need to understand how it would work and how it would 
work in conjunction with, let us say, cueing the Border Patrol, 
Border Patrol agents to the situation and----
    Senator Domenici. Sir, would you take a look at it and, for 
the record, give us your best judgment of whether UAVs are 
going to be used, and how they might work, so we will have an 
understanding?
    Mr. Bonner. Happy to do that, sir.
    [The information follows:]

                    Unmanned Aerial Vehicles (UAVs)

    The Border and Transportation Security Directorate has asked the 
Science and Technology Directorate to evaluate the use of UAVs in a 
Border and Transportation Security environment. S&T was also asked to 
evaluate other potential applications.
    Until the requirements have been scoped to determine the 
feasibility and extent of a UAV program, we cannot predict either what 
amount of funding or type of facilities might be appropriate for the 
Department to implement a UAV program.
    At this time, it is unknown what the timeline would be for the 
Department to implement this type of initiative. A proposed project 
plan including milestones and deliverables is expected to be ready for 
review by early summer, 2003. The project plan will discuss a BTS-
specific project as well as strategies in developing UAV initiatives in 
the near, mid, and long term for DHS venues such as borders and ports.
    After UAV program feasibility, requirements and scope are 
determined, a more detailed assessment on available testing and 
deployment facilities would need to be made.

    Senator Domenici. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator Domenici.
    Senator Murray.

                         24-HOUR MANIFEST RULE

    Senator Murray. Thank you very much, Mr. Chairman.
    Commissioner Bonner, let me begin by just thanking you for 
all of your efforts on the 24-hour manifest rule for U.S.-bound 
container cargo. You and I discussed this in my office, and I 
shared with you my concerns that the economic implications and 
the security implications as cargo is being diverted to 
Vancouver--and I know you have worked hard with the Canadians 
and I understand that they have agreed to implement a similar 
rule, and I really applaud that decision.
    But I have to tell you I have real concerns that Canada is 
going to continue to use the time before implementing a rule to 
divert cargo and business from U.S. ports in the Pacific 
Northwest. This is really an important issue to us in Seattle 
and Tacoma, and I wondered if you could give me an update on 
your discussions with the Canadians on this issue, and 
specifically any information about when Canada will finally 
implement its 24-hour rule?
    Mr. Bonner. Right. Let me bring you up to date on that. 
First of all, the good news is that the Canadian Government--
and this was the Canadian Customs and Revenue Agency that was 
very much involved in this--has decided to adopt essentially 
the identical 24-hour rule, and to move quickly to do that. 
They need to get some regulations out just like we would for 
comment and the like.
    But I will continue, as I did at the shared border accord 
meeting with our Canadian counterparts in Halifax, Canada, just 
about 3 weeks ago, to prod them to move more quickly in terms 
of getting those regulations out and implemented.
    I am very concerned about the issue that we discussed with 
respect to the potential diversion of container traffic from 
any U.S. sea port including the port of Seattle-Tacoma and so 
forth to Vancouver. I think you have seen some public 
statements I have made, and that is to say that if we believe 
that any shipping line is attempting to evade the U.S. 24-hour 
rule by diverting containers to, let us say, a Canadian port or 
any other port, we are going to increase our inspectional 
efforts with respect to those containers in two ways.
    One, we have U.S. Customs and Border Protection personnel 
right now at Vancouver, at the Canadian port, and so we will be 
increasing and asking the Canadians to work with us to increase 
the rate of inspections for anything that appears to be 
diverted, because by definition, it is a higher risk container 
if somebody is trying to evade our advance manifest reporting 
requirements.
    And secondly, we have a chance to examine it again when it 
reaches the U.S. border, either on a truck or by rail.
    So I made it very clear, if we see evidence of that--and I 
would be happy to have further discussions with you on this, if 
we see evidence of that, we are going to take some action, and 
I have talked to, as you know, the head of the port authority 
there in Seattle, and I will continue to monitor that 
situation.
    The best answer, though, is the Canadians adopt and 
implement their regulation that is identical to ours so there 
is no advantage by virtue of the advanced manifest information 
requirement by shipping cargo containers destined for the 
United States to Vancouver or to Halifax.
    Senator Murray. Thank you. I really appreciate that and 
appreciate your staying on top of it, because it is both an 
economic concern, but it is also a security concern. And we 
want to make sure that they do not just say they are 
implementing the rule and it takes forever, and we have cargo 
coming in and moving to the United States in other ports. So I 
really appreciate your answer to that question.

                           CONTAINER SECURITY

    Admiral Loy, I wanted to talk to you about container 
security. TSA received $28 million for Operation Safe Commerce 
back in 2002, and another $30 million for that in 2003. So far, 
not a penny of that money has been spent.
    This is an initiative that I authored to enable TSA to 
ensure the security of the 6 million containers that come into 
our ports every year by monitoring their movement from the time 
they are loaded to the time that they are unloaded.
    Now, TSA promised me that the 2002 funds for this 
initiative would be spent by February of this year. It was not 
done. Now, they are telling me it is going to be spent by June. 
I asked Secretary Ridge about this last week, and he promised 
to get back to me, but I have not heard from him yet on this. 
So can you explain to this subcommittee why TSA has not moved 
forward on Operation Safe Commerce that has now been funded in 
two separate fiscal years to address terrorist threats to 
global container traffic?
    Admiral Loy. Yes, ma'am. I will. You are absolutely right. 
The $28 million was a 2002 appropriation. For 2003 there was an 
amount of $30 million, and for 2004, we are asking for another 
couple of million dollars to sort of tidy up the program.
    As you know, we have made a broadcast announcement with 
respect to applications from the three major load centers that 
are associated with Safe Commerce. You and I had spoken about 
the notion of port of origin to point of destination in 
transit, supply chain transparency for the obvious value that 
that represents. And we have worked with the Coast Guard, with 
Customs, now BCBP, on a variety of these challenges associated 
with Safe Commerce.
    At the moment, there are implications in the spending plan 
that we will get to the Congress, I would hope, within days 
associated with Safe Commerce.
    I can say that the application package that solicited from 
the three major load ports almost a billion dollars' worth of 
applications for how best to use those funds are in hand, are 
being evaluated, and are staged for. As soon as that spending 
plan is blessed, they will go out the door, such that the 
appropriated dollars, and not only for the $30 million that we 
have in 2003. We want to make sure those dollars potentially 
can become appropriated against that same application package.
    Senator Murray. So can you assure me that all $58 million 
will be spent on this, and that it will not be diverted to some 
other program under TSA?
    Admiral Loy. I cannot assure you of that, as we speak here 
this morning, Senator Murray. I think the potential for fixing, 
as Senator Byrd was inferring, the structural shortfall in the 
TSA budget for 2003 offers us unfortunately the challenge of 
looking for funds in places that have the potential for 
reprogramming or have the potential for being found.
    Senator Murray. Well, I just have to say that is really 
disconcerting. We appropriated those funds properly through 
Congress, specifically for Operation Safe Commerce. The three 
ports that are involved, Seattle-Tacoma, Los Angeles, New York, 
have been working diligently now for almost 2 years to put 
together their requests. And we now have 6 million containers 
coming into this country that we do not know--and we have not 
tracked them, we do not know what is in them. This is a vital 
issue for all of us who have States that are close to these.
    It should be a vital interest for every State in this 
country because of the economic impact. I do not want to see 
any of that money diverted. This is what Congress said it was 
to be spent for.
    Admiral Loy. I understand.
    Senator Murray. Well, we will continue to follow that 
throughout the process.
    In fact, Commissioner Bonner, if you could respond. You are 
a member of the steering committee to implement Operation Safe 
Commerce. Can you tell me why, from your point of view, none of 
this funding has been spent yet?
    Mr. Bonner. I know that we are co-chairing with TSA and 
reviewing the applications for the funding that has been made 
available. And I understand that decisions with respect to 
funding are fairly close.
    I do not know whether it is the $28 million or the $30 
million. I think it is the first $28 million, but I could be 
mistaken.
    This is very, very important, as you know, and I know 
Admiral Loy agrees, that we test out smarter containers, more 
secure containers that are moving from foreign ports to the 
United States. And that is what this funding is going to do.
    I do not know that I can speak to the delay per se other 
than I know that there has been a process of getting 
applications from the various ports and the various parties in 
interest here, and making some decisions with respect to which 
proposals make the most sense in terms of giving us, 
potentially, at the end of the day something that would be 
useful to us for purposes of securing containers.
    Senator Murray. Well, let me just say that the ports all 
have their requests in, and if the delay is so that we can 
divert funds, that is not acceptable. We need to get this money 
out there.
    And, Admiral Loy, you said in your opening statement that 
you care about security in all modes of transportation. If we 
cut container security initiatives, we are not paying attention 
to all modes of transportation. So this is something that I am 
going to continue to follow and I want to have follow up 
conversations with you on this.
    I want to make sure this money goes to container security. 
We have ports in this Nation that are extremely vulnerable 
right now with all of these containers coming and we do not 
know what is in them. And I just simply think we cannot ignore 
this, and we cannot divert the funds that are supposed to go 
for that important initiative. So I will continue to have this 
discussion with you.
    Mr. Bonner. We do have information, Senator, in terms of 
what is in containers and that sort of thing. We have required 
that by regulation now, before those containers are even loaded 
on the foreign ports.
    So we do have information about what is in there. We are 
evaluating that information. We are making risk management 
decisions as to which containers pose a high risk for security, 
and need to be screened. And under CSI we are now doing 
targeting and screening at foreign ports in Singapore and so 
forth.
    Senator Murray. I understand that. But there is a 
difference between doing that at the port and doing it, 
tracking that container, knowing where it is and where it comes 
in. And not just at the port. In the Port of Seattle, it is 
loaded onto a truck or a train and it ends up being unloaded in 
Chicago or somewhere else. So knowing what is in that container 
and keeping track of that container is an important initiative 
in terms of security.
    Admiral Loy. Across the entire supply chain, as you 
describe.
    Senator Murray. That is correct.

                      EXPLOSIVE DETECTION SYSTEMS

    Admiral Loy, I am also very concerned with the delays in 
funding, the extraordinary costs of installing the explosive 
detection systems, EDS systems, at the new south terminal 
expansion at SeaTac Airport in my State. Over the last couple 
of years, I have worked to provide your agency almost $500 
million more for those airport modifications than your 
Administration requested of Congress. Both the 2002 
supplemental appropriations and the 2003 omnibus specifically 
cited the needs of the projects at SeaTac. And just a few days 
ago, you announced, I believe, your attention to sign letters 
of intent to fund these airport projects and said that Seattle 
would be one of them.
    But it is my understanding these letters have not been 
signed. Can you tell me when you expect to finally sign a 
letter of intent with the SeaTac Airport on that?
    Admiral Loy. Senator Murray, I hope we are able to do that 
within a week or two. Our whole capacity to fund what this 
organization is responsible for is bound up in this spending 
plan challenge that we have had for 2003. You know how 
difficult that has been from the very beginning. In the 
aftermath of the original request, which of course developed 4 
or 5 months' worth of CR challenges for those of us who had to 
live within that, including in the TSA's part that the first 
quarter, which was enormously capital intensive for us, because 
that is when we had hoped to purchase all the rest of the EDS 
equipment and pay an enormous amount of contractor support in 
the first quarter of fiscal year 2003.
    Living under the CR, there was an enormously difficult 
financial challenge for us. When it led to the omnibus bill, 
where the Congress then chose to allocate within the 
President's request over $1 billion worth of allocations, that 
has prompted this structural shortfall in terms of very 
important things the Congress wants to do, very important 
things the Administration wants to do, and literally trying to 
get $6 billion worth of work in a $5 billion kind of a 
framework.
    The war supplemental offered the Congress an opportunity to 
fix about half of that problem, which they did. And over these 
last weeks, we have been working diligently with DHS and OMB to 
fund the rest of that structural challenge.
    The LOI instrument that has now been blessed by the Office 
of Management and Budget, as well as the Congress, offers us a 
chance to break through with respect to these EDS installations 
and literally leverage $1 billion or more worth of private 
sector monies to do these security projects and then reimburse 
those airports over multiple budget cycles to come. I believe 
that is the right way to do this work. And we have those 
literally poised negotiated settlements with a number of the 
airport directors, including SeaTac, ready to go as soon as the 
spending plan is approved by the Hill.
    Senator Murray. Okay. I appreciate that. And just one other 
question. Is your letter--will your letter of intent commit 
some 2003 funds to this project, or are you going to be 
requiring SeaTac to do a future?
    Admiral Loy. I will have to call you on the specifics in 
the SeaTac piece. There are a number of these negotiated 
settlements with the airport directors where they preferred to 
gain the letter of intent but with the zero funding line for 
2003 to be then paid over 2004, 2005, 2006, as appropriate. I 
will call you with the specifics of the SeaTac LOI.
    Senator Murray. Thank you.

                        DELAY IN RELEASING FUNDS

    I know my time is up, Mr. Chairman. I would remind all of 
us that the President vetoed $480 million for this agency in 
the last request. And I am deeply concerned that we do not have 
the funds available today for many of these projects. And just 
on Operation Safe Commerce, let me just go back to that.
    If you are delaying the release of this money simply so 
that you can divert it to other causes, that is unacceptable. 
These ports have been working diligently to do this. It is 
extremely important that we get this done. And I will follow up 
on this with you later.
    Admiral Loy. I look forward to that follow-up, Senator 
Murray. And we are not delaying it for the sake of diverting 
the money. The challenge associated with this organization is 
to have the legitimate spending plan for the rest of the year. 
Where that involves DHS authorities and the use of them and 
where that involves the potential for reprogramming is to be 
notified to the Congress very shortly. That is the package that 
is keeping us from pressing on.
    We are staged to press on with all of this work as soon as 
this spend plan comes clear.
    Senator Murray. Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator Murray.

                  FEDERAL FLIGHT DECK OFFICER TRAINING

    Admiral Loy, the Homeland Security Act authorized the use 
of firearms by pilots to defend their aircraft against 
hijacking or other criminal activity that was life threatening. 
The Transportation Security Administration has recently 
completed the training of 44 pilots, who have been sworn in as 
Federal flight deck officers. We notice your budget request 
suggests that over $17 million for this training should be 
approved for the next fiscal year. It is a substantial increase 
over current-year funding.
    Let me ask you the question of whether or not TSA is going 
to continue to do this training. Do you intend to contract it 
out to private sector training centers or to use the Federal 
Law Enforcement Training Center for some or all of this 
training?
    Admiral Loy. Senator Cochran, as you know, the 44-student 
prototype was conducted at FLETC in Glynco, and tremendous 
support came from the facility manager and all the folks that 
were part of the training there. My intention is to certainly 
press forward with FLETC-based training for the FFDO program.
    There are, for example, however, midyear recertification 
requirements that do not necessarily, I believe, call for a 
trip to Glynco, Georgia, to get that work particularly done. So 
we are very much a part of the plan that Ms. Patrick was 
describing to you in terms of a 5-year game plan for how to 
optimize the use of FLETC not only in Glynco, but in Artesia, 
as well.
    I have encouraged a number of private sector training site 
owners to work with FLETC to get under the wing of what FLETC's 
wide reach might be to find the right place to do this training 
on down the road. But the basic original training we would like 
very much to continue to do within the FLETC organization, sir.
    Senator Cochran. Ms. Patrick, what is your assessment of 
the training program and the capacity of your center to carry 
out this responsibility?
    Ms. Patrick. The pilot program that was just conducted 
there, I believe that it is currently under review and that 
they are evaluating the program as we speak, in terms of making 
any modifications to the program that would enhance the skills 
of the pilots. So I think that they, the TSA, is doing the 
current review consistent with our methodologies and the way in 
which we conduct training.
    And the most important part of that training program is 
actually the review and the after action that follows any 
training course that we give. So I think that they are doing a 
very good job of that.
    In terms of conducting the training and the training needs, 
we do intend to accommodate their training requests. However, 
as Admiral Loy mentioned, as is true with all of the agencies 
that we train, every year they are required, especially in the 
area of firearms, to receive recertification training. And we 
will and continue to use export training sites located around 
the United States that our National Center uses to accommodate 
that training. And in those instances, we do contract for 
trainers to provide those services when there are no available 
FLETC resources to do that.

                           AIR CARGO SECURITY

    Senate Cochran. The Senate last week passed a bill called 
the Air Cargo Security Improvement Act. It would put into place 
several enhancements for security of cargo transported by air, 
particularly aboard passenger aircraft. The Transportation 
Security Administration is requesting $10 million for the 
research and development of an air cargo pilot program in this 
next budget year.
    The Act allows for pilots and crew members of air cargo 
aircraft to carry firearms, such as the way passenger aircraft 
pilots are permitted to operate now. There will also be funding 
needed to train Federal flight deck officers with the 
possibility of an additional 15,000 air cargo pilots being 
authorized. Do you feel that the Transportation Security 
Administration can carry out this responsibility with this 
amount of funding?
    Admiral Loy. We do, Mr. Chairman. The challenge, of course, 
is to attempt to project the number of volunteers from the 
greater pool of pilots, both commercial pilots for passenger 
aircraft, as well as the added number of air cargo pilots that 
will actually want to become Federal flight deck officers. We 
do not really have a very good feel for that. I have seen 
estimates that range from as low as 18 or 20 percent of the 
total population, which is pushing 80,000, as you know, to as 
many as half.
    We will just have to see how the volunteers step forward 
for the program. As it relates to the cargo pilots being 
included in the pool, I think TSA is basically silent on that 
question. If, in fact, that is the Congress's desire, that you 
add the pilots from air cargo to the pool, so be it.
    I have a couple of challenges with the bill, our thoughts 
with the bill, as it went down. And I look forward to working 
with the Committee as that continues on its way. For example, 
allowing any trained individual to be sitting in the jump seat 
and travel armed, whether or not it is an employee of that 
particular airline that is flying that plane. There are a 
couple of subtle things like that that are part of the bill, as 
I see it today, sir, that I would like to continue the dialogue 
with the committee on.
    Senator Cochran. I am sure others would join me in 
welcoming your input and observations on that. We would be glad 
to have the benefit of your suggestions.

                         AIR AND MARINE ASSETS

    Mr. Bonner, the Bureau that you are now in charge of has 
brought together a wide variety of physical assets, like 
planes, boats, and helicopters, that may now be the subject of 
new management efficiencies. Do you have plans for streaming 
the procurement or maintenance of these physical assets so that 
we derive some efficiencies and can also make our funds go 
further because of this consolidation of activity?
    Mr. Bonner. Well, let me say first of all that it is true 
that Customs and Border Protection, by virtue of having the 
Border Patrol, actually has a significant number of air assets. 
I think it is 100-plus, mainly helicopters, also some marine or 
small boat craft. On the other hand, as part of the 
reorganization, the U.S. Customs Air and Marine Interdiction 
Division, which also had aircraft and helicopters and some 
boats, it moved over to BICE. So to the extent there is----
    Senator Cochran. For those of us that cannot remember all 
the acronyms in this town, what is BICE?
    Mr. Bonner. BICE would be the bureau that is not here 
today. That is the Bureau of Immigration and Customs 
Enforcement. About 15 percent of the old U.S. Customs that 
represented the special agents, the criminal investigators, and 
the Air and Marine Interdiction Division that did air and 
marine interdiction, at or near our borders, went to BICE.
    So the upshot is that I have some air and marine assets 
still, from the Border Patrol, but I no longer have those 
formerly in U.S. Customs. I think there can be tremendous 
efficiencies here, both with respect to procurement and 
maintenance and, frankly, mission, that we ought to achieve.
    But it is going to be something that we have to figure out 
how to do at a higher level than Customs and Border Protection, 
because I do not control all of these assets or the budget for 
them. It is going to have to be done at the Border and 
Transportation Security level. We must figure out, one, how do 
we make the most efficient use of these assets to perform the 
border and the interdiction mission? And secondly, how do we do 
this in way that also achieves some economies and efficiencies 
with respect to procurement of aircraft, as well as maintenance 
and other issues?
    So we will be working on that issue. It is just a little 
bit more complex because it involves more than just Customs and 
Border Protection.
    Senator Cochran. Thank you very much.
    Senator Byrd.
    Senator Byrd. Well, again, thank you, Mr. Chairman.

                     FISCAL YEAR 2003 SPENDING PLAN

    Admiral Loy, the Transportation and Security Administration 
advised Congress that we would be provided with a spending plan 
for how you intend to obligate the funds appropriated to your 
agency for this fiscal year. We are now in the 8 month of this 
fiscal year. We have yet to be provided with such a spending 
plan. We are told that your agency faces a significant funding 
shortfall, perhaps as much as $1 billion. We have not received 
a supplemental request from the President to cover that 
shortfall or to meet it.
    The administration opposed Congress's efforts to, or at 
least our efforts, to add funding to the recent supplemental to 
close the operating deficit. Do you believe that you can live 
within your current budget? And if so, what steps are you 
taking to do so?
    Admiral Loy. Thank you, Senator Byrd. As I described just a 
moment ago, answering Senator Murray's question, I believe, 
Senator, that we are in this classic challenge of trying to 
understand the job description on one hand and the budget 
envelope on the other that will facilitate that work to be 
done.
    This is a brand new agency, which was set out to 
accomplish, first of all, the enormous set of mandates that the 
Congress provided immediately in the wake of the 9/11 tragedy. 
And here we are, essentially a year-and-a-half later, grappling 
with, I will call it, the sticker shock associated with what it 
takes to get the work done that the Congress has stipulated in 
the original legislation, which founded the organization.
    Senator Byrd. This is about as I predicted.
    Admiral Loy. I am sorry, sir?
    Senator Byrd. This is about as I predicted----
    Admiral Loy. Yes, sir. As a matter of fact, it is.
    Senator Byrd [continuing]. When we had this legislation 
before the Senate.
    Admiral Loy. Yes, sir, as is clearly the case. So we have 
gone over the course of time here literally with spending plans 
being briefed to the committees, the appropriating committees, 
over the course of the last year, a different committee, to be 
sure. But we brought forward a spending plan in September. We 
brought forward a new spending plan in December.
    Then we got on into the omnibus bill and the war 
supplemental that followed, all of which was a struggle between 
not only the agency trying to do the right thing, the Congress 
and the Administration also trying to do the right thing, and 
sorting the job description and the budget envelope necessary 
to do this work by this organization.
    As you just described it, as we walked away from the 
omnibus bill, we were in about a $1 billion hole. As we 
approached the war supplemental, the Congress was able to 
identify about half of that differential and make that 
significant assistance available in the war supplemental.
    These past weeks, I have been working day in and day out 
with both the Department of Homeland Security and the Office of 
Management and Budget to accept that war supplemental 
differential and then find in DHS authorities or 
reprogrammings, as appropriate, the wherewithal to close this 
spending gap for this organization for fiscal year 2003. That 
package is literally on the doorstep. I provided that to DHS 
and OMB a couple of weeks ago. And I believe it is literally 
about to be walked to the Congress almost as we speak, sir. 
That will define what we will try to do for the rest of fiscal 
year 2003.
    Senator Byrd. What was the reception at OMB?
    Admiral Loy. The reception at OMB was to recognize the 
authorities that the new Department of Homeland Security had in 
terms of finding monies within the structural authority that 
the new Secretary owns and to offer the notification back to 
the Congress of the intended reprogrammings necessary to make 
the agency whole for fiscal year 2003.

                    TSA SCREENER WORKFORCE REDUCTION

    Senator Byrd. On April 30, TSA announced a plan to 
eliminate 6,000 airport baggage screener positions. TSA took 
the action to bring total baggage screening staffing down 
closer to the limits in the fiscal year 2003 omnibus 
appropriations act and the 48,000-person level required in the 
President's fiscal year 2004 budget. As of March 31, TSA had 
55,600 screeners at the Nation's 427 commercial airports.
    Your plan would reduce staffing by 3,000 persons by the end 
of this month and an additional 3,000 by the end of the fiscal 
year. However, this action is expected to save approximately, 
is that $3 billion? How much is it that you expect to save?
    Admiral Loy. The annualized rate of those savings would be 
about $280 million next year, sir. But that is already 
internalized in the President's request.
    Senator Byrd. This is narrowing the nearly $1 billion 
funding gap, is it not?
    Admiral Loy. Yes, sir.
    Senator Byrd. I say hardly narrowing. Is that correct?
    Admiral Loy. That is correct, sir.
    Senator Byrd. TSA should provide Congress with a complete 
plan for closing the gap. On April 30, as I say, this plan was 
announced. This reduction of 6,000 positions by the end of the 
fiscal year is approximately 12.6 percent of the total screener 
workforce. Clearly, you must take difficult steps to get your 
agency's budget under control. And I would not want to try to 
second guess you, but I am concerned that screener reductions 
at some airports might be too steep.
    Of the Nation's 427 commercial airports, 12 airports are 
losing over 50 percent, more than half of their screeners, 
while 151 airports are actually gaining screeners. I am 
specifically concerned about the proposed reductions at 
Charleston, West Virginia's Yeager Airport, which is scheduled 
to experience a 54 percent reduction in baggage screeners. Your 
plan would reduce the number of screeners from 63 screeners to 
29, a 54 percent reduction.
    This is far in excess of the national average reduction of 
12.6 percent. And the Yeager Airport has not experienced a 
sharp reduction in the number of passengers using the airport. 
Your decision, as it relates to the Yeager Airport and the 11 
other airports just does not make sense. And I speak with, I 
think, considerable knowledge with reference to the Yeager 
Airport.
    Please explain why 12 airports would lose over 54 percent 
of their screeners and, in particular, why Yeager Airport is 
being cut by 54 percent.
    Admiral Loy. I will have to get back to you and will, 
Senator Byrd, on the specifics of the one airport you asked me 
about. Let me describe, though, that in a number of cases 
across the country we found that we were just an awful lot 
smarter 7 or 8 months later than we were when we originally put 
allocations at these respective airports. There were a number 
of places where they were simply over-hired by mistake by the 
contractor that we had doing that work for us in the turmoil of 
the first year of this organization's existence.
    Our challenge needs to be to focus on positions necessary 
to conduct the business at the airport, not the body count that 
might happen to be there at the moment. So in many instances--I 
do not know whether Yeager is among them, sir--we have found 
that there were hirings well in excess of the required work to 
be accomplished at the airport and are acting accordingly.
    This is not just a budget-induced adjustment. I believe 
that I owe this subcommittee, as well as my boss back in DHS, a 
notion of efficiency and effectiveness and good stewardship of 
the taxpayers' dollar in addition to the emotional thrust that 
we all took over the course of the first year by making 
judgments toward security virtually at every fork in the road 
that we came to.
    That is the effort that we have undertaken. It is now 
buttressed by several technological opportunities that we have. 
As we go from very people-intensive ETD machines and make the 
installations permanent of EDS equipment across the country, 
that will save an awful lot of money. When we have finished the 
information technology architecture at our respective airports, 
we will be able to get the right kind of management-scheduling 
software available to the Federal security directors to 
optimize the use of the people that he has there.
    So there are a number of things that play, Senator Byrd, 
with respect to why we are doing it and how we are doing it. I 
will get you a very solid review, sir, of the airport that you 
asked me about.
    Senator Byrd. Will you get that to the subcommittee?
    Admiral Loy. I will, sir.
    [The information follows:]

                          Screener Reductions

    An equitable process is being applied to the screener workforce 
reductions for all airports, using objective, fair, consistent, and 
pertinent factors in determining appropriate staffing levels regardless 
of airport size or location. There is no intention to single out West 
Virginia airports for larger reductions. Initial analysis revealed that 
Yeager Airport currently has a larger screener complement than 
necessary to operate the single passenger screening lane. As the 
process moves forward, TSA is inviting Federal Security Directors, 
community and airport leaders, and others to provide feedback in the 
form of airport specific information or other factors that are expected 
to drive TSA's upcoming refinement process. TSA will evaluate all the 
newly obtained information and will refine the preliminary numbers 
using this information and originating passenger data to arrive at a 
far more accurate reflection of the staffing needs at all airports. We 
will keep you apprised of the results of our on-going process to 
provide efficient, effective screening.

    Senator Byrd. It is important that the subcommittee know, 
as well as that I know.
    Now keep in mind here, I board a plane at Charleston, West 
Virginia. It has a straight, direct course to Washington, the 
capital of the country. I think we have to keep that in mind. 
It is not a large airport, like Chicago or Washington or New 
York. But it is on a direct course.
    So then you will--will you review your decision regarding 
these hard-hit airports?
    Admiral Loy. I absolutely will, sir. We are doing it 
routinely. I have asked my Federal Security Directors, as I 
said earlier, in consonance with the airport directors, the two 
of them getting together and thinking through very carefully 
the numbers involved in getting any challenges and their 
corrections back to us.

               MARITIME AND LAND TRANSPORTATION SECURITY

    Senator Byrd. Your agency is entitled the Transportation 
and Security Administration, not the Aviation Security 
Administration. Yet within your agency's $4.8 billion budget 
request for next year, only $86 million is requested for 
maritime and land security activities, while over $4.3 billion 
is requested for aviation security. Last week I asked Under 
Secretary Hutchinson why less than 2 percent of the 
transportation and security budget request is for maritime and 
land security. That is more than $1 in $50. And I asked him why 
the $218 million budget request for administrative costs 
associated with TSA headquarters and mission support centers is 
2.5 times greater than the request for maritime and land 
security. And I did not get a very convincing response.
    I say this with all due respect to Under Secretary 
Hutchinson. I am quite impressed with him as a man, man of 
ability. And I have great admiration for him. And I know that 
he has a big, huge responsibility here. But after all, we do 
have to try to get the answers to our questions. And in order 
to do a good job of adequately funding the agencies, we need 
the information that we ask for.
    I simply am not satisfied with the view, the apparent view, 
at least it seems that way, that port security is solely the 
responsibility of the ports. Ports focus on moving goods 
through the ports swiftly. The Federal Government must do more 
to direct the ports to focus on security and to provide 
resources to do so. Just 1 year ago this month, we were 
receiving reports that up to 25 Islamic extremists had entered 
the United States as stowaways in cargo ships. Our ports are 
vulnerable. And our ports need the funds to begin protecting 
them now.
    Over $1 billion in grant applications were received in 
response to the original $105 million appropriated for port 
security grants in the fiscal year 2002 supplemental. Last week 
I asked Under Secretary Hutchinson if he would commit to 
allowing the $150 million provided for port security grants in 
the omnibus appropriations act to be used to address the $1 
billion in grant applications sitting on his desk. Rather than 
run another competition for this next set of funds, does it not 
make more sense to use the additional $150 million provided by 
Congress just 3 months ago to address what is unarguably an 
urgent need for enhanced port security?
    Admiral Loy. I think it is absolutely the case that it is 
the right thing to do, Senator Byrd. And I think we can 
probably not only deal with that $150 million, but the 
additional $20 million that was appropriated in the war 
supplemental as well.
    So I think, based on the fact that we have, as you 
described, over a billion dollars worth of applicants, or 
applications in hand, we have every intention of distributing 
all the port security grant monies for 2003, including the 150 
and the 20 against those applications.
    Senator Byrd. Well, the Congress, let me just say for the 
record again, that the Congress has included in three separate 
emergency supplemental bills, as well as in the fiscal year 
2003 omnibus appropriations act, funding for port security 
grants. In total, $348 million has been provided. However, none 
of this was requested by the administration. And only $93 
million has been distributed to the ports to date. While the 
administration was eager to sign the Maritime Transportation 
Security Act, they have been silent on the costs associated 
with implementing it.
    I have just another brief question or so.

            COMPUTER ASSISTED PASSENGER PRE-SCREENING SYSTEM

    Admiral Loy, when Under Secretary Hutchinson testified 
before the subcommittee, I asked him about the Department's 
plans in regards to CAPPS II. Air travelers are very curious 
about this new system because it will examine information about 
people attempting to board a plane and will use that 
information to assign a threat level to each passenger. This is 
an important endeavor for Homeland Security, but there are many 
troubling questions raised by such a system, not least of which 
is what information will the Government use to determine threat 
level.
    I asked Secretary Hutchinson to tell us whether consumer 
debt history would be included in such information. He told us 
it would not. Secretary Hutchinson's answer did not quite set 
the record straight. Since his testimony, there have been 
numerous media reports that name credit history as one of the 
factors that CAPPS II may examine.
    On January 15, 2003, the Department of Transportation 
issued a notice in the Federal Register that named ``financial 
and transaction data'' as one of the categories of records for 
CAPPS II. You have not issued a new notice or a CAPPS II 
guideline since January 15. Will you issue new updated 
guidelines that reflect Mr. Hutchinson's assertion that credit 
history will not be part of the CAPPS II system?
    And I do not care if you check my credit history. I have 
been married now 66 years come Thursday, 2 weeks from now. And 
the only items that my wife and I have purchased on credit in 
those 60 years was a bedroom suite to begin with. And that was 
purchased at the coal company store. And I paid $7.50 every 2 
weeks on that.
    Admiral Loy. Is that paid off now, sir?
    Senator Byrd. How is that?
    Admiral Loy. Is that paid off now, sir?
    Senator Byrd. I did not understand you.
    Admiral Loy. Is the bedroom suite paid off at this point?
    Senator Byrd. Well----
    Admiral Loy. That is none of my business, sir. And I 
apologize.
    Senator Byrd. We are supposed to ask the questions here.
    And, of course, we had to go in debt for the first house we 
lived in, when we moved to Washington 50 years ago.
    Admiral Loy. Yes, sir.
    Senator Byrd. But we paid that off just in a couple of 
years. And in debt for the present home. And I cannot remember 
any other item we have ever gone in debt for. We do not owe 
anybody. So I can ask these questions without any trepidation.
    What steps will you take--did I get an answer for the first 
question? Will you issue new updated guidelines that reflect 
Secretary Hutchinson's assertion that credit history will not 
be part of the CAPPS II system?
    Admiral Loy. Absolutely we will, sir. We intentionally put 
the Federal Register notice out literally as widely as we 
could. We recognized from the very beginning the importance of 
the privacy end of this project. If I may, sir, you have given 
me an opportunity to just describe a couple of things about 
CAPPS II that I believe are fundamental and critical to our 
doing a better job with passenger pre-screening.
    First of all, the system that is in place today is broken. 
It is run by the airlines in a wide variety of different ways, 
from hand-held mimeograph lists to sophisticated software on 
the other end with respect to name recognition. These are 
enormously high stakes. Our first and foremost challenge, as 
directed by the Congress, was to keep terrorists off airplanes.
    CAPPS II will become a very narrowly focused threat 
assessment tool that will allow us to do an infinitely better 
job of identification authentication so that the person who 
claims them to be Joe Jones we have some confidence level that 
they are actually that person.
    Secondly, they will use a much stronger list of foreign 
terrorists that has been developed principally by the Justice 
Department over the course of this last year-and-a-half, so 
that we have a firmly identified person being bounced off a 
firmly put-together list, not a haphazard list, not just a name 
only kind of recognition as to whether or not the person is who 
he claims to be.
    They will also have a system that will allow us to sort of 
rheostat it based on the intelligence that we have for that 
day. If the intelligence for that day is threatening about an 
airline, about an airport, about a region of the country, about 
a flight, we will be able to adjust resources, both in terms of 
Federal air marshals, screeners at our airports, or even 
potentially the Federal flight deck officers that we have just 
begun to put into our system.
    This is not about data mining. This is not about NCIC 
checks or credit checks on creditworthiness of a person one way 
or the other. There are many of us who perhaps would actually 
find that if our creditworthiness was not so hot, that would 
prove that we are Americans. But we are not going there in any 
case, as to checking creditworthiness as part of this process.
    There will be no data held on these travelers, with the 
exception of those that are determined to be potentially 
foreign terrorists or those who are hanging around with them. 
And there will be absolutely no racial or ethnic profiling as 
part of this project that we are building.
    I have personally conducted, and my team has conducted, an 
extensive outreach to the privacy community. We have held off-
sites with privacy officers from the business world with the 
most strong advocates of the Fourth Amendment anywhere in this 
country. And we are learning from them as to what ought to be 
the privacy strategy that is in place as part of this project.
    We have briefed the Hill several times and look forward to 
any other opportunities to educate either the Committee members 
or their staffs as to why this project is so important to our 
future.

                             PRIVACY RIGHTS

    Senator Byrd. Well, you have answered my next question, it 
being what steps will you take to protect air passengers' 
privacy rights? Are there any additional thoughts you have on 
that question?
    Admiral Loy. Only that as we have worked with the privacy 
advocates and communities, sir, they have four or five basic 
things that they want to be assured of. First of all, they want 
to be assured of an oversight of what we are doing that is 
ongoing in nature, not just a check in the box at the point we 
get the thing blessed and press on, but an ongoing oversight 
responsibility for making sure we do not allow mission creep to 
enter into that system.
    They want a protocol for redress, if they, any individual, 
American citizen, feels they have been wronged at the pre-
screening process, that they have a means by which they can get 
redress to the system. They want to make sure that the 
information that they are offering, which is, by the way, a 
traveler-initiated information package, name, address, phone 
number, date of birth. Those are the four things that we will 
be asking for as part of the process. That the security 
associated with anything uncovered as a result of providing 
that information is very real. These are standards that we want 
to build into that next privacy notice to make sure all of 
America understands what this project is about.
    Senator Byrd. Will the new notice name the precise 
databases of information CAPPS II will collect about air 
passengers?
    Admiral Loy. I do not know that we have any reason not to 
name those in the privacy notice that will follow the rest of 
our review, Senator Byrd. But if you will, sir, I would be 
happy to get back to you, as we are about to formulate that 
second Register notice and advise you directly at that point.
    Senator Byrd. And how long will that be? I mean, how soon 
will that be?
    Admiral Loy. We are talking about weeks, perhaps a month. 
We are not talking about months or a year. We are anticipating 
that the developmental work on CAPPS II will proceed and that 
likely we will be at a point of having it online for America 
sometime in the spring of 2004.
    Senator Byrd. So you will supply the subcommittee with that 
information?
    Admiral Loy. I will, sir.
    [The information follows:]

                                CAPPS II

    CAPPS II will use commercial and government databases. The new 
notice will identify all of the information that will be collected on 
passengers and brought into the government system of records. TSA will 
not, however, identify the commercial data providers in the notice 
because CAPPS II will merely obtain authentication scores from 
commercial data providers and the underlying data belonging to 
commercial data providers will not be brought into the CAPPS II system. 
Furthermore, for security reasons, the notice will not disclose the 
nature or details of government-owned intelligence or other data that 
will be in the system.

    Senator Byrd. Just another question or so, Mr. Chairman. 
And will the guidelines, in your opinion, be as clear as you 
have been today?
    Admiral Loy. They will be directly that clear, sir. 
Absolutely.
    Senator Byrd. Just a postscript with regard--well, I will 
hold that for a moment.
    Admiral Loy, you were the Administrator of TSA last fall 
when you transmitted through the Department of Transportation 
to the OMB your request for fiscal year 2004. As a former Coast 
Guard commandant and as the Administrator of TSA, I am 
interested in your specific views of the resource needs for 
TSA. Would you tell us how much was requested at the OMB level?
    Admiral Loy. Senator, I will be happy to stand right beside 
Judge Bonner when we report back to the Committee. But let me 
just say two things----
    Senator Byrd. Now the head of this pin is getting awfully 
narrow.
    Admiral Loy. I understand. And we are dancing and trying to 
keep both feet off the ground, sir.
    Two things. I think the judge hit directly on the head of 
that pin when he described the opportunity that must be present 
for the new Secretary to consider the kinds of dispersion of, 
for example, threat assessment monies that are important for 
the whole range of what the Department is now responsible for. 
So many of the dollars that we had identified, for example, 
outside of aviation for what we thought was important work for 
TSA to press on with have been momentarily gathered at the 
Secretary's level to allow him the benefit of making judgments 
as to where the most important dollars could be spent for the 
well-being of our homeland.
    I think that is an important step for him to take. And I 
think it was the right thing for the gathering of such things 
as vulnerability assessment dollars that had been requested to 
be centralized in the new directorate known as the Information 
Analysis and Infrastructure Protection Directorate and allow 
Secretary Ridge the first opportunity to disperse those funds 
in the right direction.
    I trust, and I have every confidence, that a lot of those 
dollars are going to find their way back to transportation 
issues in ports, in rail, in transit systems, and other such 
work as I have offered to the Secretary to get on with.
    Senator Byrd. Well, thank you, Mr. Chairman. And thank you, 
all members of the panel.
    May I just say in closing that my references to my own 
personal financial data were not intended to be bragging. My 
old mom used to tell me that a self-braggart is a half-
scoundrel. But I think I want to make it clear for the record 
that my wife and I have always handled our business the old-
fashioned way.
    Admiral Loy. As we all wish we could, sir.
    Senator Byrd. We all might do better if we tried.
    Admiral Loy. You bet.
    Senator Byrd. Thank you.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator Byrd.

                           LETTERS OF INTENT

    Admiral Loy, the budget request submitted by the 
Transportation Security Administration does not include any 
requests for funds for installation of explosive detection 
systems. But I notice in your testimony you mention that there 
is an intent to amend the request to include funds associated 
with the Letters of Intent program.
    Do you have a plan or a timetable for when you are going to 
submit this or how much you will be requesting to carry out the 
Letter of Intent program?
    Admiral Loy. I think it is important for two things to be 
brought to this discussion, sir. First of all, I think it is so 
important for this program to press forward that my commitment 
to the Department of Homeland Security has been that I would 
find monies within the request already on the table to press on 
with the EDS installation program.
    I also see that in the reauthorization legislation 
associated with the air, what used to be Air-21, there is a 
notion of a substantial fund being established to provide for 
the funding of major security projects at airports. There was 
originally a discussion associated with whether that should be 
dealt with inside the Department of Transportation or within 
the Department of Homeland Security.
    I would hope that if they are truly, if the intent of that 
segment of the bill is to fund security projects for our 
country about aviation, that they would be in the Department of 
Homeland Security and made available to TSA to administer. That 
would be an appropriate means by which we could find those 
dollars to do that work.

                        LAW ENFORCEMENT OFFICERS

    Senator Cochran. There is, in the TSA's plans for this 
year, agreements with local airports and State agencies for 
uniformed officers at security checkpoints. Now there is an 
announcement, I understand, that has gone out that TSA will not 
reimburse local airports for law enforcement officers. We had a 
couple of airports in our State that had been counting on some 
funding to help pay the costs of providing uniformed officers 
at security checkpoints.
    What is the explanation, or is there any rationale, for 
changing your mind about reimbursement for the expense of local 
law enforcement officers at airports?
    Admiral Loy. Yes, sir. I will be happy to provide that. As 
you know, the original ATSA legislation required Federal law 
enforcement officers to be stationed at each checkpoint across 
our country. Those responsibilities were largely fulfilled by 
the National Guard in the immediate wake of the tragedies of 9/
11. As the National Guard disbanded from the airports, State 
and local officials, law enforcement officials, filled the gaps 
with absolutely excellent performance across this last year.
    Our first recognition of whether or not the original law 
needed adjusted was to take out the word Federal. And we got 
the technical amendment associated with that accomplished. Just 
in the course of the last appropriations cycle, the requirement 
that they be stationed at the checkpoint was also eliminated. 
We felt, after having observed this and with the great counsel 
from the State and local people who have been doing this work 
for us, that there was an infinitely greater capacity for law 
enforcement to be done at the airport, if we went toward a 
flexible response kind of an approach, where they were not 
rigidly stationed at the checkpoint, rather could be roving to 
a standard of response to get back when necessary, if something 
happened at the checkpoint, but in the meantime could be doing 
excellent law enforcement surveillance work, counterdetection 
work, other very good things that those officers could be doing 
for us at the airport, not unlike they had actually done many 
times before 9/11/01.
    So my announcement on the end of this month will be that, 
A, it is no longer required for that officer to be rigidly 
stationed at that checkpoint. And we will adopt a flexible 
response approach.
    We will eliminate the existing memoranda of agreement 
associated with doing that and, where appropriate, renegotiate 
reimbursable agreements in airports across the country. We 
think we will probably be able to provide better security at 
far less money for the American taxpayer.

                  PROFESSIONALISM OF AIRPORT SCREENERS

    Senator Cochran. I appreciate that. And, in closing, I 
wanted to make an observation and ask for your reaction to it. 
Members of the Senate and Congress, as well as others, I am 
sure, travel a good bit on airplanes. We have an opportunity to 
observe the passenger screening procedures and the personnel 
conducting those operations at a number of airports throughout 
the country.
    These individuals are charged with doing the things 
necessary to assure that our airplanes are safe from hijackers 
and others who are likely to cause or engage in terrorist 
activities, hijackings, or commit crimes. It seems to me that 
there is a wide disparity between airports and among different 
individuals who are working to screen passengers. There ought 
to be some way to standardize and have a predictable level of 
competence and courtesy, building confidence among those who 
are traveling by air that the screeners know what they are 
doing and that we have good people, talented people, working 
throughout the air passenger system.
    But that is just not the case right now. I mean, there is a 
wide disparity from airport to airport. I was surprised and 
really very pleased this weekend, when I came across some 
airport screeners who were very courteous and almost treated us 
all as if we had not been convicted of a terrorist act as we 
were proceeding through the lines. Others tend to be pretty 
aggressive and some even mean-spirited, it seems.
    I wonder when we can expect to get to the point where we 
can count on a predictable level of competence and courtesy, 
that the air-traveling public can expect, as we go through the 
lines and are screened before we get on the airplanes?
    Admiral Loy. Actually, I am very disappointed to hear that 
report, Senator Cochran, because we had been working very 
diligently to gain passenger feedback by focus groups and 
asking questions of folks who are actually in the middle of the 
experience across the country. And on balance, our feedback had 
been that the courtesy, respect, professionalism of the 
federalized screening force that took the place of many of 
those screeners of the past, who unfortunately were more apt to 
be described as you just described them, and that we had 
actually done a very good job in that regard.
    Our training program was exactly the same from coast to 
coast. And to the degree there is a leadership challenge for 
that Federal Security Director to mandate from his workforce 
the descriptors you just described, that is exactly the 
standard that I want those screeners to deal with across the 
country. I will personally put out a message reinforcing that, 
because that is what we taught at the training. And if it is 
not there, I would actually like to know about that, so that I 
can fix it anywhere in the country, sir.
    Senator Cochran. Well, we appreciate that. I think it is a 
matter of leadership. And I am not suggesting that you are not 
a good leader. But somewhere down the line at some airports 
there is a breakdown in that.
    Admiral Loy. Yes, sir. We need that feedback so we can 
correct that where it is appropriate.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Cochran. We have another hearing that we had 
scheduled, where we were going to review the budget request for 
the Department of Homeland Security's Information Analysis and 
Infrastructure Protection. The individual named to that 
position has not been confirmed, so that hearing is going to be 
postponed and hopefully will be rescheduled at a later date.
    As you know, Senators may submit additional questions to 
you to be answered for the record. And, we hope you will 
respond to those questions within a reasonable time. We 
appreciate very much your cooperation with our efforts to 
review your budget request. We look forward to continuing to 
work closely with you as we try to identify the priorities in a 
thoughtful way to help ensure our Nation's security.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

   Questions Submitted to the Bureau of Customs and Border Protection

              Questions Submitted by Senator Thad Cochran

                              FEE REVENUE

    Question. Within your Bureau, there are multiple fees that are paid 
by air and sea passengers for inspections services. Are you reviewing 
the various fee structures with an eye towards rationalizing where, 
when, and how these various fees are paid? Do you plan to send a 
legislative proposal to the Congress?
    Answer. A working group composed of representatives from the legacy 
agencies is currently reviewing the various structures. The group is 
tasked with identifying solutions to address the varied issues to 
accomplish an integrated Bureau program. The critical objective of the 
group is to develop a legislative BCBP user fee proposal for the 
Congress to consider.
    Question. What is the current financial condition of the 
Immigration User Fee Account? Although additional hiring was 
authorized, what plans do you have in place to ensure that the 
Immigration User Fee will live within its means this fiscal year and 
next fiscal year?
    Answer. Fiscal year 2003 collections averaged 10.5 percent higher 
($268.0 million) for the first two quarters than our projection of 
$243.6 million. In fact, this per quarter average increase has held 
since the 3rd quarter of fiscal year 2002. During the first two 
quarters of fiscal year 2003, the immigration user fee collections 
reached just over 47 percent of the annual fiscal year 2003 projection 
of $567.8 million. Depending on the impact that severe acute 
respiratory syndrome (SARS) has on the normally robust summer 
international travel, we are cautiously optimistic about achieving the 
fiscal year 2003 projection.
    When immigration user fees for persons entering the United States 
through an air or sea ports-of-entry materialize at levels lower than 
estimated, as they did in fiscal year 2002 (-$85 million), we implement 
as many of the following cost reducing actions as are needed to bridge 
the funding gap.
  --Reduce discretionary overtime
  --Offset (to other accounts) or defer (to the next fiscal year) 
        selected non-payroll spending
  --Delay hiring enhancement positions until late in the fiscal year
  --Don't fund servicewides associated with the number of enhancement 
        positions not hired
  --Don't hire seasonal inspections staff
  --Freeze non-payroll spending
  --Implement a furlough
    The order listed is generally the order in which actions are 
considered; however, there are exceptions. For example, in fiscal year 
2002, overtime was required to operate at heightened threat levels. 
Therefore, steps taken to bridge the fiscal year 2002 gap skipped step 
1, and the gap was resolved by a combination of steps 2-4. Steps are 
implemented only as far as necessary to resolve the gap. Thus far, the 
gaps have not been serious enough to implement steps 5-7.
    Immigration user fee passenger volume has been recovering toward 
the pre-September 11, 2001 trend for the last 4 quarters but has not 
yet reached pre-September 11, 2001 levels. The fiscal year 2003 
projected collections ($568 million), although showing a $63 million 
increase over fiscal year 2002 collections, would still be $90 million 
below the fiscal year 2003 authorized spending authority ($658 
million).
    The steps taken in fiscal year 2002 are being repeated in fiscal 
year 2003 to bridge the fiscal year 2003 gap.
    Question. The Land Border Inspection Fee is also facing a deficit 
this fiscal year. What plans do you have in place to fix this 
situation?
    Answer. The immigration land border fees including nonimmigrant 
arrival/departure records and Canadian boat landing permit, as 
examples, have not been increased in many years and do not fully 
recover the cost of services. They are currently undergoing a cost 
review, and recommendations for fee increases are likely. Prior to 
fiscal year 2003, the $7-$8 million annual gap for 398 authorized 
positions was absorbed in the Exams Fee account where these fees were 
collected. With the transfer of these fees to the immigration land 
border fee account in fiscal year 2003, the gap between costs and 
collections has to be offset with appropriated funds. Our plan to fix 
the situation in fiscal year 2003 is to offset approximately $7.4 
million of payroll and non-payroll costs with appropriated Inspections 
funds.
    Question. The authority to collect a fee for land border 
inspections has been used successfully to fund commuter express lanes. 
In fiscal year 2002 the authority to run pilots was expanded from 6 
ports of entry to 96 ports of entry. Do you have any plans to study 
requiring all vehicles and pedestrians that use the land border to pay 
a fee for that service, not just express commuters? Have you considered 
requesting that the prohibition in Public Law 103-317 on assessing such 
a fee be lifted?
    Answer. We are not planning for a universal land border fee and are 
not planning to request that the prohibition be lifted. However, over 
the next 5 years, we are considering increasing the numbers of 
dedicated commuter lanes so that many land border ports will have more 
than one dedicated commuter lane available for pre-approved enrollees. 
We believe the increased lane access will encourage greater 
participation in the NEXUS and SENTRI programs and will increase the 
numbers of pre-cleared travelers, as well as begin the process of 
integrating the dedicated commuter lane concept with the U.S. VISIT 
entry--exit concept. Increasing the numbers of dedicated lanes at 
selected ports will provide for increased revenues to cover the cost of 
operating the dedicated commuter lane enrollment centers. The cost of 
increasing numbers of dedicated lanes would have to be paid from 
appropriated funds as they have been in the past.

                            PHYSICAL ASSETS

    Question. Virtually every individual program that has been merged 
into BCBP has a need and a budget for buying vehicles. What steps are 
you taking to review these budget items? What plans are there for 
consolidation of procurement, retrofitting, and maintenance?
    Answer. We are reviewing options for consolidating functions to 
include fleet management. We currently have one bureau with a very 
robust fleet management program that covers over 67 percent of the BTS 
fleet. They have three established vehicle retrofit factories through a 
partnership with Federal Prison Industries that provide over one 
million high-quality, low-cost, labor hours to retrofit our vehicles. 
The vehicle retrofit factories convert production line vehicles into 
customized law enforcement vehicles. They provide a complete vehicle 
replacement service to our customers that includes delivery of a 
turnkey vehicle, the disposal of the replaced vehicle, and the 
initiation of the vehicle file in our fleet maintenance management 
system. They are also implementing a state-of-the-art commercial off-
the-shelf maintenance management system and fleet services. The new 
service will allow our fleet managers to analyze and compare vehicle 
life-cycle costs; in-house maintenance and commercial costs; 
performance of fleet vehicles by type, year, region, etc; and the 
status of vehicle and component warranties. It will allow our field 
personnel to focus on their core Homeland Security mission while 
improving the quality and economy of their vehicle fleet.

                              CANINE UNITS

    Question. The creation of the Customs and Border Protection Bureau 
brought together 1,210 canine teams--705 from the Customs Service, 334 
from the Border Patrol, 30 from the Immigration Inspections program, 
and 141 from the Animal Plant Health and Inspection Service. Are you 
reviewing the multitude of canine programs that are already in 
existence in your organization to look for overlaps in mission?
    Answer. Yes. The Legacy U.S. Customs Service, Legacy Border Patrol 
and Legacy Animal and Plant Health and Inspection Service have 
developed working groups to work with the transition team to identify 
overlaps in missions. Output from this working group was provided to 
the Transition Team for the Commissioner's review and comments.
    Question. Do you have any estimated cost savings from combining 
these programs? Are any assumed in the President's fiscal year 2004 
budget request?
    Answer. No. The working group is waiting for direction on the final 
structure, which was provided to the transition team. The working group 
is being proactive in developing standards for like functions such as 
narcotics detection. Work is ongoing to standardize such things as 
evaluations, certifications, etc. At this time, the efforts would be 
budget neutral should they be implemented.

                          CONSOLIDATION ISSUES

    Question. How are plans proceeding on the integration of the 
inspections programs and when do you anticipate seeing the cost savings 
from creating a consolidated inspections program?
    Answer. A plan is in place to roll out a unified primary 
inspections program as well as an improved counterterrorism secondary 
inspection program. For cargo, a working group has been established to 
develop a unified cargo inspections process. It is anticipated that 
consolidated facilities and systems will produce a cost savings once 
the unified programs are in place. The roll-out of the unified primary 
inspections program is projected to be completed by the end of fiscal 
year 2004 at land and in airports. Roll-out plans for seaports are in 
the process of being developed.
    Question. After March 1, 2003, who assumed control at each of the 
ports-of-entry? How were the decisions made in appointing the acting 
port directors?
    Answer. On February 27, 2003, Commissioner Bonner appointed 20 
interim Directors for Field Operations to oversee operations at 
approximately 300 ports of entry nationwide. These appointments became 
effective on March 1, 2003.
    The Interim Port Directors were recommended through an interagency 
process that involved senior managers from the Legacy organizations of 
Customs, Immigration and Agriculture. Current management officials at 
the ports, from the various legacy organizations, were considered in 
this process. The Interim Port Directors were then appointed by the 
Assistant Commissioner for the Office of Field Operations. Each of the 
Bureau of Customs and Border Protection (BCPB) Interim Port Directors 
report directly to one of the Interim Directors for Field Operations.
    Question. How are you approaching the reconciliation of the 
disparate pay and benefit issues? Have you received input from the 
Office of Personnel Management on this issue?
    Answer. We have established a transition working group to address 
the issues of the duties, pay and benefits of our workforce. This group 
has presented preliminary recommendations to the Commissioner regarding 
strategies to resolve these issues. We have plans to discuss these 
strategies with the Office of Personnel Management in the coming 
months.
    Question. When do you plan to send a legislative proposal forward?
    Answer. Once the personnel system flexibilities are determined, the 
pay disparities will be addressed. It is likely that they will require 
legislation. The Department of Homeland Security will be responsible 
for developing any required legislation.

                                TRAINING

    Question. What type of guidance have you provided to the Federal 
Law Enforcement Training Center concerning cross-training for existing 
inspectors from the legacy agencies?
    Answer. When the Department of Homeland Security was created on 
March 1, 2003, all inspectors from legacy Customs, INS and Agriculture 
became part of a single agency, the Bureau of Customs and Border 
Protection (BCBP). The Commissioner of BCBP, the Honorable Robert C. 
Bonner, launched an immediate initiative to cross-train all existing 
inspectors in fulfillment of his statutory obligation as head of the 
agency to determine the training requirements of agency personnel.
    Currently anti-terrorism training is being delivered to all 17,000 
existing Inspectors and cross training on frontline primary inspections 
is being delivered to BCBP Inspectors at the ports of entry through CD-
ROMs. This month, BCBP will begin training personnel to return to their 
duty stations and conduct live classes at the airports to prepare all 
inspectors to work in all primary areas. Closely following the airport 
rollout, land border and seaport inspectors will receive specialized 
training by trained trainers at their ports of entry. First line 
supervisors of the inspectors will also receive training. All 
inspectors will to receive monthly ``muster modules'' (short training 
sessions delivered at the ports on counter-terrorism topics). Training 
delivered on``)site is the most efficient and effective way to meet the 
immediate needs of the existing workforce while maintaining vital 
operations at the border.
    Question. What type of guidance have you provided to the Federal 
Law Enforcement Training Center for basic training for Customs and 
Border Protection inspector recruits?
    Answer. The Office of Training and Development (OTD) in the Bureau 
of Customs and Border Protection (BCBP) is designing the new basic 
Inspector curriculum for its new recruits. This training will integrate 
the formerly separate elements of the legacy Inspector positions. This 
new training curriculum will meet all Federal Law Enforcement Training 
Center (FLETC) standards.
    BCBP is working with the FLETC to coordinate their support of 
BCBP's projected training requirements in terms of the number of 
students to be trained, the approximate content and length of the 
proposed course, and the types of training that BCBP expects the FLETC 
to provide. While BCBP Instructors provide the majority of the training 
hours to its recruits, FLETC provides elements of training that are 
common to all law enforcement agencies such as training in Firearms, 
Arrest Techniques, Narcotics Identification and fingerprinting.
    Question. Where will these inspectors train? Will they train as a 
group or separately or a combination?
    Answer. All incumbent Inspectors for the Bureau of Customs and 
Border Protection (BCBP) will receive training at their current ports 
using a combination of group training to foster unification and 
teamwork, self-study to enable rapid uptake of critical skills and 
knowledge, and apprentice-style, on-the-job training (OJT) that 
provides opportunities for legacy Immigration, Agriculture Quarantine, 
and Customs Inspectors to demonstrate field practices to each other.
    New recruits for BCBP Inspector positions will receive structured 
on-the-job training (OJT) at their duty station before and after they 
attend the classroom and practical exercise training at the Bureau of 
Customs and Border Protection Academy in Glynco, Georgia.

                             BORDER PATROL

    Question. Now that the Border Patrol is part of your organization, 
do you intend to keep the National Border Patrol Strategy that INS has 
attempted to implement over the past 9 years?
    Answer. The Border Patrol's national strategic plan was written in 
1994 with the focus of implementation in the areas with the highest 
level of illegal immigration. The plan is achieved with the ``forward 
deployment'' and proper balance of agents, equipment, technology, and 
border infrastructure (cameras, sensors, roads, lights, fences or other 
border barriers).
    Areas of operations that have become the focus of this plan have 
proved this to be an effective enforcement action. Participating 
sectors have seen a prolific change since the inception of their 
corresponding operations.
  --El Paso--Hold the Line (arrests down, crime reduced)
  --San Diego--Gatekeeper (29 year record low in apprehensions, crime 
        reduced)
  --McAllen--Rio Grande (crime and arrests reduced)
    Changes have occurred since the strategy's implementation, most 
notably following the September 11, 2001, attack on the United States. 
The strategy's Phase IV implementation was accelerated to respond to 
the potential threats on the northern border. The upgrades in 
technology and its application for border deterrence and enforcement 
has also improved.
    Continuation of the proven and successful National Border Patrol 
Strategic Plan is warranted in-order to respond to emerging threats and 
changes in the past trends of illegal border entries.
    Question. What changes might you consider making to the strategy to 
increase its effectiveness and reduce migrant deaths?
    Answer. Due to concentrated border enforcement efforts, organized 
smugglers have shifted their techniques and areas of operation from 
traditional unlawful entry points near the ports of entry to extremely 
remote and dangerous areas. The intense summer temperatures and arduous 
terrain associated with these areas account for the majority of 
documented deaths. BCBP has been increasing efforts to identify and 
prosecute smugglers who choose more dangerous methods and routes to 
smuggle unsuspecting aliens. Yearly enhancements allow for BCBP to 
apply resources where the deaths occur to effectively deter and disrupt 
illegal border traffic. BCBP is also expanding its Border Safety 
Initiative, which incorporates a multi-pronged approach to making the 
border a safer environment. BCBP is increasing the number of qualified 
medical/rescue agents and is cooperating with Mexican counterparts at 
an unprecedented level. For example, a meeting of field representatives 
has just concluded, which produced a collaborative strategic plan for 
reducing deaths on both sides of the international border. As the 
strategy evolves other initiatives will be developed and supported. 
BCBP leadership is convinced that when the proper balance of personnel, 
equipment, technology, and tactical infrastructure exists, the illegal 
crossings will decline, bringing a commensurate decline in deaths and 
injury.
    Question. Given the level of additional resources that have been 
put into the Northern Border, will you be revising that portion of the 
strategy?
    Answer. Since its implementation in 1994, the Border Patrol's 
National Strategic Plan has been the basis for a multi-year, multi-
phased approach for the deployment of additional personnel and 
resources, for the purpose of increasing control of our Nation's 
borders. The cornerstone of this strategy calls for ``prevention 
through deterrence'' as the means to restrict illegal entry attempts 
into the United States. Along the southwest border, the strategy has 
concentrated Border Patrol resources into those specific geographic 
areas experiencing the highest level of illegal activity. The key to 
the successful implementation of this strategy has been the deployment 
of the proper balance of personnel, equipment, technology and 
infrastructure into those areas.
    As originally written, the final phase of the National Strategic 
Plan calls for enhancing our enforcement posture along the northern 
border and coastal areas of the United States. Securing the northern 
border has traditionally presented many unique enforcement challenges 
for the Border Patrol. Our shared border with Canada is approximately 
4,000 miles long and is the longest non-militarized undefended border 
in the world. In the past, this vast expanse, coupled with an 
inadequate number of personnel and a lack of resources and 
infrastructure, has significantly limited the Border Patrol's deterrent 
effect upon illegal activity. In the wake of September 11, 2001, 
vulnerabilities and deficiencies along the northern border have 
received increased attention, which has caused the Border Patrol to 
accelerate its efforts in increasing our enforcement presence along the 
northern border.
    The current Northern Border Strategy encompasses interagency and 
international cooperation and coordination, effective technology 
development and deployment, and innovative resource allocation. The 
geographic and environmental conditions found on the northern border 
have led to the historic economic and cultural interdependence of the 
United States and Canada. In light of the long-standing cooperation and 
economic interdependency, the Border Patrol has conducted activities 
along the northern border with significantly fewer resources than were 
dedicated to the southwest border. For these reasons, the Border Patrol 
cannot simply replicate the same enforcement strategy implemented on 
the southwest border.
    The Northern Border Strategy relies upon maximizing existing 
resources in order to strengthen control of the border. The Northern 
Border Strategy also requires the proper balance of personnel, 
equipment, technology and infrastructure. To improve our effectiveness, 
the initial area of emphasis is the expansion of liaison and increased 
intelligence sharing with other Federal, State and local law 
enforcement agencies, as well as our counterparts within the Canadian 
government. The second emphasis is on the deployment of enforcement 
related technology along the border to act as a force multiplier, 
thereby increasing the area that can be adequately covered by available 
manpower. The final emphasis of the strategy calls for the deployment 
of additional personnel into our northern border sectors. As mentioned, 
subsequent to September 11, 2001, the Border Patrol accelerated into 
this phase by redeploying agents from the southwest border to the 
northern border.
    Question. In December 2001, the Northern Border sectors of the 
Border Patrol were directed to create or expand Integrated Border 
Enforcement Teams or Integrated Maritime Enforcement Teams. What 
progress has been made in carrying out this directive?
    Answer. IBETs are intelligence driven/intelligence led enforcement 
teams comprised of Federal, State/provincial and local law enforcement 
personnel working together to enhance our shared border's integrity and 
security. They are multi-disciplinary in nature and work in land, air 
and marine environments along the Canadian/United States border, 
respecting the laws and jurisdiction of each nation. They identify, 
investigate and interdict persons and organizations that pose a threat 
to our national security or are engaged in other organized criminal 
activity.
    Since December 2001, the Northern Sectors of the Border Patrol have 
created and expanded the Integrated Border Enforcement Team (IBET) 
program to include participation by all Northern Border Sectors. There 
are 14 IBET locations along the Northern Border with 12 currently fully 
operational. All IBET regions should be staffed and operational by the 
autumn of 2003.
    BCBP/USBP has 17 assigned IBET intelligence sources. BICE has 60 
IBET resources, 4 of which are intelligence resources. Currently, the 
total number of RCMP IBET assets is 131, with 25 being intelligence 
resources. Canadian Customs Revenue Agency has 14 dedicated IBET 
intelligence resources.
    A multi-agency monthly report is what the IBET's are currently 
working towards. From this report, a national multi-agency monthly 
report/bulletin will be compiled and distributed to all partner 
agencies. A yearly Risk Assessment will be established for each IBET 
and a national Risk Assessment will be compiled. A weekly IBET 
Information Brief containing open source information is currently 
produced by the National RCMP IBET analyst and is distributed to all 
partner agencies through intelligence contacts that have been developed 
in those agencies.
    To ensure that all local, State and Federal participating IBET 
agencies are aware of the IBET program and concept, training has been 
established and conducted with Federal, State and local law enforcement 
agencies on both sides of the border to inform participants on IBET 
concepts and operations. Four 3 day IBET workshops have been completed 
in 4 locations with a total of 146 members from multiple government 
agencies participating. This training has been extremely successful.
    Present initiatives under development call for improving the IBET 
model. Current efforts include the co-location of intelligence 
resources in 4 locations and the dedication of full time resources to 
the Intelligence group from all participating agencies.
    Question. What is the current status of overall Border Patrol 
hiring? Do you expect to hire all of the new authorized positions this 
year? Please provide the committee with the total number of on-board 
agents as of the date of this hearing.
    Answer. Border Patrol hiring continues at a steady pace. Interest 
in the Border Patrol as a career remains high among our applicant 
market, with more than 37,000 applications received as far this fiscal 
year. Through our highly selective screening and processing, we project 
a net new hiring figure of 600 new agents for fiscal year 2003. This 
number will meet the additional 570 agents directed by Congress and 
will make significant progress towards overcoming the hiring shortfall 
of fiscal year 2002. As of May 13th, the date of the hearing, the 
Border Patrol had 10,381 agents on-board.

                       INSPECTIONS--DOCUMENTATION

    Question. Current Federal regulation exempts certain persons, such 
as U.S. citizens, from presenting a passport when arriving into the 
United States from most countries in the Western hemisphere. Inspectors 
can allow a person to enter based upon only an oral claim of 
citizenship. Inspectors intercept thousands of aliens each year who 
falsely claim to be a U.S. citizen in order to unlawfully enter the 
United States. What policy changes, if any, would you recommend that 
would mitigate an alien's ability to successfully enter the United 
States by falsely claiming to be a U.S. citizen?
    Answer. These issues have significant legal, domestic policy, and 
foreign policy implications, all of which must be analyzed and 
carefully weighed before a final recommendation and policy decision can 
be made.
    Question. Your Department is charged with developing a 
comprehensive Entry Exit system to track the arrival and departure of 
all aliens into this country. Given that, should the Western hemisphere 
exemption be reconsidered, such that everyone, U.S. citizen or Canadian 
will have to present a passport to gain entry into the United States at 
an international border crossing?
    Answer. These issues have significant legal, domestic policy, and 
foreign policy implications, all of which must be analyzed and 
carefully weighed before a final recommendation and policy decision can 
be made.

                     CARGO AND PASSENGER PROCESSING

    Question. Over the years, the Customs Service and the former 
Immigration and Naturalization Service have recognized the natural 
tension between ``enforcement'' and ``facilitation'' when processing 
cargo and passengers entering the United States. Striking a balance 
between the two can be complicated by the fact that the cargo and 
passenger transportation networks are predominantly controlled by the 
private sector. What views and options will you bring to the Department 
of Homeland Security to help mitigate this tension?
    Answer. The need to facilitate the flow of cargo and the need for a 
strong security and enforcement posture is not mutually exclusive. The 
need for both underlines the importance of advanced, electronic 
information on goods before they arrive in the country. BCBP realizes 
that and is working towards that end in many programs, the 24-Hour 
cargo rule and the forthcoming proposed regulation under the Trade Act 
of 2002 being excellent examples. Both are efforts to capture cargo 
information from the Trade earlier in the transportation cycle so that 
security decisions on release or examination are made efficiently 
before goods actually arrive in the country.
    Question. Recognizing that it is a difficult proposition, how best 
can we gain reasonable assurance that laws will be enforced without 
unduly clogging supply chains and slowing the flow of passenger 
traffic?
    Answer. The best method is to work towards the acceptance of 
electronic information from all parties involved in the transaction who 
must report to BCBP as well as those who may offer additional 
information to facilitate cargo movement. Since BCBP is relying on this 
data for important decision-making, the sources of the data must be 
well known and, if necessary, regulated by the government. BCBP must be 
willing to expand its communications with various trade parties, and 
has acknowledged this with its C-TPAT program and its acceptance of 
Non-Vessel Operating Commercial carriers into the Vessel Automated 
Manifest Systems.
    Question. Given the fact that the cargo and passenger 
transportation networks are predominantly controlled by the private 
sector, how can the government and private sector work in a partnership 
to ensure that security becomes a natural and reinforced part of the 
supply chain in a cost-effective and operationally efficient manner?
    Answer. BCBP can ensure that it is able to communicate with all 
trading partners who need to supply data. It can also act to serve as a 
communication link between trade partners so that some or all of the 
necessary shipment data can be shared, thereby saving the trade from 
having many communications links to many different companies. In doing 
so, BCBP can also shield data that should not be seen by all the 
parties to a transaction.

                         INFORMATION TECHNOLOGY

    Question. The fiscal year 2004 budget for the Bureau of Customs and 
Border Protection requests $30.2 million for an Information Technology 
Transformation to Homeland Security Fund, and has a separate request 
for $22.3 million for an Information Technology Infrastructure program 
called ATLAS. Please explain the differences between these two 
requests.
    Answer. The Information Technology Transformation to Homeland 
Security Fund is being created to address Information Technology (IT) 
compatibility and interoperability issues that arise during the 
transition including, but not limited to, mission systems, electronic 
mail, networks, collaborative tools, enforcement data integration, 
administrative capabilities and expanded services to other DHS 
components. It is imperative that IT operability remains stable in 
order to efficiently meet BCBP mission requirements. This fund will be 
used to extend the BCBP enterprise architecture to provide expanded 
access to IT capabilities in support of the Homeland Security mission.
    Legacy INS initiated the ATLAS program in 2001 to transform its 
stove-piped and aging IT infrastructure into an up-to-date environment 
that can provide improved data sharing and applications 
interoperability that will support the underpinning of all mission-
critical, application development initiatives and all systems that are 
in an operations and maintenance mode.
    Question. With the consolidation of Customs and INS into DHS' 
Border and Transportation Security Directorate and DHS' associated 
effort to integrate border protection and immigration and customs 
enforcement, what are the implications for continuing ACE, the 
Modernization project, and ATLAS as separate projects?
    Answer. The Modernization Program and its first project, ACE, will 
support the overall mission of the Directorate of Border and 
Transportation Security (BTS) and, more specifically, enhance the 
operational effectiveness of the Bureau of Customs and Border 
Protection (BCBP). ACE will play a major role in enhancing both border 
security and border efficiency. It provides an integrated information 
base and IT platform that can be leveraged for border security.
    Starting this year, ACE will help enhance border security and 
deliver efficiencies to the trade process by providing interagency 
information sharing, and real-time, cross-government access to more 
accurate trade information. By centralizing and integrating the 
collection and analysis of this information, ACE will enhance BCBP 
ability to target illicit cargo, illegal persons, and unsafe 
conveyances. The trade data will be analyzed prior to arrival, allowing 
advanced inter-agency assessment of risks and threats to determine 
which goods and people must be scrutinized. Results will determine if, 
upon arrival, a shipment is to be examined or cleared for release.
    As noted above, the ATLAS program was initiated in 2001 to 
transform its stove-piped and aging IT infrastructure into an up-to-
date environment that provides improved data sharing and applications 
interoperability that will support the underpinning of all mission-
critical, application development initiatives and all current systems 
that are in an operations and maintenance mode.

                    INTERNATIONAL TRADE DATA SYSTEM

    Question. What is the status of implementing the International 
Trade Data System? What will the request for $5.7 million in additional 
funding for fiscal year 2004 be used for?
    Answer. The ITDS initiative is currently in the process of 
integrating the first 9 agencies with responsibilities at the border 
including BCBP; U.S. International Trade Commission (USITC); Federal 
Motor Carrier Safety Administration (FMCSA); Bureau of Census; Federal 
Communications Commission (FCC); Food and Drug Administration (FDA) and 
U.S. Army Corp of Engineers (USACE).
    The original fiscal year 2004 budget request for ITDS was approved 
at $5.4 million prior to the identification and incorporation of agency 
inputs related to ITDS development. That original funding allowed the 
ITDS development contractor to perform only high-level requirements 
gathering. The request for the $5.7 million in additional funding in 
fiscal year 2004 will be used to perform detailed requirements 
gathering and analysis for incorporation into ITDS and will include 
integration plans and agency readiness review criteria. This effort 
will include the development of a consolidated and harmonized 
government-wide data requirements for all import and export 
transactions.
    Question. How many of the over 100 government agencies involved in 
ITDS have participated in identifying requirements?
    Answer. As of this date, over twenty of the over 100 government 
agencies have directly participated in the identification of 
requirements for ITDS. In addition, with the inclusion of Census in the 
list of participating agencies, numerous statistical agencies who 
currently receive their data exclusively or significantly through 
Census are considered to have their requirements addressed within the 
system. Through the on-going ITDS outreach efforts to the agencies and 
the system definition taking place within the ITDS Process Analysis 
Teams, additional agencies are being solicited to populate business 
process areas that align with an agency's mission.
    Question. How many of the over 100 government agencies involved in 
ITDS have initiated changes to their existing systems and processes so 
they will work with ITDS?
    Answer. Of the over 100 government agencies identified for 
inclusion in ITDS, at least nine have begun in earnest initiating 
changes in their systems and processes to work with ITDS. Numerous 
others have begun assessing the system and process changes that will be 
required once their integration begins. Agencies are coordinating their 
schedules for implementing change with the incremental delivery 
schedule of ITDS as functionality is deployed that best aligns with 
their mission needs.
    Question. What will be the impact on anticipated ITDS benefits if 
trade agencies do not position themselves to use ITDS?
    Answer. Benefits from ITDS fall into several categories: improved 
border and port security; improved port operations; improved data 
quality; reporting burden reduction to the international trade and 
transportation communities; and, streamlined operations post-entry.
    These benefits will be lessened if agencies do not participate in 
ITDS. Paramount to this is the failure to leverage the ITDS development 
efforts and meet the spirit of the President's Management Agenda and 
its five government wide goals. It is difficult to quantify the extent 
to which benefits will not accrue to the Government. However, it is 
possible, depending upon which agencies do not participate, that port 
inspectional personnel may have to use more than one system for 
processing goods or conveyances; some trade and transportation 
companies may have to provide information to the Government through 
multiple information systems; the Government will not have all of the 
information available to support a single, knowledge-based risk 
management system; and, data quality issues will remain as long as data 
is reported through multiple information systems.
    Question. What actions are planned to overcome any resistance trade 
agencies may have to positioning themselves for ITDS?
    Answer. The ITDS Board of Directors has recently completed a major 
effort to contact all agencies that are potential candidates for 
inclusion in ITDS. The agencies were offered an opportunity to meet 
with ITDS and BCBP personnel to discuss the mission and vision for 
ITDS, expected benefits, and steps that agencies should take to be 
included. As a result of those contacts, the number of agencies 
participating in the Government Support Network (a user group 
conference for Federal agencies) tripled over previous meetings and the 
number of agencies participating in the Program Support Group (an ITDS 
participant group) has increased.
    Commissioner Bonner will personally meet with heads of agencies 
that have resisted outreach efforts but which are important for 
homeland security, border operations, and trade facilitation or which 
are developing competitive or redundant systems. The list of specific 
agencies to be covered by these meetings is not finalized as of May 28, 
2003, but will be finalized shortly. A representative of the 
international trade community will participate in those meetings.
    Several meetings have been held with the Office of Management and 
Budget to solicit support for agency budget requests that include 
integration into ITDS and OMB support for the initiative. Another 
meeting is being scheduled with budget examiners from all of the 
departments that have agencies that are possible candidates for 
inclusion in ITDS.

                     CONTAINER SECURITY INITIATIVE

    Question. While your organization has launched the Container 
Security Initiative and continues to operate the Customs-Trade 
Partnership Against Terrorism, there is also Operation Safe Commerce, 
which is the responsibility of the Transportation Security 
Administration. Operation Safe Commerce is working to identify and fund 
business driven initiatives to enhance security for the movement of 
cargo through the supply chain. While each of these projects has a 
particular focus, how will these be coordinated to ensure no 
duplication of effort and the best use of the funding provided?
    Answer. BCBP has the sole statutory and regulatory responsibility 
for container security on containers destined for the United States. 
Although this authority is clearly delineated through the 
implementation of enforcement programs like Container Security 
Initiative (CSI) and Customs-Trade Partnership Against Terrorism (C-
TPAT), BCBP strives to comply with its mission in coordination with 
other equally vital offices within the Department of Homeland Security 
which have statutory and regulatory responsibility over a segment of 
sea transportation.
    Coordination and communication with our department partners ensures 
an effective and streamlined security process. For example, BCBP has 
established a protocol with the United States Coast Guard to handle 
certain types of serious threats through the High-Interest Vessel 
program. Also, BCBP has shared interest with DOT and TSA in developing 
industry partnership programs that improve container security (and 
other types of transportation security) and are consistent for domestic 
and international shipping.
    BCBP and TSA are working together through a jointly chaired 
steering committee that makes the final project selection decisions for 
Operation Safe Commerce. The Federal Register notice that initiated the 
Operation Safe Commerce program makes specific references to C-TPAT and 
CSI as initiatives that may be considered as part of Operation Safe 
Commerce business practices and technology supply chain ``test bed'' 
initiatives.
    As a voluntary government-business initiative, the C-TPAT 
complements the overseas targeting of the CSI and the development of 
new security techniques under Operation Safe Commerce. As of May 9, 
2003 C-TPAT membership includes over 3,000 companies that account for 
approximately 37 percent of all U.S. imports by value and approximately 
93 percent of all U.S.-bound sea-containerized cargo. By creating a 
significant network of reliable and secure companies, C-TPAT enables 
BCBP to direct its CSI targeting to areas of greater risk and 
establishes a mechanism for incorporating the best practices and new 
high-tech equipment identified by Operation Safe Commerce.
                                 ______
                                 

            Questions Submitted by Senator Pete V. Domenici

                             BORDER ISSUES

    Question. It has been 17 years since the Federal government 
launched a major effort to upgrade U.S. borders and that effort focused 
only on the Southwest border.
    I have just sponsored the Border Infrastructure and Technology 
Modernization Act (S-539). The new bill will focus on U.S. borders with 
Canada as well as Mexico. This bill has the dual goals of facilitating 
the efficient flow of trade while meeting the challenges of increased 
security requirements.
    This will include:
  --More funding for equipment at our land borders;
  --Additional funding for personnel;
  --Additional funding for training; and
  --Additional funding for industry/business partnership programs along 
        the Mexican and Canadian borders.
    It is important for the border enforcement agencies to work with 
the private sector on both sides of the border and reward those 
partners who adopt strong internal controls designed to defeat 
terrorist access to our country.
    What are your thoughts on the importance of trade partnership 
programs along the Southwest border?
    Answer. Industry Partnership Programs (IPP) allow BCBP to expand 
our influence beyond the borders and into Mexico, Central America, 
South America and the Caribbean. Under the umbrella of the Customs-
Trade Partnership Against Terrorism (C-TPAT), these priority 
initiatives include the Land Border Carrier Initiative Program (LBCIP), 
the Business Anti-Smuggling Coalition (BASC) and the Americas Counter 
Smuggling Initiative Program (ACSI). Each IPP enables the Trade to 
tighten our borders through the enhancement of supply chain security 
standards that deter smugglers from using conveyances and cargo to 
smuggle terrorist devices and narcotics. These complementary programs 
benefit both BCBP and the private sector by securing the integrity of 
shipments destined for the United States while promoting the efficient 
flow of trade.
    We are currently working on additional security requirements that 
take into account the additional terrorist and drug threat on the 
Southwest border for conversion of the LBCIP carriers to C-TPAT. BASC 
chapters have been established throughout Ecuador, Colombia, Costa 
Rica, Mexico, Panama, Peru, Venezuela and most recently in Jamaica, 
where a chapter was founded in March 2003. The ACSI Teams continue to 
support BASC through security site surveys, briefings on smuggling 
trends and techniques and security and drug awareness training.
    The primary purpose of LBCIP is to prevent smugglers of illegal 
drugs from utilizing commercial conveyances for their commodities. 
Carriers can effectively deter smugglers by enhancing security measures 
at their place of business and on the conveyances used to transport 
cargo. By signing agreements with the BCBP, land and rail carriers 
agree to enhance the security of their facilities and the conveyances 
they use and agree to cooperate closely with BCBP in identifying and 
reporting suspected smuggling attempts.
    BASC is a business-led, BCBP supported alliance created to combat 
narcotics smuggling via commercial trade that was formed in March 1996. 
BASC examines the entire process of manufacturing and shipping 
merchandise from foreign countries to the United States, emphasizing 
the creation of a more security-conscious environment at foreign 
manufacturing plants to eliminate, or at least reduce, product 
vulnerability to narcotics smuggling. Customs BCBP supports BASC 
through ACSI, which are teams of BCBP officers that travel to the BASC 
countries to assist businesses and government in developing security 
programs and initiatives that safeguard legitimate shipments from being 
used to smuggle narcotics and implements of terrorism.
    Question. What plans do you have to increase cooperation with the 
Mexican government on border issues?
    Answer. Under the C-TPAT programs consisting of the Americas 
Counter Smuggling Initiative (ACSI), and the Business Anti-Smuggling 
Coalition (BASC), BCBP is engaging the Mexican trade community and 
Mexican Customs in a cooperative relationship against the smuggling of 
drugs and implements of terror. Meetings have been held with Mexican 
Customs through a bilateral U.S.-Mexican Government Working Group. 
Through this working group, the United States and Mexico can work 
jointly through these programs to establish a secure supply chain 
between our countries, while facilitating cross border trade. BCBP is 
also working with Mexican Customs to identify what areas in Mexico 
should be targeted for the establishment of new BASC chapters.
    Under the high-level United States and Mexico Customs Bilateral 
Working Group, a demonstration project to test a fast and secure lane 
at El Paso is underway. This bilateral program is designed to expedite 
and facilitate commercial truck crossings at the Ports of Entry (POEs) 
by implementing the mandated requirements of securing the flow of 
people, transportation, and goods under a secure infrastructure. This 
program is aimed at facilitating cross border trade, while improving 
and ensuring the supply chain security of the participants that range 
from manufacturing, to transportation, to importation.
    BCBP has two ACSI teams traveling throughout Mexico to work with 
the BASC Chapters in Monterrey, Ciudad Juarez and Mexico City to 
prevent drug smugglers and elements of terrorism from using legitimate 
cargo to enter their illegal merchandise into the U.S. BASC, which was 
initiated in March 1996, continues to be a private sector business-led, 
BCBP supported alliance under C-TPAT that complements and enhances our 
efforts to secure the supply chain. C-TPAT is an anti-terrorism 
response to the events of September 11, 2001 which engages the trade 
community in a cooperative relationship with BCBP in the war against 
terrorism. C-TPAT will work with foreign manufacturers, exporters, 
carriers, importers and other industry sectors emphasizing a seamless, 
security conscious environment throughout the entire commercial 
process.

 UNMANNED AERIAL VEHICLES AT THE LAS CRUCES, NEW MEXICO INTERNATIONAL 
                                AIRPORT

    Question. I was pleased to learn of Secretary Ridge's interest in 
using unmanned aerial vehicles (UAVs) for improved surveillance along 
our Nation's borders. I strongly support such action to improve our 
Nation's ability to patrol our borders, particularly in less-populated 
areas. Southern New Mexico is already the site of ongoing UAV flights 
out of the Las Cruces International Airport. This airport is the 
headquarters of New Mexico's emerging UAV Center of Excellence, the 
newly formed joint regional UAV Systems and Operations Validation 
Facility (USOVF), a partnership between the 46th Test Group at Holloman 
Air Force Base and the Physical Science Laboratory of New Mexico State 
University. The USOVF is pre-approved by the Federal Aviation 
Administration for file and fly in a regional flight area of 300,000 
square miles in the western United States. The Las Cruces International 
Airport is situated less than 40 miles from the U.S.-Mexico border, and 
in a central location among U.S. border states. What do you anticipate 
will be the size and scope of the Department of Homeland Security's 
deployment of UAV's on our borders?
    Answer. BTS has asked the Science and Technology Directorate to 
evaluate the use of UAVs in a Border and Transportation Security 
environment. S&T was also asked to evaluate other potential 
applications.
    Question. What funding and facilities will the Department need for 
a UAV program?
    Answer. Until the requirements have been scoped to determine the 
feasibility and extent of a UAV program, we cannot predict what amount 
of funding and the type of facilities the Department will need to 
implement a UAV program.
    Question. On what timeline will the Department implement this 
initiative?
    Answer. At this time, it is unknown what the timeline will be for 
the Department to implement this type of initiative. A proposed project 
plan including milestones and deliverables is expected to be ready for 
review by June 2003. The project plan will discuss the BTS-specific 
project as well as strategies in developing UAV initiatives in the 
near, mid, and long term for DHS venues such as borders and ports.
    Question. Based upon the characteristics of the Las Cruces, New 
Mexico International Airport, could you provide an assessment of its 
potential for utilization by the Department of Homeland Security for 
serving as a platform for the deployment of UAV's for Homeland Security 
purposes?
    Answer. Based upon the description of the Las Cruces, New Mexico 
International Airport, the facility appears to have potential for 
serving as a platform for UAV deployment for Homeland Security 
purposes. After UAV program feasibility, requirements and scope is 
determined a more detailed assessment on available testing and 
deployment facilities needs to be made.
                                 ______
                                 

             Questions Submitted by Senator Mitch McConnell

    Question. In your testimony, you mentioned the significant success 
of the Container Security Initiative (``CSI'') in helping to eliminate 
the threat of terrorist attacks by means of oceangoing sea containers. 
Will the CSI also help in the detection of items such as illicit drugs 
and counterfeit merchandise in addition to cargo that could be a 
potential terrorist threat?
    Answer. BCBP screens the data and information for all cargo 
containers arriving in the United States each year; and closely 
scrutinizes and examines all shipments identified as high risk. BCBP 
has developed a multi-layered process to target high-risk shipments 
while simultaneously facilitating legitimate trade and cargo.
    Our multi-layered approach involves electronic manifest 
information, partnerships, Automated Targeting System (ATS), the human 
factor, and non-intrusive inspection technology.
    The BCBP goal is not to search a specific percentage of cargo. BCBP 
thoroughly screens and ultimately examines 100 percent of shipments 
that pose a risk to our country.
    Question. Do changes in the Homeland Security Advisory System 
Threat Level have an effect on the BCBP's mission priorities? If so, 
what effect do threat level changes have on the BCBP's enforcement of 
intellectual property rights?
    Answer. During times of ``ALERT LEVEL ORANGE'' or greater BCBP's 
main focus of operation will be that of detection and interdiction of 
terrorist entities and weapons of mass destruction. However, the BCBP 
continues to work hard on its other key mission priorities that include 
but are not limited to matters relative to intellectual property 
rights. The interdiction of counterfeit goods remains one of six 
priority trade areas for BCBP. The Bureau of Customs and Border 
Protection and the Bureau of Immigration and Customs Enforcement 
continue our collaborative efforts of detection, interdiction and 
investigation of counterfeit goods. Through the collective efforts of 
employees at over 300 ports of entry, BCBP continues to target, 
intercept and seize shipments of goods that violate U.S. patent and 
trademark laws and regulations. A multi-disciplined IPR Working Group 
is currently working to improve the agency's targeting of shipments 
that may potentially contain counterfeit goods. This will be 
accomplished by identifying risk factors, focusing on high-risk 
products and implementing a coordinated targeting initiative of 
containerized freight to detect, deter and interdict the movement of 
counterfeit products.
    Question. I understand that the former Customs Service has 
participated in the Treasury Department's Operation Green Quest, which 
seeks to identify, disrupt, and dismantle the financial sources of 
terrorist funding. The findings of that investigation indicate that one 
of the many criminal enterprises used to fund terrorist organizations 
is the sale of counterfeit merchandise. Could you please describe what 
information you have about the extent of the connection between 
intellectual property theft and terrorist financing and what the BCBP 
is doing to counter this threat?
    Answer. Operation Green Quest investigations have revealed that a 
variety of criminal activities serve as funding sources for various 
criminal elements, some of which are alleged to have ties to terrorist 
organizations. Among these are violations of laws protecting 
intellectual property rights and prohibiting the manufacture, 
trafficking and sale of counterfeit merchandise. The Bureau of 
Immigration and Customs Enforcement (BICE) is conducting several on-
going investigations involving the use of proceeds derived from the 
sale and trafficking of counterfeit merchandise, alleged to support 
designated terrorist organizations. BICE is committed to investigating 
any violation of Federal law that may be used to fund criminal 
enterprises.
    Question. Some in industry fear that an unintended consequence of 
merging the Customs Service into the BCBP has been a reduction in the 
number of inspectors assigned to detect counterfeit merchandise. Have 
there been reassignments in the BCBP that have diverted personnel from 
intellectual property enforcement to other functions? If so, how does 
the BCBP plan to balance its traditional missions, including protecting 
American businesses from theft of their intellectual property, with the 
Bureau's primary mission of preventing terrorists and terrorist weapons 
from entering the United States?
    Answer. Yes, there have been some reassignments of personnel due to 
the Bureau of Customs and Border Protection's new primary mission of 
preventing terrorists and terrorist weapons from entering the United 
States. However, BCBP continues to work hard on its other key mission 
priorities that include but are not limited to matters relative to 
intellectual property rights. The interdiction of counterfeit goods 
remains one of six priority trade areas for BCBP. BCBP continues its 
collaborative efforts of detection, interdiction and investigation of 
counterfeit goods with BICE.
    Through the collective efforts of employees at more than 300 ports 
of entry, BCBP continues to target, intercept and seize shipments of 
goods that violate U.S. patent and trademark laws and regulations. A 
multi-disciplined IPR Working Group is currently working to improve the 
agency's targeting of shipments that may potentially contain 
counterfeit goods. This will be accomplished by identifying risk 
factors, focusing on high-risk products and implementing a coordinated 
targeting initiative of containerized freight to detect, deter and 
interdict the movement of counterfeit products.
    BCBP anticipates bringing on-board approximately 1,700 new 
Inspector hires by the end of fiscal year 2003. As these new Inspectors 
are brought on-board, trained and placed in ports of entry throughout 
the country they will increase the number of personnel BCBP will have 
at its disposal to focus on the important mission of counterfeit goods 
detection and interdiction. Under the IPR Trade Strategic Plan, 
developed by the former Customs Service's IPR Working Group, BCBP is 
providing its field personnel with the additional knowledge they 
require for IPR enforcement through advanced fraud and IPR law, 
procedures and enforcement training.
                                 ______
                                 

         Questions Submitted by Senator Ben Nighthorse Campbell

                  QUALIFIED ANTITERRORISM TECHNOLOGIES

    Question. The Homeland Security Act of 2002 (Sections 862) provided 
the Department of Homeland Security with authority to compile a list of 
``qualified antiterrorism technologies'' that would qualify or receive 
certain protection under that Act. Has this list been compiled? If not, 
why?
    Answer. The list of ``qualified antiterrorism technologies'' has 
not yet been compiled. The regulations to govern implementation of the 
SAFETY Act must be completed before the SAFETY Act can be implemented. 
Promulgation of these regulations is a high priority, and DHS is 
working with the Office of Management and Budget (OMB) to finalize an 
initial set of SAFETY Act regulations. We expect to publish these 
regulations for comment very shortly. Following the public comment 
period, the regulations will be finalized and issued. As soon as the 
regulations are issued, applications can be made to DHS for 
consideration of possible technologies that are determined to meet the 
criteria set forth in Subtitle G, Sec. 862.
    Question. If this list has been compiled, can Members of this 
Committee get a copy of this list?
    Answer. The list of ``qualified antiterrorism technologies'' has 
not yet been compiled. The regulations to govern implementation of the 
SAFETY Act must be completed before the SAFETY Act can be implemented. 
Promulgation of these regulations is a high priority, and DHS is 
working with the Office of Management and Budget (OMB) to finalize an 
initial set of SAFETY Act regulations.
    Question. How would a company that has an antiterrorism technology 
be considered for approval?
    Answer. DHS has developed plans for both an immediate 
implementation path, and for a longer-term ``ideal state'' process, to 
implement the SAFETY Act. Public notification of the application 
process and of the select categories of technologies that will be 
considered for certification will be made through the DHS website after 
regulations are issued.
    Question. Do they need to wait for the rulemaking process to be 
completed to apply for approval?
    Answer. Yes, companies will need to wait until after the rulemaking 
process has been completed. DHS does not yet have an application or 
approval process in place. Final application and approval processes are 
contingent upon issuance of regulations. DHS wants to ensure that 
applicants are well informed about requirements so that they can make 
informed decisions regarding submitting their technologies for 
consideration
    Question. If so, when will that process be completed?
    Answer. Until DHS and OMB have completed their review and issued 
guidance for the actual implementation of the SAFETY Act, it is not 
possible to determine an actual date for completing the process. 
However, the Department does place a high priority on completing the 
necessary guidance and regulations and is prepared to act quickly after 
issuance of the guidance.

                            BORDER SECURITY

    Question. This Directorate arguably has one of the toughest jobs in 
the Department. Ideally, if this Directorate performs its job to 
perfection, then the concerns of terrorists coming into our country to 
attack our citizens or our infrastructure are reduced to a great 
extent. With 7,500 miles of land borders with Canada and Mexico and 
95,000 miles of coastline to keep watch over, short of building a large 
wall around the country, how much success have you had in strengthening 
our border security?
    Answer. The priority mission BCBP is to detect and prevent 
terrorists and terrorist weapons from entering the United States at and 
between Ports of Entry (POEs) while simultaneously facilitating 
legitimate trade and travel.
    In order to carry out its priority mission, BCBP has developed and 
is implementing Smart Border initiatives with other Nations and with 
the private sector, such as the Container Security Initiative (CSI), 
the Customs-Trade Partnership Against Terrorism (C-TPAT), NEXUS, and 
the Free and Secure Trade (FAST) Program, and will continue to push our 
zone of security outwards.
    Our layered inspection process and the components of a Smart Border 
include:
  --Advance electronic information;
  --Automated targeting tools;
  --Identifying and facilitating low-risk travelers and shipments;
  --Non-intrusive inspection technology;
  --Industry partnerships;
  --Training; and
  --Pushing security beyond our borders.
    BCBP uses various large-scale, portable and hand-held technologies 
in different combinations to substantially increase the likelihood that 
a nuclear or radiological weapon or weapons grade material will be 
detected. We have identified and are deploying nuclear and radiological 
detection equipment to include personal radiation detectors, portal 
radiation monitors and radiation isotope identifier devices.
    In combination with our layered enforcement process, these tools 
currently provide BCBP with significant capacity to detect nuclear or 
radiological materials.
    Additional initiatives include, but are not limited to:
  --Training to further develop a highly skilled and trained workforce;
  --Sensors to remotely monitor low volume ports of entry; and
  --Exchange of intelligence and information to identify potential 
        nuclear and radiological smuggling threats.
    Our goal is to examine 100 percent of all high-risk cargo and 
conveyances and to screen all high-risk people, cargo and conveyances 
for radiation.
    The Border Patrol, a component of the Bureau of Customs and Border 
Protection, is responsible for preventing the illegal entry of any 
persons crossing between the ports of entry along the 8,000 miles of 
international border with Canada and Mexico. To accomplish this 
enormous mission, there are currently over 10,000 agents deployed on 
the border to deter, detect, and apprehend any illegal entrants at the 
border. These dedicated agents have historically arrested in excess of 
1,000,000 illegal entrants annually. In order to improve the 
enforcement effectiveness of these agents, the use of technology and 
enhanced detection systems are continuing to be deployed along the 
border. In addition to the technology, additional border barriers, high 
intensity lighting units and improved border roads have been used to 
assist the agents in providing the maximum in border security measures 
between the ports of entry. The success of these measures has recently 
lead to reductions in illegal entry arrests along certain major border 
areas, as well as the continued disruption of organized smuggling 
efforts on the border.
    Question. Are any of these projects visible to our country's 
citizens to make them feel safer?
    Answer. BCBP has developed a multi-layered process to target high-
risk shipments while simultaneously facilitating legitimate trade and 
cargo. Our Smart Border initiatives include components that are 
invisible to a majority of the traveling public. These include 
cooperative efforts with other Nations to push security beyond our 
borders, advance electronic information, automated targeting tools, 
intelligence and partnering with industry.
    Portions of our layered enforcement process are highly visible to 
the general public. These include our inventory of hand-held, portable 
and large-scale non-intrusive inspection (NII) technologies deployed to 
our Nation's air, land and seaports of entry, as well as the additional 
personnel and canine resources necessary to support the technology.
    Many of the Border Patrol's newest assets are visible to the 
citizens who reside in our many border communities. Those assets 
include the latest in state of the art helicopters, which frequently 
patrol over these communities. In addition, there are infrastructure 
improvements in fencing, checkpoint facilities and expanded canine 
units for locating persons and contraband hidden in vehicles and train 
boxcars. Also visible to our citizens is the increase in the number of 
agents patrolling in marked sedans and four-wheeled drive trucks along 
the border. In addition, every Border Patrol sector has a community 
out-reach program to educate and inform the local communities of the 
activities of the Border Patrol and to reassure the citizens of the 
Patrol's efforts in providing security along the border of the country. 
While many of the assets used by the Border Patrol are not readily 
visible to the public, such as surveillance and detection equipment, 
the results of the increased presence of agents along the border 
continues to be favorably noted by the local media and civic 
organizations in many border communities.
                                 ______
                                 

             Questions Submitted by Senator Robert C. Byrd

                        EXPIRATION OF COBRA FEES

    Question. The COBRA fees--which fund nearly all overtime for the 
legacy Customs inspectors among others--expire at the end of this 
fiscal year. Have you submitted legislation to the appropriate 
authorizing committees and discussed with them the need for the 
extension of these fees? Also, what contingency plans, if any, do you 
have in place to cover the costs of the current COBRA-funded functions 
should the fees not be extended in time?
    Answer. We have briefed both the House Ways and Means Committee and 
the Senate Finance Committee staffs on the need for an extension of the 
COBRA fees, and both Committees have developed proposals to extend the 
fees. The expiration of the COBRA fees will present numerous problems 
for BCBP, as well as fee paying parties-in-interest. Other existing 
statutes require that airlines be billed for overtime services and 
preclearance (19 USC 267 and 31 USC 9701) and that foreign trade zones 
and bonded warehouses be billed for inspectional and supervision 
services (19 USC 81n and 19 USC 1555). Other charges, such as fees for 
reimbursement of compensation of boarding officers under 19 USC 261 
will also need to be reinstated. These statutes are held in abeyance 
while the COBRA fees are in effect (see 19 USC 58c(e)(6)). While the 
reimbursements from these other statutes would offset some of the 
losses from the expired COBRA fees, the amounts are not expected to be 
significant. If the COBRA fees expire, service to international 
passengers and the trade would need to be reduced to a level 
commensurate with available funding.
    It should also be noted that the failure to reauthorize the fees 
provided for under the COBRA statute (19 USC 58c) will result in an 
additional loss in collections of approximately $1 billion annually. 
This represents the Merchandise Processing Fees, which are deposited 
into the General Fund of the Treasury as an offset to the commercial 
operations portion of the BCBP budget.
 legacy customs service and immigration and naturalization service fees
    Question. A significant portion of the budgets of the new Bureaus 
of Customs and Border Protection and Immigration and Customs 
Enforcement are based on the assumed collection of fees from the legacy 
Customs Service and Immigration and Naturalization Service. What 
happens if these fees do not materialize or materialize at levels lower 
than estimated? How do you intend to bridge that funding gap should one 
occur?
    Answer. If funding shortages occur because of smaller fee receipts, 
BCBP will adjust the level of inspection services accordingly in order 
to function within available resources.

                 ANTI-DUMPING AUTHORITY (BICE AND BCBP)

    Question. What is the expected cost in fiscal year 2003 of 
administering the anti-dumping authority in section 754 of the Tariff 
Act of 1930 (19 USC 1675c)?
    Answer. While enforcement of the Tariff Act is a major priority of 
the BCBP, its efforts to enforce this legislation cut across many 
different programs and organizations which are concurrently performing 
a variety of trade compliance functions within BCBP. Therefore, the 
cost of BCBP's enforcement efforts in this area is not easily tracked 
or monitored in a way that enables BCBP to provide a quick and easy 
answer to this question. Ultimately, any answer would be an estimate of 
BCBP's costs.

                            BUDGET DOCUMENTS

    Question. The budget justification documents for BCBP and BICE do 
not include detailed legacy information on the agencies/accounts broken 
out in a manner similar to that which used to be provided by the former 
Customs Service. Was information provided to the Department by the 
former Customs Service staff prepared in that format? Please provide 
the Subcommittee with a copy of that submission to assist us in tracing 
the budgets from fiscal year 2003 to fiscal year 2004?
    Answer. The former Customs Service did not provide a draft of the 
fiscal year 2004 budget to the Department in its traditional format.

                           DHS FIRST 100 DAYS

    Question. Secretary Ridge noted in his list of the Department's 
accomplishments for the 1st 100 days that BCBP had ``acquired and 
deployed additional ``A-STAR'' and ``HUEY'' helicopters to bolster 
enforcement efforts along the U.S. Southern border''. With what fiscal 
year funds were these aircraft purchased? Are other rotary or fixed-
wing aircraft in the procurement pipeline? If so, where is their 
planned deployment?
    Answer. The purchase of the additional `A-STAR' helicopters was 
made in fiscal year 2002 with funding received from counter-terrorism 
supplemental appropriations in that year. The `HUEY' helicopters were 
obtained through the military on-loan program for special operations 
and tactical training requiring the mission capabilities of that 
aircraft. The deployment of the `HUEY' helicopters to bolster border 
enforcement operations occurred in fiscal year 2002.

                      AQI FUMIGATION INVESTIGATION

    Question. The Agriculture Department's Animal and Plant Health 
Inspection Service--Agriculture Quarantine Inspection (AQI) program was 
transferred by law to the Department of Homeland Security. However, the 
investigators who follow-up, review and investigate the importation of 
prohibited goods from prohibited countries remain part of the 
Agriculture Department. Similarly, the personnel responsible for 
fumigation, following the discovery of pests, remain at USDA. Does this 
make sense? Is the Administration considering a legislative fix to 
correct this contradiction?
    Answer. The separation of mutually dependent program functions, 
such as the USDA investigators and personnel responsible for 
fumigation, from the AQI program transferred to the DHS is problematic 
and requires high levels of cooperation, communication, and 
coordination at multiple levels. To facilitate this, DHS and USDA 
addressed issues early by including relevant Articles in a Memorandum 
of Agreement (MOA) required by the Homeland Security Act of 2002. 
Specifically, there are Articles for separating functions and then 
coordinating these functions once separated. Further, additional and 
more specific agreements are necessary and are being developed. The MOA 
will be periodically reviewed and modified as mutually agreed to by DHS 
and USDA. Through the MOA and additional, more specific agreements, DHS 
and USDA will have an opportunity to re-adjust the assignment of 
program functions and responsibilities to maximize collective ability 
to carry out respective missions. Program officials from both DHS and 
USDA are working together to accomplish this. Legislative fixes offer 
another means to accomplish necessary and beneficial re-adjustments and 
changes. DHS Agricultural Inspection Policy and Program staff is not 
currently working on developing legislative fixes.

                        DEPLOYMENT OF RAIL VACIS

    Question. I understand that the Department has procured some rail 
VACIS systems that are awaiting deployment along the Northern Border. 
How many systems are procured (or are being procured with fiscal year 
2003 Omnibus and fiscal year 2003 Supplemental funds) and where are 
they planned to be deployed? How many rail VACIS systems are provided 
for in the fiscal year 2004 budget request?
    Answer. With budget requests made prior to fiscal year 2003, BCBP 
procured fourteen rail VACIS systems; however, only five have been 
installed (all along the Southern Border). The remaining nine rail 
VACIS systems will be installed later this year at the following 
locations:
  --El Paso (Rail), Texas
  --El Paso (Del Norte), Texas
  --Calexico (West Rail), California
  --Blaine, Washington
  --International Falls, Minnesota
  --Portal, North Dakota
  --Buffalo, New York
  --Noyes (#1), Minnesota
  --Noyes (#2), Minnesota
    BCBP is procuring five additional rail VACIS systems with the 
fiscal year 2003 Omnibus and fiscal year 2003 Supplemental funds. All 
five of these rail VACIS systems will be installed along the Northern 
Border. These rail VACIS systems will be deployed at the following 
Northern Border locations:
  --Eastport, Idaho
  --Walkersville, Canada (Detroit, Michigan)
  --Rouses Point, New York (Champlain)
  --Sarnia #2, Canada (Port Huron, Michigan)
  --Sarnia #1, Canada (Port Huron, Michigan)
    While no rail VACIS systems are scheduled for procurement via the 
fiscal year 2004 budget request, fourteen additional rail VACIS systems 
are planned for future deployment along the Northern Border pending 
available funding.

                          INSPECTION PERSONNEL

    Question. The President's fiscal year 2004 budget proposal for the 
Bureau for Customs and Border Protection (BCBP) is $5.6 billion. How 
many new inspection personnel are requested within the President's 
Budget?
    Answer. BCBP has requested 1,142 inspection personnel FTE in the 
fiscal year 2004 President's Budget.
    Question. How many new Customs inspectors have been added (net) 
since September 11, 2001? How much increased border and port coverage 
have they provided?
    Answer. From September 11, 2001, to May 3, 2003, the number of 
Inspectors and Canine Enforcement Officers on-board and stationed at 
ports of entry increased by 1,380 (+1,310 Inspectors and +70 Canine 
Enforcement Officers), increasing the overall port coverage by 16.9 
percent.
    Question. We have heard reports that many of the new hires are 
being assigned to work in place of senior inspectors, rather than to 
augment and increase border coverage across the country. Is this 
correct? If so, why are you deploying relatively inexperienced 
personnel at critical locations across the country?
    Answer. New hires are not being assigned to work in place of senior 
inspectors. New resources are being placed strategically to increase 
border coverage, meet workload demands and increase the utilization of 
technology. New hires work side-by-side with the more seasoned 
inspectors and receive formal, intensive training on all aspects of the 
position prior to being allowed to work independently. Additionally, 
management oversight is provided for each and every inspector.

                           STAFFING INCREASES

    Question. The USA PATRIOT Act authorized a tripling of legacy 
Customs and Immigration staffing at our Nation's borders. Since passage 
of the Act, how many new personnel have been brought on board and how 
close have these hires come in meeting the authorization goal?
    Answer. As of May 1, 2003, the Bureau of Customs and Border 
Protection had 2,563 Inspectors and Canine Enforcement Officers (CEOs) 
stationed at Northern Border Ports of Entry (POEs). This is an increase 
of 58.7 percent since September 11, 2001, at which time the agencies 
had 1,615 Inspectors and CEOs stationed at Northern Border Ports of 
Entry.

              IT TRANSFORMATION TO HOMELAND SECURITY FUND

    Question. I note that $30.21 million is proposed in the fiscal year 
2004 budget request for a fund for Information Technology 
Transformation for the new Department. Is this in is essence a working 
capital fund? Are all DHS agencies contributing to it? If so, in what 
proportion? How was that level of contributed funding determined? What 
was the methodology used?
    Answer. The Information Technology Transformation to Homeland 
Security Fund is not a working capital fund. These appropriated funds 
will be used to extend the BCBP enterprise architecture to provide 
expanded access to Information Technology (IT) capabilities in support 
of the Homeland Security mission and to address IT compatibility and 
interoperability issues that arise during the transition including, but 
not limited to, mission systems, electronic mail, networks, 
collaborative tools, and administrative capabilities. It is imperative 
that IT operability remains stable in order to efficiently meet Customs 
and Border Protection (BCBP) mission requirements.

                             NEW TECHNOLOGY

    Question. Compromise is not an option when providing for the 
security of our Nation's ports and borders. With the advent of a new 
era where we must be on guard for car and truck bombs, weapons 
smuggling, and radiological and biological threats, it is imperative 
that we set a high standard of threat assessment, detection, and 
prevention. Following the terrorist attacks of September 11, has BCBP 
increased the threat detection standards for security at our ports and 
borders, and if so, what new technologies are you using and how have 
they improved security?
    Answer. The priority mission of the Bureau of Customs and Border 
Protection (BCBP) is to detect and prevent terrorists and terrorist 
weapons from entering the United States at and between ports of entry 
while simultaneously facilitating legitimate trade and travel.
    In order to carry out its priority mission, BCBP has developed and 
is implementing Smart Border initiatives with other nations and with 
the private sector, such as the Container Security Initiative (CSI), 
the Customs-Trade Partnership Against Terrorism (C-TPAT), NEXUS, and 
the Free and Secure Trade (FAST) Program that will continue to push our 
zone of security outwards.
    Our layered inspection process and the components of a Smart Border 
include:
  --Advance electronic information;
  --Automated targeting tools;
  --Identifying and facilitating low-risk travelers and shipments;
  --Non-intrusive inspection technology;
  --Industry partnerships;
  --Training; and
  --Pushing security beyond our borders.
    BCBP uses various large-scale, portable and hand-held technologies 
in different combinations to substantially increase the likelihood that 
a nuclear or radiological weapon or weapons grade material will be 
detected. We have identified and are deploying nuclear and radiological 
detection equipment to include personal radiation detectors, portal 
radiation monitors and radiation isotope identifier devices.
    In combination with our layered enforcement process, these tools 
currently provide BCBP with significant capacity to detect nuclear or 
radiological materials.

                   LEGACY CUSTOMS AIR-MARINE PROGRAM

    Question. I understand that while the legacy Customs Air-Marine 
program has been transferred to the Bureau of Immigration and Customs 
Enforcement, your Bureau retains certain responsibility for parts of 
the program. Please explain how this has been divided.
    Answer. The Air and Marine Interdiction budget was deliberately 
placed in BICE. Some of the reasons for this decision are:
    Air and Marine staff and capital assets are deployed primarily for 
interdiction. The principal goals of interdiction are to enhance the 
BICE investigative process to prevent terrorist activity and to further 
investigations of major smuggling operations whether they be drug, 
alien, or terrorist in nature.
    As a key part of the BICE integration of the immigration and 
customs enforcement mission with other Federal agencies, OAMI will 
support investigative processes at Coast Guard, Secret Service, 
Emergency Management, TSA, and FPS. OAMI will support investigative 
processes at non-DHS agencies from DEA to FBI.
    The use of OAMI mission and assets must be closely connected to the 
BICE intelligence mission and operations to be effective. It is this 
connection that ensures that the limited air and marine assets are 
effectively deployed to specific targets over a vast sea or border 
resulting in maximum deterrence capability. BICE intelligence based 
operations must be the lynchpin of OAMI strategy.
    Operationally, OAMI is more identified with investigations than 
inspections or surveillance activity. OAMI has historically reported 
through the investigations division of Customs. In fiscal year 2002, 
approximately 60 percent of OAMI flight hours supported customs 
enforcement. With the integration of customs and immigration 
enforcement, we estimate that more than 80 percent of OAMI operational 
flight hours will directly support BICE investigations, foreign 
operations, border and maritime patrols. The remaining 20 percent will 
support transportation of people and assets, as well as training and 
maintenance, and other customers for support flights.
    Based upon the above factors, placement of OAMI within BICE 
accomplishes the objectives of intelligence-based operations; more 
effective support of DHS and inter-agency law enforcement missions; and 
furtherance of investigations of terrorists and other crime syndicates. 
Air and Marine support of border protection functions will continue 
under this placement and will be formalized in an upcoming management 
directive. The proper placement of all our programs remains subject to 
periodic review.

                         BORDER PATROL AIRWING

    Question. Your Bureau now includes all Border Patrol air assets. 
Please provide the Subcommittee with a breakout of the Border Patrol 
air assets and where they are located. Are any funds requested in the 
fiscal year 2004 budget for new aircraft? If not, what is the base 
level of funding in the budget for operation and maintenance of the 
existing assets?
    Answer. The BCBP/Border Patrol air wing has 111 aircraft (78 
Helicopters and 33 Fixed-wing) dedicated to patrolling the northern and 
southern border. Border Patrol aircraft are stationed at all Border 
Patrol sectors on the northern border, southern border, and Puerto 
Rico. There are no funds requested in the fiscal year 2004 budget for 
new aircraft. The base level of funding in fiscal year 2003 for 
operation and maintenance of aircraft is $21,491,000.

           ADJUSTMENTS TO THE FISCAL YEAR 2004 BUDGET REQUEST

    Question. The fiscal year 2004 BCBP budget request includes 
reductions totaling over $301 million for ``Non-recurring costs for 
fiscal year 2003 Initiatives'' and ``Adjustments for discontinuing Low-
Value Efforts''. Please break out in detail the specific, one-time 
fiscal year 2003 costs for non-recurring initial equipment costs and 
other items that you are reducing to achieve these savings.
    Answer. The following chart details the one-time fiscal year 2003 
non-recurring initial equipment costs and discontinued low-value 
efforts that achieve savings:

------------------------------------------------------------------------
                   NON-RECURRING COSTS                        AMOUNT
------------------------------------------------------------------------
Construction............................................    $145,000,000
Border Patrol Transfer Costs............................      25,000,000
Northern Border Hardening Equipment.....................      28,798,000
Northern Border NEXUS Equipment.........................       4,760,000
Northern Border NII Technology..........................      12,759,000
mmigration Fees.........................................       9,107,000
Maritime Port Security NII Technology...................      25,481,000
Security Infrastructure Technology......................      11,454,000
Helicopters.............................................       8,000,000
                                                         ---------------
      TOTAL NON-RECURRING COSTS.........................     270,359,000
------------------------------------------------------------------------

    During the fiscal year 2004 budget formulation process, the Bureau 
of Customs and Border Protection identified $31,540,000 in savings. 
These savings were realized by activities such as reforming and 
simplifying the Drawback process, redirecting field analyst specialist 
positions to border security, and realigning resources that support the 
Trade community. In addition, other program areas where savings were 
realized include the Intern Program, Labor and Employee Relations, 
Mandatory Fitness Program, Customs Health Enhancement Program, 
redistribution and cross servicing of field work, and the processing of 
anti-dumping/countervailing and harbor maintenance fee refunds.

               PRIVATE MAIL RADIATION DETECTION EQUIPMENT

    Question. The Department has provided its employees who inspect 
U.S. Postal Service mail with radiation detection equipment. Does it 
also provide similar equipment for employees who inspect United Parcel 
Service and FedEx mail? If not, why not? Is there a plan to provide 
this equipment in the future?
    Answer. The Bureau of Customs and Border Protection (BCBP) 
personnel are equipped with radiation detection devices at FedEx and 
United Parcel Service (UPS) facilities. At the present time BCBP 
personnel use both Personal Radiation Detectors (PRD) and Radiation 
Isotope Identification Devices to screen cargo at both FedEx and UPS 
facilities.
    Both UPS and FedEx are in the process of procuring and installing 
company owned radiation detection devices at overseas locations. Once 
completely installed this equipment will allow these companies to 
screen all incoming cargo and parcels before entering the commerce of 
the United States. Both companies will be relying on several types of 
equipment, such as Hand-Held Devices and Radiation Portal Monitors, at 
their overseas facilities. The types of radiation screening devices 
used will depend on the size of the facility and amount of cargo 
screened.

                     ALTERNATIVE SHOULDER HOLSTERS

    Question. Recently, the Bureau of Customs and Border Protection 
informed the employee representatives of Customs personnel (the 
National Treasury Employees Union) that the Department would no longer 
allow employees to use ``alternative firearms holsters'' as long as 
they are properly trained in the use of the holster. By and large, 
``alternative firearms holsters'' have been used by women in the late 
stages of pregnancy. The shoulder holster enables them to continue to 
carry a firearm in the performance of their work. It seems that this 12 
year old alternative holster provision has provided a reasonable 
accommodation between the needs of the legacy Customs Service and the 
interests of women who desire to continue working while pregnant. Why 
has Department decided to not continue the use of the alternative 
shoulder holster for pregnant legacy Customs personnel?
    Answer. A single request was made through the Office of Field 
Operations (OFO) for an alternate firearms holster accommodation on May 
24, 2002. This request was forwarded to the Firearms and Tactical 
Training Division (FTTD). The FTTD conducted an evaluation of the 
Safariland model 1060 shoulder holster that was named in the request to 
determine its suitability for use by pregnant OFO uniformed personnel. 
The primary evaluation criteria used to determine suitability was 
safety and feasibility.
    There were numerous safety and training issues related to the 
shoulder holster. The shoulder holster is designed for the concealed 
carrying of firearms, and does not possess retention characteristics 
needed for officer safety for exposed carry. The weapon's grip is 
presented toward the front making it readily accessible to a subject 
during a physical confrontation, and the retention devices on this 
holster are easy to defeat. Also, the shoulder holster would not be 
feasible for wear with the authorized maternity uniforms such as class 
seven (7) maternity shirts and trousers, and the class seven (7) 
maternity jumper. This is because the suspender type clips could not be 
fastened to the belt or pants as the belt or pants would be under the 
maternity shirt.
    The FTTD concluded that given the inherent risks and difficulties 
associated with the use of this type of holster, they did not recommend 
the use of it for OFO officers in uniform with close interaction with 
the public.

                           TRANSFER OF FUNDS

    Question. Has BCBP been required to transfer any funds to the 
Department? If so, how much and for what purposes? Are any future 
transfers to the Department anticipated?
    Answer. Yes, BCBP has transferred funds to the Department. BCBP 
transferred $30 million to DHS for start-up costs. We anticipate two 
future transfers to DHS as follows: $900,000 for Departmental 
enterprise architecture and $21 million to assist with the 
Transportation Security Administration shortfall.

                            PERSONNEL ISSUES

    Question. The Department of Homeland Security has created a 
separation between Customs Agents and Inspectors who work at various 
ports of entry. Is there a plan in place for continuing the 
relationship between Inspectors and Agents? Will Agents continue to 
respond directly to airport seizures and arrests? Will the new 
reporting requirements hinder investigative and enforcement activity?
    Answer. Although the Department of Homeland Security created a 
separation between Agent and Inspector, the working relationship 
remains strong between BCBP and BICE and enforcement actions are being 
coordinated. Additionally, BCBP inherited the Senior Inspector Program. 
The Senior Inspector position was created for high-risk ports of entry 
to be responsible for the enforcement of the Immigration and 
Nationality Act and other criminal statutes by identifying, 
investigating, apprehending, and prosecuting persons who attempt and 
abet illegal entry into the United States. BCBP plans to maintain the 
Senior Inspector program to assist in meeting the challenges of 
coordinating the enforcement functions of three formerly distinct 
agencies, but BCBP will continue to refer customs-related 
investigations and arrests to ensure no disruption of enforcement and 
investigative activity.
    Question. I understand that the legacy Customs Special Agents who 
formerly conducted criminal investigations in the Internal Affairs (IA) 
Division, have also been transferred to ICE. Who will now conduct those 
investigations? Will this merger inhibit the response to internal 
affairs investigative matters? Are you concerned about the loss of this 
investigative expertise which has been used to ``clean up'' past 
corruption problems within the former Customs Service?
    Answer. The Inspector General of the Department of Homeland 
Security will be responsible for coordinating all investigations. 
Integrity has always been a cornerstone of the legacy BCBP 
organizations and will continue to be one in the future.

                    ENTRY-EXIT VISA TRACKING SYSTEM

    Question. The vast majority of the $480 million in funds for the 
``entry-exit'' system are proposed as part of the CBP budget request. 
It is my understanding, however, that you are not the bureau in charge 
of designing and implementing the system. Why? Which Bureau is supposed 
to be in charge of designing and implementing the program?
    Answer. The Undersecretary of the Border and Transportation 
Security has determined that the design and implementation of the 
``entry-exit'' system will be managed at his level.

                            SECURITY DETAIL

    Question. Given your past positions in government, as well as your 
heading up the agency most closely involved in tracking and stopping 
narco-terrorists, do you have a security detail? If not, why not? Has a 
threat assessment been done to determine whether you or other agency 
heads at your level require security details?
    Answer. The Commissioner does not now have a security detail. 
Regular risk assessments are conducted to determine if a security 
detail is required.

                             NATIONAL GUARD

    Question. The National Guard has played a critical role in 
assisting the former Customs Service in inspection activities at our 
borders--including inspecting shipping containers and operating VACIS 
equipment. This role has continued with the transformation to the new 
Department, however, I am concerned about reports that the Guard may 
soon cease its operations in this regard. What is the status of 
National Guard cooperation with your Bureau? Will they continue to 
assist the Bureau with inspection activities and, if so, for how long? 
Has the Defense Department attempted to curtail the Guard's role with 
the Bureau?
    Answer. In September 2002, the Department of Defense (DOD) 
officially informed the U.S. Customs Service, now Bureau of Customs and 
Border Protection (BCBP), that they would discontinue funding National 
Guard counternarcotics support of BCBP's Cargo and Mail Inspection 
operations (the only BCBP operations supported by National Guard 
soldiers) effective September 30, 2003. DOD subsequently changed this 
date to September 30, 2004. The reason for discontinuing the National 
Guard support, as stated by DOD officials, is that they wish to phase 
out all National Guard counternarcotics support that does not require 
unique military skills.
    As a result of the September 2002 notification, aggressive hiring 
strategies that will offset any negative impact of losing the support 
of the National Guard were implemented. Through regular appropriations, 
supplemental funding and an overall increase in our Inspector corps as 
a result of the March 1, 2003 transition to BCBP, our agency is 
prepared to do without National Guard support beginning October 1, 
2004.

                           PERSONNEL BREAKOUT

    Question. In your testimony at the hearing you stated that the 
Bureau was requesting funds for 41,000 FTE for fiscal year 2004. You 
also said that on March 1 approximately 6,000 legacy INS, 3,000 legacy 
APHIS and 11,000 Border Patrol personnel were incorporated into the new 
BCBP. Please provide the subcommittee with a breakdown for fiscal year 
2002-2004 of the approximate 41,000 FTE requested by function--both in 
a comparable breakdown from the legacy agencies as well as by current 
function (i.e. inspection activity, Border Patrol, etc.)
    Answer. The fiscal year 2004 President's Budget requests funding 
for the Department consistent with the enacted Homeland Security Act.

                       BUREAU OF CUSTOMS AND BORDER PROTECTION INSPECTIONAL PERSONNEL FTE
----------------------------------------------------------------------------------------------------------------
                                                                                                   Inspectional
                                                                   Inspectional    Inspectional    FTE funded in
                                                                  FTE Authorized   FTE Expected     the fiscal
                                                                  in fiscal year     on Board        year 2004
                                                                       2003        September 30,   Appropriation
                                                                                       2003           Request
----------------------------------------------------------------------------------------------------------------
Direct Appropriation............................................          19,780          20,070          20,298
Reimbursable....................................................           1,664           1,664           1,664
                                                                 -----------------------------------------------
      TOTAL.....................................................          21,444          21,734          21,962
----------------------------------------------------------------------------------------------------------------


                    BUREAU OF CUSTOMS AND BORDER PROTECTION IMPORT AND ENTRY/LIQUIDATION FTE
----------------------------------------------------------------------------------------------------------------
                                                                                                    Import and
                                                                    Import and      Import and        Entry/
                                                                      Entry/          Entry/        Liquidation
                                                                    Liquidation     Liquidation    FTE funded in
                                                                  FTE Authorized   FTE Expected     the fiscal
                                                                  in fiscal year     on Board        year 2004
                                                                       2003        September 30,   Appropriation
                                                                                       2003           Request
----------------------------------------------------------------------------------------------------------------
Direct Appropriation............................................           1,570           1,570           1,584
Reimbursable....................................................              39              39              39
                                                                 -----------------------------------------------
      TOTAL.....................................................           1,609           1,609           1,609
----------------------------------------------------------------------------------------------------------------


                        BUREAU OF CUSTOMS AND BORDER PROTECTION INTELLIGENCE ANALYSTS FTE
----------------------------------------------------------------------------------------------------------------
                                                                                                   Intelligence
                                                                   Intelligence    Intelligence     Analyst FTE
                                                                    Analyst FTE     Analyst FTE    funded in the
                                                                   Authorized in    Expected on     fiscal year
                                                                    fiscal year        Board           2004
                                                                       2003        September 30,   Appropriation
                                                                                       2003           Request
----------------------------------------------------------------------------------------------------------------
Direct Appropriation............................................              51              51              66
Reimbursable....................................................               7               7               7
                                                                 -----------------------------------------------
      TOTAL.....................................................              58              58              73
----------------------------------------------------------------------------------------------------------------


                         BUREAU OF CUSTOMS AND BORDER PROTECTION COMPUTER SPECIALIST FTE
----------------------------------------------------------------------------------------------------------------
                                                                                                     Computer
                                                                     Computer        Computer     Specialist FTE
                                                                  Specialist FTE  Specialist FTE   funded in the
                                                                   Authorized in    Expected on     fiscal year
                                                                    fiscal year        Board           2004
                                                                       2003        September 30,   Appropriation
                                                                                       2003           Request
----------------------------------------------------------------------------------------------------------------
Direct Appropriation............................................             298             298             298
Reimbursable....................................................               6               6               6
                                                                 -----------------------------------------------
      TOTAL.....................................................             304             304             304
----------------------------------------------------------------------------------------------------------------


               BUREAU OF CUSTOMS AND BORDER PROTECTION ADMINISTRATIVE AND OPERATIONAL SUPPORT FTE
----------------------------------------------------------------------------------------------------------------
                                                                                                  Administrative
                                                                  Administrative  Administrative        and
                                                                        and             and         Operational
                                                                    Operational     Operational     Support FTE
                                                                    Support FTE     Support FTE    funded in the
                                                                   Authorized in    Expected on     fiscal year
                                                                    fiscal year        Board           2004
                                                                       2003        September 30,   Appropriation
                                                                                       2003           Request
----------------------------------------------------------------------------------------------------------------
Direct Appropriation............................................           5,225           5,225           5,225
Customs Reimbursable............................................             116             116             116
                                                                 -----------------------------------------------
      TOTAL.....................................................           5,341           5,341           5,440
----------------------------------------------------------------------------------------------------------------

                        INS CONSTRUCTION BACKLOG

    Question. In your April 30 letter to me regarding the deployment of 
570 additional Border Patrol agents at our nation's borders, you stated 
that the fiscal year 2004 budget request pending before the Congress 
does not request ``new enhancement construction funds''. You further 
state that, ``Additional requirements related to construction projects 
for the Border Patrol will be addressed in future budget cycles''.
    On May 14, 2002, the President signed the Enhanced Border Security 
Act of 2002, authorizing significant improvements in our efforts to 
secure our borders. However, a congressionally mandated June 2000 study 
of our land border ports included a list of 822 projects totaling $784 
million. These projects ranged from overloaded electrical outlets at 
facilities built in the 1930s which are not equipped to accommodate 
21st century computers to a border station in Maine that is literally a 
trailer.
    Commissioner Bonner, the lack of funding for construction projects 
along the border deeply troubles me. Significant expansion of our 
border facilities is anticipated to meet the requirements and deadlines 
specified in the former ``entry-exit'' program. How can we meet these 
deadlines if the Administration does not request the funds to do so? 
Without these funds, how can you be successful? The bulk of the funding 
of this system resides within your Bureau. Do I have your assurance 
that the Department will meet the December 2003 deadline?
    Answer. Secretary Ridge recently outlined the Department's plan to 
create a new entry-exit system backed by 21st century technology called 
the U.S. Visitor and Immigrant Status Indication Technology system 
(U.S. VISIT). U.S. VISIT is a critical new border security and 
enforcement tool that will capture point of entry and exit information 
on visitors. U.S. VISIT is designed to make entering the United States 
easier for legitimate tourists, students and business travelers, while 
making it more difficult to enter the U.S. illegally through the 
implementation of biometrically authenticated documents. Development 
and deployment of this system will be coordinated by the Undersecretary 
for Border and Transportation Security. The system will be in its first 
phase of operation at international air and sea ports of entry by the 
end of 2003.
                                 ______
                                 

            Questions Submitted by Senator Patrick J. Leahy

    Question. Many former Customs and INS employees in Vermont and 
throughout the nation remain in a state of limbo, awaiting information 
about how their old agencies will be restructured and what it means for 
them. I think that they would appreciate hearing your perspective as to 
how the combination of your old agency with the INS and numerous other 
agencies is progressing. First, how would you describe the progress 
that has been made in creating the Bureau of Immigration and Customs 
Enforcement? What has been the most difficult aspect? How will the 
command structure differ from the framework that Customs used?
    Answer. The command structure of the Bureau of Immigration and 
Customs Enforcement is being determined by Michael Garcia, Assistant 
Secretary of the Bureau of Immigration and Customs Enforcement, in 
conjunction with the Undersecretary of Border and Transportation 
Security and Secretary Ridge.
    Question. Second, can you give the Committee your impressions about 
the process of integrating the old INS, Customs, and other agencies 
into the Bureau of Customs and Border Protection? What has been the 
most difficult aspect there?
    Answer. BCBP is in the process of conducting both a merger and a 
divestiture of agencies and functions. This process is going well, 
employee morale is high, efficiency has increased and we have 
established a single chain of command to the port of entry level. As in 
any endeavor of this magnitude, the most difficult challenge is 
answering our employees questions and providing them with information 
at the appropriate time.
    Question. Third, in either bureau, where the old agencies bring 
overlapping personnel, such as administrative support staff, how is 
that being handled? Where INS and Customs personnel were performing the 
same task before March 1, what criteria do you think should be used to 
determine who should perform that task now?
    Answer. BCBP and BICE are working together to determine where 
common services can be shared in the future. We believe that there are 
opportunities to accomplish this.
                                 ______
                                 

   Questions Submitted to the Transportation Security Administration

              Questions Submitted by Senator Thad Cochran

                           PERSONNEL CUTBACKS

    Question. On April 30, TSA announced the reduction of 6,000 airport 
screeners--3,000 by May 2003 and another 3,000 by the end of fiscal 
year 2003--as the Transportation Security Administration works to 
realign the screener workforce and to bring its budget into line. How 
will the reduction of screeners affect security? Does TSA have, or will 
it conduct, any assessment of current screening needs to verify that 
these reduced levels are appropriate?
    Answer. There will be no effect on security. TSA is working to 
optimize both its scheduling, utilizing a mix of full and part-time 
employees. TSA used several staffing models to meet the requirements of 
standing up the organization by late 2002. In early 2003, under the 
mandate of Congress, TSA developed an expedited Phase 1 Reduction 
Methodology which enabled us to start the reduction process as fast as 
possible. A second phase modeling methodology, which takes into account 
essentially all of the variables, is in process and scheduled for 
completion in early June. This second phase modeling effort assesses 
current needs to verify the reduction plans.
    Question. What analysis was initially conducted on what the needs 
would be for aviation security prior to the hiring of the screeners, 
and what did this analysis show, including the number of full-time and 
part-time screener positions that would be required?
    Answer. The initial analysis of screener requirements was based on 
TSA's assessment of the work requirements at each passenger-screening 
checkpoint. As the recruiting, hiring, and deployment process unfolded, 
TSA made adjustments to the number of screeners required to provide the 
necessary level of security at each airport. Although the initial 
workforce requirements analysis was based on a desire to create a 
workforce consisting of both full-time and part-time employees, 
initially TSA encountered a very low interest in part-time 
applications. As a result, TSA hired a preponderance of full-time 
employees to meet the level of security required at each airport, as 
well as to meet the ATSA-mandated screener deployment dates for the 
fully federalized screener workforce. TSA believes that making 
effective use of part-time screening personnel is in the best interest 
of both security and the taxpayer. Most airports have a peak time, or 
several peak times, during which a screening presence is needed beyond 
the normal throughput. The ability to use part-time or split-shift 
personnel during these focused periods is a policy with significant 
possibilities. With the implementation of improved scheduling tools, 
TSA expects to be able to optimize the workforce with the appropriate 
mix of full-time, part-time and split-shift personnel to better match 
travel patterns.
    Question. What other components are being considered to meet the 
budget requirements?
    Answer. All programs within TSA continue to undergo constant 
scrutiny and monitoring in order to align scarce resources to the 
highest priorities and realign anticipated availability to other 
underfunded requirements.
    Question. What will be the amount of the projected savings in 
fiscal year 2003 from the reduction of screeners?
    Answer. TSA's anticipated fiscal year 2003 savings is $32 million 
as a result of the reduction in screeners.
    Question. Concerns have been raised that in the rush to meet the 
statutory deadline of November 19, 2002, for the deployment of Federal 
screeners at all of the Nation's airports that all of the screeners 
hired did not receive a full background check, including a criminal 
history record check. Can you say for certain that all of the screeners 
working in the Nation's airports have received a full background check?
    Answer. More than 98 percent of TSA's current screener workforce 
has received, at a minimum, a fingerprint-based FBI criminal history 
records check. In addition, more than 98 percent of the current 
workforce has undergone the first phase of the ChoicePoint check, which 
includes a search of public records for an applicant's criminal 
history, credit history, and potential links to terrorist activity. 
This check exceeds what is required for nearly every Federal employee 
to begin working.
    Question. Can you describe to the Committee the process of deciding 
which airports would lose screeners, which airports would receive 
additional screeners, and which airports would not be affected?
    Answer. The methodology used in the first round of modeling 
consisted of applying a standard screening model applied to the number 
of screening points within a given airport. The model considered the 
number of screening lanes, and the presence of selectee checkpoint 
screening. Based on the model results, each airport requirement was 
compared with the screener population and the gain or loss was 
determined.
    As the process moves forward, TSA is inviting Federal Security 
Directors, community and airport leaders, and others to provide 
feedback in the form of airport specific information or other factors 
that are expected to drive TSA's upcoming refinement process. TSA will 
evaluate all the newly obtained information and will refine the 
preliminary numbers using this information and originating passenger 
data to arrive at a more accurate reflection of the staffing needs at 
all airports. We will keep you apprised of the results of our on-going 
process to provide efficient, effective screening.
    Question. How can an airport negotiate with TSA if it is believed 
that too many screeners have been cut and will affect the airport's 
ability to provide an adequate amount of security? Is there an appeals 
process that an airport can submit to?
    Answer. The airports and Federal Security Directors have been 
encouraged to highlight unique characteristics of their airports to the 
staffing team within TSA. This team consists of industrial engineers 
and senior management within Aviation Operations. Each appeal is 
carefully considered and the data provided, validated, is used to 
accomplish the final modeling. Specific information on enplanements is 
a major consideration in this modeling.
    Question. A concern among some of the smaller airports is that the 
classification of airports that determines the number of passengers 
handled annually has not been accurately assessed and therefore is 
losing screeners because of it. Will TSA conduct assessments of 
airports to determine that they are categorized correctly?
    Answer. TSA has just completed a preliminary re-categorization of 
all federalized airports. This effort has resulted in several proposed 
category changes that will affect the final screener allocation.
    Question. If an airport can accurately document that it has not 
been categorized correctly how steps can be taken to appeal?
    Answer. TSA welcomes any information that affects the 
categorization of a specific airport. The passenger origination and 
enplanements information is particularly important and is compared with 
DOT statistics to determine the validity of the claim.

                      TSA: INCREASED THREAT LEVEL

    Question. When the National Threat Level is raised, as it was 
before the beginning of Operation Iraqi Freedom from ``Yellow'' to 
``Orange'', new security directives are issued to airlines and 
airports, such as random vehicle inspections, more stringent 
identification checks, and increased canine patrols to lessen the 
chance of any terrorist incidents. There have been concerns that enough 
guidance has not been given to airport managers to implement increased 
security when the terrorist threat level is raised. How does the 
Transportation Security Administration share threat information, not 
only with airports but also with port security managers, when an 
increase in security is necessary?
    Answer. The Transportation Security Intelligence Service has the 
ability to tailor dissemination based on the nature of the threat. Such 
information can be disseminated to a small, focused group of recipients 
if the threat is specific to a particular transportation asset or 
facility, or it can be provided to a wider audience if the threat could 
impact multiple transportation modes or modal interests.
    Information can be disseminated in the following manner:
  --Information Circulars (IC) inform the various modes (aviation, 
        surface a/or maritime) of threat information and provide an 
        analytical perspective regarding the credibility, timing, 
        location and other available information.
  --Security Directives (SD) issued by TSA operations policy, direct 
        air carriers and airports to take specific action designed to 
        counter a known threat. Such threat information is provided by 
        TSA Intelligence. TSA is currently reviewing the efficacy of 
        issuing SDs for other modes at appropriate times.
  --Intelligence Notes
  --Response to Request for Information (RFI)
  --Telephone briefings may be conducted in situations where time is of 
        the essence or where the threat is very narrowly focused to a 
        particular carrier or geographic location.
  --E-mail Fax notification messages
  --Automated Message Handling System (AMHS)
  --Recipients include, among others, DHS Homeland Security Center, DHS 
        Information Analysis and Infrastructure Protection, TSA Federal 
        Security Directors, TSA Area Representatives at overseas 
        locations, Federal Air Marshals Service, FAA, DOT, U.S. Coast 
        Guard, as well as stakeholders and other elements of the 
        aviation and maritime communities.
    Question. Is there a certain procedural checklist to follow in 
order to make sure all possible security precautions have been 
implemented?
    Answer. Each airport has a detailed security plan and its own 
checklist in accordance with its security plan. Specifically how a 
particular airport does this is dependent upon local conditions. The 
directives from TSA are in the context of these plans and current 
operations and are straightforward and easy to understand. TSA relies 
on Federal Security Directors (FSDs) to coordinate with airport 
authorities and to verify and report on airports' compliance with TSA 
directives.
    Question. Will the Transportation Security Administration reimburse 
airports and others for meeting additional requirements such as 
conducting random vehicle searches?
    Answer. TSA views airport security as a partnership between all 
stakeholders at the airport, including the airport authorities. TSA 
also believes that a true partnership implies shared responsibility for 
expenses. TSA continues to work closely with its aviation stakeholders 
in determining which specific types of safeguards are feasible and 
appropriate at each threat level. However, TSA is not planning on using 
its resources to reimburse airports for these costs.
    Question. Have you developed plans for what happens at airports if 
the threat level is elevated to ``Red?'' Will this result in the 
grounding of airliners?
    Answer. Yes. The specific actions to be taken in any increase or 
decrease of threat level are considered Sensitive Security Information 
(SSI) at the minimum. A specific threat may elevate that information to 
the Secret level. Without speaking to all actions that may be taken 
under increased security, there are many steps that can be taken prior 
to stopping air commerce. Each step will be threat based and risk 
managed to determine a level of security appropriate to the threat 
environment.

              ROLE WITHIN DEPARTMENT OF HOMELAND SECURITY

    Question. The Homeland Security Act of 2002 requires the 
Transportation Security Administration be maintained as a distinct 
entity within the Department of Homeland Security for 2 years from the 
date of enactment. How do you envision the Transportation Security 
Administration's role within the Department of Homeland Security after 
this 2-year period?
    Answer. TSA's mission is a vital component of the Border and 
Transportation Security Directorate's responsibilities. To achieve its 
mission, TSA is developing a National Transportation System Security 
Plan (NTSSP) that will explain TSA's vision to complete the important 
task of ensuring the security of all modes of transportation. The NTSSP 
will also lay out how TSA, other DHS components, other Federal 
agencies, state and local authorities, and the private sector will work 
together to ensure system-wide security. The creation and 
implementation of the Plan will involve extensive interaction and 
cooperation with other involved agencies and the private sector.
    TSA's involvement in providing mode-specific security will vary 
across modes based upon assessed needs and determination of TSA's 
responsibilities relative to other DHS organizations. Currently, TSA 
plays a very active operational role in the aviation mode, while we are 
still establishing our capabilities and activities in other modes such 
as highway and mass transit.
    Within DHS, the cooperation and interaction that already exists 
between TSA and the Bureau of Customs and Border Protection (BCBP), the 
Bureau of Immigrations and Customs Enforcement (BICE), the U.S Coast 
Guard and the Information Analysis and Infrastructure Protection 
Directorate (IAIP) will only grow over the next 2 years.
  --We expect to perform or facilitate a vast number of vulnerability 
        assessments in the Transportation Sector under the overall 
        oversight of and coordination with IAIP.
  --We expect to greatly increase our use of information and 
        intelligence that will be provided by IAIP.
  --We will enhance the tactical cooperation with BCBP that exists now 
        at major airports of entry, including joint screening and joint 
        training programs--e.g., TSA screeners recognizing drug and 
        money contraband.
  --We will continue and increase coordination with BCBP on major 
        developing issues such as cargo security and collecting 
        passenger name lists, to promote effective security and 
        efficient commerce.
  --We will work with BICE where possible to further the investigation 
        and enforcement of transportation security concerns and 
        violations.
    Also within DHS, the transportation-focused specialists at the 
Transportation Security Labs (TSL) will share information and resources 
with the Science and Technology Directorate. This will leverage the 
efforts of both organizations, while maintaining the benefits of TSL's 
specialization and transportation security focus.
    Question. Do you feel that TSA would function best as a separate 
entity within the Border and Transportation Security Directorate or do 
you believe it should be merged into one of the other functions of this 
Directorate?
    Answer. The Transportation Security Administration serves a 
distinct need, particularly with respect to aviation. The 
characteristics and security needs of the transportation system are 
often unique from the characteristics and security needs of border 
protection, and from those of immigration and customs enforcement. For 
these reasons, we believe the Nation is best served by protecting the 
transportation system with a dedicated and distinct entity that 
provides the necessary expertise and focus to address the unique 
characteristics and security needs of the transportation system.
    Having said this, we fully agree that the security of the 
transportation system intersects significantly with the security of our 
borders, Ports of Entry, cargo and passengers and the security needs of 
Customs and Immigration. It is very appropriate that the TSA work 
closely and coordinate with the BCBP and the Bureau of Immigration and 
Customs Enforcement (BICE), with oversight and guidance from the Under 
Secretary for BTS, as well as in coordination with other DHS 
directorates and agencies. As DHS evolves, the Secretary must continue 
to assess how to best manage our critical mission, including the 
organization of its functions.

                        TSA: GUNS IN THE COCKPIT

    Question. The Homeland Security Act of 2002 authorized the use of 
firearms by pilots in order to defend the flight decks of aircraft 
against criminal violence. The Transportation Security Administration 
has now begun to train pilots on a volunteer basis and recently 44 
pilots have completed training and have been sworn in as Federal flight 
deck officers. The fiscal year 2004 budget requests an increase of over 
$17 million for the training of arming pilots with firearms. What is 
the cost of training each pilot and is such a large increase feasible 
and achievable?
    Answer. The initial cost of training for a Federal Flight Deck 
Officer (FFDO) is approximately $2,000. In addition, the assessment of 
an individual's eligibility to be a FFDO costs approximately $3,000. To 
equip (firearm, holster, lockbox) a trained FFDO costs approximately 
$1,100. Therefore, the total cost to train and deploy an FFDO is 
approximately $6,200. Finally, semi-annual re-qualification is expected 
to cost about $700 per FFDO.
    Additional program costs include building and maintaining an on-
line application system and providing new FTEs to facilitate program 
oversight, operations support, and internal investigation.
    With the funding requested for fiscal year 2004, TSA expects to be 
able to assess, train, equip and deploy thousands more FFDOs (the 
actual number is considered sensitive security information).
    Question. From learned efficiencies will there be one agency that 
will administer all of the training or is it more feasible for several 
agencies to carry out the training?
    Answer. TSA intends to conduct all initial (or basic) FFDO training 
at the Federal Law Enforcement Training Center (FLETC) campuses in 
Glynco, GA and Artesia, NM. TSA is working in partnership with both 
locations to deliver this training. Use of these facilities ensures 
consistent and thorough training of new FFDOs.
    Question. Do the airlines incur any expense for the training of 
their pilots? If not, do you believe this should be a shared cost?
    Answer. APATA specifically states that air carriers should not bear 
the costs to train their pilots as FFDOs.
    Question. When will the Transportation Security Administration 
conduct the next training session and what criteria will be established 
to decide which pilots will receive the limited number of training 
positions if the interest is as large as expected?
    Answer. The next training class commences on July 21, 2003. 
Volunteers will be scheduled for training on a rolling basis as they 
complete the selection process. Applications will be viable for a 
period of 1 year; persons eligible but not scheduled for training in 
the remainder of the current fiscal year will be scheduled for training 
in fiscal year 2004. No additional applications will be solicited until 
the eligible volunteers from the current application period have been 
scheduled for training.

                       TSA: PORT SECURITY GRANTS

    Question. For fiscal years 2002 and 2003, Congress has appropriated 
a total of $388 million for port security grants by TSA for this 
important program to better secure our Nation's ports. Included in the 
recently passed Emergency Wartime Supplemental Appropriations Act for 
fiscal year 2003, an additional $20 million was provided for port 
security grants in addition to the $150 million made available just 
three months ago by the fiscal year 2003 Consolidated Appropriations 
Resolution. How soon will you be able to obligate these funds?
    Answer. TSA expects to announce a second round of Port Security 
grants in late May/early June 2003. TSA and the Department of Homeland 
Security are working with the Administration to finalize budget 
execution plans for the spending of fiscal year 2003 appropriated funds 
for port security grants.
    Question. How does the Coast Guard work with TSA to administer the 
grant-making process?
    Answer. The Coast Guard, as well as the Maritime Administration of 
the Department of Transportation, has worked collaboratively in all 
aspects of the Port Security grants process. This includes developing 
the Broad Agency Announcement; defining the eligibility requirement, 
evaluation criteria, and evaluation process; and participating in all 
levels of application review and award decision making.
    The Coast Guard, the Maritime Administration, and TSA jointly 
monitor the progress of all grants and collectively determine whether 
all grant requirements have been met.

                   EXPLOSIVE DETECTION SYSTEMS (EDS)

    Question. Of the baggage screened at 429 commercial airports, TSA 
estimates that 90 percent of the baggage is screened electronically by 
either Explosive Detection Systems (EDS) or Explosive Trace Detection 
(ETD) machines. The President's budget provides $100 million only for 
the maintenance of these screening devices and does not provide any 
monies for the purchase of additional machines. How much of the $180 
million in funding for fiscal year 2003 and carryover funds available 
from fiscal year 2002 for Explosive Detection Systems has been 
obligated in order for airports to comply with statutory deadlines 
mandated by Congress? If no funds have been obligated, when do you 
intend on obligating the remainder of the funds for the purchase of 
additional Explosive Detection Systems?
    Answer. A total of $179,300,000 from fiscal year 2002 and fiscal 
year 2003 (including FAA funding) will be obligated by the end of May 
2003 for EDS/ETD purchases.
    Question. Do you believe if Congress appropriated funds for fiscal 
year 2004 for the purchase of additional Explosive Detection Systems 
that airports that are in the most need of these machines would be able 
to accommodate them and would this accelerate the electronic screening 
of all passenger baggage?
    Answer. TSA is in the final stages of developing a deployment plan 
for those in-line installations that will be supported by the Federal 
Government through appropriations funding and the Letter of Intent 
(LOI) program. Throughout this process we have updated the actual 
numbers of machines that TSA will have to purchase and deploy to 
accommodate in-line installations.
    Question. Now that the deadline to screen all checked airline 
baggage has passed and 100 percent of the checked baggage is now being 
screened for explosives, whether it be electronically or manually, what 
further efforts do you plan to implement to enhance the process of 
making sure all baggage that is checked for air travel is completely 
safe of explosives?
    Answer. TSA's Transportation Security Lab (TSL) is aggressively 
working with manufacturers of new technologies that show promise of 
meeting the TSA's certification standards within a 2-3 year window for 
producing viable systems to enhance the screening process. TSL is also 
working with current manufacturers to enhance performance of currently 
deployed EDS equipment to improve detection capabilities, reduce false 
alarm rates and increase throughput capacity.
    Question. It is reported that while improving, false alarm rates 
for baggage screening machines still occur too frequently. Can you 
address what new technologies are being pursued to address this problem 
and give us further detail on the $30 million proposed for fiscal year 
2004 for the next generation explosive detection systems?
    Answer. TSA has planned a two phase R&D program to identify and 
develop next generation EDS technology.
  --First Phase.--TSA will direct approximately 85 percent of allocated 
        R&D efforts towards a program which addresses evolutionary 
        growth of present technology. The project will focus on:
    --Life cycle extension of existing systems to include software 
            enhancements that will lower the machine false alarm rates, 
            increase baggage throughput and improve detection 
            capabilities;
    --Combining technologies (such as a combination of X-ray with 
            quadrupole resonance or X-ray diffraction technology); and
    --Emerging technology and products that are within a 2-3 year 
            window for producing viable systems.
  --Second Phase.--TSA will direct approximately 15 percent of R&D 
        efforts to a project which is a longer-range project with 
        potentially greater payoff. This is a 5 to 10 year project that 
        will challenge industry to develop the next generation of EDS 
        technology.

                  AIRPORT SECURITY IMPROVEMENT PROJECT

    Question. TSA announced recently that Letters of Intent would be 
signed for about 20 airports to provide Federal assistance for 
permanent installation of explosive detection equipment. Which airports 
will receive this funding and when can we expect these monies to be 
obligated?
    Answer. TSA is currently working to develop a comprehensive plan 
for EDS in-line installations that will include an estimate of how many 
LOIs TSA intends to utilize. We will provide details on that plan when 
it is completed.
    Question. The fiscal year 2004 budget for TSA does not include 
additional monies for installation of explosive detection systems but 
in your prepared testimony you state that TSA expects to amend its 
budget request for costs associated with the Letter of Intent program. 
When can we expect a budget amendment from the Administration for 
additional funding?
    Answer. TSA is working with the Department of Homeland Security 
(DHS) and the Office of Management and Budget (OMB) to determine what 
adjustments are needed to the TSA fiscal year 2004 Budget Request. 
These discussions include consideration of funds for the Letter of 
Intent program. When an Administration proposal is completed, TSA will 
provide details to the Congress.
    Question. The Nation's largest airports that handle the greatest 
passenger volume are most in need of money for terminal modifications. 
However, if Congress provides additional funding for fiscal year 2004, 
there is concern that these same airports will receive funding and the 
smaller airports will be left out. Under Secretary Hutchinson testified 
that there is a procedure, or a priority system, to determine which 
airports will receive funding. Can you explain the order of how 
airports are chosen to receive funding for security improvement 
projects?
    Answer. TSA has developed, and is applying, a prioritization 
process that provides for an objective method for determining which 
airports will be the first to move forward in the Letter of Intent 
(LOI) process to fund installations of in-line explosive detection 
system (EDS) equipment. The prioritization and complete plan for 
installations will be completed in the near future.

      COMPUTER ASSISTED PASSENGER PRE-SCREENING SYSTEM (CAPPS II)

    Question. Under Secretary Hutchinson testified before the 
Subcommittee that firewalls would be established for the Computer 
Assisted Passenger Pre-screening System in order to prevent personal 
data from being collected by the government or retained by the 
government. What procedures are being put into place to prevent this 
firewall from being breached?
    Answer. The firewalls which are being incorporated into the CAPPS 
II system to protect privacy will themselves be protected through the 
use of the ``Radiant Trust'' system. This system will audit, in real 
time, the flow of all data into and out of the CAPPS II system and will 
also audit any access to or modification of the data in the system. The 
software used in the auditing component of the system is the same 
software trusted by intelligence agencies for the protection of highly 
classified information. In short, we believe that data processed by the 
CAPPS II system will be accorded the highest level of security 
available for such data in any system in the government.
    Question. Some Transportation Security Administration passenger 
screeners have repeatedly searched individuals who clearly do not fit 
the profile of possible terrorists. What is the Transportation Security 
Administration doing to cut down on these ``false alarms'' or ``wasted 
searches?''
    Answer. One of the advantages of the CAPPS II system will be that 
it will greatly reduce the type of unnecessary screening referred to in 
this question. Unlike the current prescreening system in place, 
currently administered by the airlines, TSA is developing CAPPS II to 
have a robust authentication function to help ensure that people who do 
not pose a threat to commercial aviation security and will not be 
confused with those who are identified as posing such a threat, and 
therefore will not be subjected to repeated and unnecessary additional 
scrutiny when they travel. Further, if such errors do occur under the 
CAPPS II system, TSA will have a ``Passenger Advocate'' who will be 
empowered to investigate any errors and assist in correcting repeated 
instances of misidentification.
    In sum, TSA agrees that repeated screening of the wrong person 
wastes resources and that once implemented, CAPPS II will be a useful 
resource allocation tool that will assist in ensuring more 
appropriately focused screening.

                    LAW ENFORCEMENT OFFICERS (LEOS)

    Question. For fiscal year 2003, the Transportation Security 
Administration previously planned to negotiate long-term agreements 
with state and local law enforcement agencies to provide uniformed 
officers at passenger security checkpoints this year and in the future. 
Recently, TSA announced that local airports would not be reimbursed for 
law enforcement officers and the airports would now have to shoulder 
the burden for this mandate. What is the rationale behind elimination 
of reimbursing law enforcement officers at airports?
    Answer. TSA will continue to provide reimbursements for some law 
enforcement. However, the fiscal year 2003 Omnibus Appropriations bill 
(Public Law 108-7) provided new authority for the Administrator of TSA 
to allow stationing of law enforcement personnel at places other than 
the airport screening checkpoints if TSA determines that such 
stationing will still provide adequate responsiveness to incidents 
(problems) at these locations. Flexible stationing enhances overall 
security by providing surveillance detection and visual deterrence at 
the airports. Roving patrols can cover more ground, will be observed by 
more passengers, will gain a better understanding of the airport domain 
and will lessen the manpower constraints on local jurisdictions. In 
addition to enhancing security, this provision will greatly affect the 
reimbursement program by significantly reducing funding requirements. 
TSA is reviewing the current and historical requirements of the 
security and law enforcement program for each airport. TSA Federal 
Security Directors are consulting with the Airport Operators and local 
law enforcement agencies to determine whether returning to a No-Cost 
Flexible Response Alternative Program as provided by the Airport 
Security Program (ASP) is sufficient to meet the needs for security at 
that particular airport.
    Question. How do you anticipate financially-strapped airports to be 
able to make up for this shortfall?
    Answer. Financial assistance in the form of a Reimbursement 
Agreement (RA) will be available in cases where a no-cost program would 
critically and adversely affect the financial resources and security 
staffing requirements of the host agency.

            TRANSPORTATION WORKER IDENTIFICATION CARD (TWIC)

    Question. The Transportation Security Administration was provided 
$35 million in fiscal year 2003 to initiate a credentialing program for 
all transportation workers, such as dockworkers, truck drivers, and 
airline caterers, to carry Federal identification in order to provide a 
more secure work environment. The Transportation Security 
Administration is now in the process of carrying out a four-month pilot 
project where workers will be issued a transportation worker 
identification card (TWIC) with one of five technologies in order to 
determine the most appropriate, secure technology before a prototype is 
developed. Can you give us a status report on the pilot project and 
explain the different technologies that are being considered that will 
be incorporated in the prototype transportation worker identification 
card? Will biometric technologies, technologies that incorporate iris, 
facial, and fingerprint recognition, be incorporated in the pilot?
    Answer. A contract to conduct the Transportation Worker 
Identification Credential (TWIC) Technology Evaluation Phase pilot 
projects in the Philadelphia/Delaware Basin and Los Angeles/Long Beach 
areas was awarded to Maximus, with EDS (Electronic Data Systems) as a 
subcontractor, on April 23, 2003. The multi-modal pilot projects will 
include testing credentialing technologies in applications for 
aviation, highway, maritime, rail workers, and others.
    The intent of the Technology Evaluation Phase is to evaluate a 
range of potential access technologies for interoperability and 
performance at six facilities in each area. The test will include six 
different access control technologies including digital photographs, 
optical (laser) media stripes, microchips, magnetic stripes, and two 
different types of bar codes. As part of this phase, the benefits of 
employing a centralized card production and issuance center will be 
evaluated.
    Biometric technologies will be incorporated in the Prototype Phase 
of the TWIC program. During this next phase, a TWIC reference biometric 
will be incorporated into the credential and tested at the pilot sites. 
A specific reference biometric has not yet been chosen. In addition to 
the biometric technology selected for the reference biometric, the TWIC 
credential will have the capability to store other biometric 
information for use in various security applications as required by 
individual transportation facilities.

                         HIGHWAY WATCH PROGRAM

    Question. Does the Transportation Security Administration intend on 
any contractual agreements between the Federal Motor Carrier Safety 
Administration and the trucking industry for the Highway Watch program 
as recently directed by Congress?
    Answer. The Highway Watch Program is a joint government/industry 
program and TSA expects to build-on rather than replace this existing 
program as it defines future highway security needs. TSA is working 
with the Federal Motor Carrier Safety Administration to determine the 
requirements for expansion of the current Highway Watch Program.
                                 ______
                                 

         Questions Submitted by Senator Ben Nighthorse Campbell

                         LINES OF COMMUNICATION

    Question. In the hours following the attacks on the Pentagon and 
the World Trade Center, it was clear that the lines of communication 
between everyone involved in air travel--the FAA, Federal authorities, 
airlines, and customers--was severely deficient, if not to say 
completely inadequate. What steps have been taken to improve this so 
that information moves quickly and accurately from the air traffic 
controllers to the airlines to the passengers, and most importantly, to 
the appropriate agencies in the event of another emergency?
    Answer. The communications flow between air traffic controllers, 
airline corporate headquarters and security divisions, Department of 
Defense, and other Departments occurs under processes established among 
the Federal Aviation Administration, Transportation Security 
Administration, Department of Homeland Security, and the Department of 
Defense. In cases where there is a known threat to aviation security, 
the agency that identifies the threat establishes communications with 
the other agencies via established conference calls, at which time all 
command centers are brought into a coordination conference call. In 
addition to these interagency conference calls, each agency initiates 
calls within its own organization for coordination with internal 
response and information sources to build and maintain situational 
awareness. The Transportation Security Administration establishes 
direct links to internal and external agencies via secure and non-
secure means for information gathering and direction. The communication 
systems are tested regularly to identify and correct glitches in the 
lines of communication so that we are confident there will not be any 
problems in a real emergency. At the end of every test, we conduct an 
outbrief to review the exercise and identify areas for improvement. 
These communications links encompass the full spectrum of agency 
capabilities to respond to any threat to aviation security. Additional 
details on the secure elements of the communication links can be 
provided in a classified setting.

                              AIR MARSHALS

    Question. On September 11th, it became apparent that our Nation's 
protectors of the commercial skies, the U.S. Air Marshals, needed to be 
in better communication--not only with their superiors but also with 
each other. Who knows what could have been averted, and how many lives 
could have been saved had communications technology been available. I 
know that over the past year or so, the TSA has been working with 
technology companies in order to develop a communications system that 
allows the air marshals to communicate in real time with officials on 
the ground, as well as other air marshals stationed on other commercial 
aircraft. I think this is necessary so that our air marshals are not 
isolated at 30,000 feet. Do you have any knowledge of the progress of 
this technology development?
    Answer. Pursuant to House Conference Committee Report 107-593, 
TSA's Federal Air Marshal Service (FAMS) was provided $15 million to 
begin the initial implementation phase of the Air to Ground 
Communications program. TSA intends to utilize this funding to purchase 
a Commercial Off-the-Shelf (COTS) product, which includes hardware and 
software, for implementation of the Air to Ground communications 
system. This initial system will allow the FAMS to utilize a portable, 
quickly deployable air to ground communications system which will 
seamlessly integrate existing FAMS wireless technology. This 
comprehensive wireless communications system may also be used by other 
local, State, and Federal agencies, and the Department of Defense, to 
achieve secure communications through a dedicated law enforcement 
network.

                           BAGGAGE SCREENERS

    Question. The TSA recently announced plans to eliminate 3,000 more 
airport screening jobs by the end of September, coupled with 3,000 
others announced in March, amount to about 11 percent of the 55,600 
screeners employed. This plan will save the TSA an estimated $280 
million. I applaud the TSA's effort to trim their budgetary needs, 
however, is a good idea to cut the work force and putting some workers 
on part-time hours? Do you believe this to be a wise decision at this 
time?
    Answer. TSA believes that making effective use of part-time 
screening personnel is in the best interest of both security and the 
taxpayer. Most airports have a peak time, or several peak times, during 
which a screening presence is needed beyond the normal throughput. The 
ability to use part-time or split shift personnel during these focused 
periods is a policy with significant possibilities. With the 
implementation of improved scheduling tools, TSA expects to be able to 
optimize the workforce with the appropriate mix of full-time, part-time 
and split shift personnel to better match travel patterns.
    Question. Will we still have enough workers to screen 100 percent 
of the bags?
    Answer. Yes, the screening force will not be cut below the level 
needed to screen 100 percent of the baggage.

                        AIR TRAFFIC CONTROLLERS

    Question. A year ago, we discussed the need for accountability in 
the security screeners and airport employees as a whole. Then Congress 
passed the Aviation and Transportation Act which federalized those 
employees. Recently, President Bush issued an executive order that 
deleted the clause in a previous order signed by President Clinton that 
described air traffic control as an ``inherently governmental 
function.'' The Administration has proposed studying whether to hire a 
private company to take over the air traffic control system. What 
effect will privatizing the Air Traffic Controllers will have on the 
current system? Do you believe it will solve current issues, or create 
problems?
    Answer. Because the safe operation of the Nation's air traffic 
control system is the responsibility of the Federal Aviation 
Administration (FAA), an agency within the Department of Transportation 
(DOT), these questions are more appropriately addressed to that agency. 
However, it is our understanding that although DOT recently deemed the 
FAA's air traffic controllers to be ``commercial'' within the meaning 
of the required annual FAIR Act inventory of agency functions, the 
Secretary also decided that the non-contract tower functions are core 
capabilities of the agency and will not be subject to competition or 
contracted out.

                  QUALIFIED ANTITERRORISM TECHNOLOGIES

    Question. The Homeland Security Act of 2002 (Sections 862) provided 
the Department of Homeland Security with authority to compile a list of 
``qualified antiterrorism technologies'' that would qualify or receive 
certain protection under that Act. Has this list been compiled? If not, 
why?
    Answer. The Department of Homeland Security is in the process of 
drafting regulations for implementation of Section G of the Homeland 
Security Act of 2002 and places a high priority on their issuance for 
public comment and implementation. These regulations will provide the 
basis for the Department to compile a list of qualified antiterrorism 
technologies in accordance with the criteria and provisions of the 
Homeland Security Act.
    Question. If this list has been compiled, can Members of this 
Committee get a copy of this list?
    Answer. A list of ``qualified antiterrorism technologies'' has not 
yet been compiled because the regulations needed to implement Subtitle 
G of the Homeland Security Act of 2002 have not yet been issued.
    Question. How would a company that has an antiterrorism technology 
be considered for approval?
    Answer. At present, there is no process by which a company can 
submit its technology for consideration for approval as a qualified 
antiterrorism technology. Such a process will be available after the 
regulations needed to implement the provisions of Section 862 of the 
Homeland Security Act have been finalized and issued.
    Question. Do they need to wait for the rulemaking process to be 
completed to apply for approval?
    Answer. Yes.
    Question. If so, when will that process be completed?
    Answer. As indicated earlier, the process is currently in progress 
and will include a public comment period on the proposed regulations 
prior to their finalization and issue. At this time, it is not possible 
to provide a specific date for completion of the rulemaking process.
                                 ______
                                 

             Questions Submitted by Senator Robert C. Byrd

                   FULL-TIME EQUIVALENT SCREENERS CAP

    Question. The Congress has required your agency to achieve a cap on 
full-time screening employees of 45,000 individuals. Does this staffing 
limitation force your agency to make bad or inefficient management 
decisions?
    Answer. As a threshold matter, the cap referred to in the question 
applies to full time permanent employees throughout TSA and not just 
screeners. The cap affects, among others, TSA headquarters staff and 
Federal Air Marshals.
    TSA acknowledges the requirement to reduce and re-distribute some 
of the screener workforce. At some of the airports, we did not 
experience the voluntary attrition we expected, and at other airports, 
attrition has been greater than programmed. Getting the right number of 
screeners hired and trained at the right airports will continue to be a 
management challenge. It will be essential for us to use our work force 
in a flexible manner if we are to avoid long lines after the reduction. 
Part time employees will be essential for staffing checkpoint lanes 
during peak periods. Through the implementation of good management 
principles and practices, TSA will be able to maintain world-class 
security with a more efficient, more effective screener workforce.

                              BUS SECURITY

    Question. TSA has been given funds for a program to enhance motor 
coach security ($25 million total from the Supplemental and 
Transportation Appropriations bill). The first application period ended 
in March. When do you expect that your agency will announce those 
grants and what criteria have you used to award these funds?
    Answer. Request for applications for the initial round of bus 
security grants was published in the Federal Register on January 17, 
2003. The application period closed on March 19, 2003. Interagency 
national and executive review teams recently completed their 
evaluations of the proposals. TSA anticipates awarding the grants in 
June 2003.
    In developing funding recommendations, the national evaluation team 
used the evaluation criteria published in the Request for Applications, 
which included the following: relevance and importance, technical 
quality of the proposal, competence of the project team to perform the 
work, appropriateness and reasonableness of the budget, and corporate 
experience and capability.
    Question. With all your focus on the airlines and their security, 
when do you expect that you will turn to other modes of transportation 
and have you done any preliminary studies or have any ideas as to what 
can be done to protect rail and bus passengers?
    Answer. TSA, working through the Border and Transportation Security 
Directorate (BTS) and with the Information Analysis & Infrastructure 
Protection Directorate (IAIP), is currently working with Federal 
surface and maritime transportation modes, and governmental and 
industry stakeholders to better assess security vulnerabilities, 
identify security enhancements, and, where needed, establish best 
practices, national standards, and security plans and regulations.
    Additionally, TSA continues to assess security vulnerabilities and 
identify needed security enhancements to the rail and bus system and 
related infrastructure and is engaged in the following rail and bus 
security activities:
  --Coordinating information and threat sharing through the Surface 
        Transportation Information Sharing and Analysis Center (ISAC), 
        which is managed by the Association of American Railroads, 
        including deploying TSA personnel to the ISAC.
  --Studying (in collaboration with Amtrak and Federal Railroad 
        Administration) the feasibility of prototyping the screening of 
        both passengers and baggage in a rail environment.
  --Identifying the gaps in antiterrorism training among rail 
        personnel.
    TSA also provided support to a study conducted by the Volpe 
National Transportation Systems Center entitled ``Security Enhancement 
Study for the U.S. Motor coach Industry.'' This study assesses the 
level of security threats within the motor coach industry, prioritizes 
industry vulnerabilities and identifies potential areas of opportunity 
to enhance security.
    Question. In your opinion, is it more important to enhance 
protection to transportation routes and corridors or significant 
transportation destinations?
    Answer. Both transportation routes and corridors and significant 
transportation destinations play a critical role in our economy. 
Enhancing protection of both of these areas will ensure the 
uninterrupted flow of commerce and maintain the confidence of the 
traveling public. Because the routes and corridors and destinations are 
economically interdependent, leaving one unprotected is not an 
acceptable alternative. Risk analysis does indicate however, that the 
greatest threat lies within the transportation destination, for it is 
there that those who would do us harm achieve the greatest impact 
(potential greatest loss of life, impact on critical infrastructure and 
economy, and access to major media markets).
    Question. Some bus operators (e.g. Greyhound Bus Lines) have begun 
``wanding'' passengers in its largest terminals. Has TSA had any 
discussions with Greyhound or with the industry's trade association 
(American Bus Association) about the usefulness, cost and practicality 
of expanding such efforts?
    Answer. TSA has had broad discussions with both Greyhound Bus Lines 
and the American Bus Association (ABA) with regard to Greyhound's pilot 
project to perform random ``wanding'' of passengers at 32 cities across 
the Nation. Greyhound has found that ``wanding'' works well on several 
fronts, discouraging passengers from bringing drugs and dangerous or 
otherwise threatening items onboard as well as providing a tangible 
demonstration of enhanced security. Greyhound is exploring the 
feasibility of and identifying resources needed to expand their 
``wanding'' program to include 50 percent of Greyhound's terminals. In 
addition, other bus operators are evaluating whether and how to 
incorporate ``wanding'' into their security protocols.

                 FEDERAL AIR MARSHALS TRAINING LOCATION

    Question. Does TSA, in conjunction with FLETC, plan to consolidate 
training of Federal Air Marshals at one location (Artesia) as opposed 
to the expense of training in Atlantic City?
    Answer. The Federal Air Marshal Service (FAM) has no plans in 
conjunction with FLETC to consolidate the training of Federal Air 
Marshals (FAMs) at one location (Artesia).
    All FAMs are required to attend the FAMS 7-week Basic Training 
Course conducted at FLETC in Artesia, New Mexico and the 4-week FAMS 
Phase II Specialized Training Course conducted at the FAMS Training 
Center in Atlantic City, New Jersey. The training in Artesia consists 
primarily of basic police and law enforcement training that is aimed at 
providing a student the fundamental law enforcement training related to 
their positions. The training in Atlantic City is specialized training 
related directly to the FAMS mission. It takes place in facilities and 
on equipment that are designed to replicate the working environment 
that a FAM will encounter during a mission. In addition, instructors 
from the Federal Aviation Administration (FAA) and other outside 
entities that conduct some of the specialized FAMS training would not 
be available if the training were conducted at the FLETC-Artesia 
location.
    A recently held curriculum review conference was attended by 
representatives of the FAMs, TSA's Office of Training and Quality 
Performance, and FLETC-Artesia. A coordinated effort is underway to 
eliminate all duplicative training courses in each segment of the 
training to maximize the time FAMs spend in the specialized mission-
related training facilities uniquely available in Atlantic City.

                  FEDERAL AIR MARSHALS RETENTION RATES

    Question. Regarding the retention rate of Federal Air Marshals, 
does the turnover exceed training costs? What is being done to enhance 
retention? Is emphasis in hiring placed on Federal law enforcement 
officials--most of whom have already received FLETC-certified 
training--and whom we understand are relatively less costly to train 
than other recruits?
    Answer. In order to address the issue of retention, two points need 
to be addressed. First, looking at Federal Air Marshal (FAM) attrition 
over the year and a half since the program has undergone a significant 
build up, it is apparent that the attrition rate is no greater than 
that of the rest of the Federal Law Enforcement workforce. FAM 
attrition was initially very low, and then there was a spike noted late 
last summer. Since December 2002, the attrition rate has stabilized at 
half of a percent per month. Second, the build up to comply with the 
Congressional mandate resulted in hiring the FAM workforce without 
being able to sufficiently hire the warranted supervisory personnel. 
Since this past fall, when a cadre of experienced Federal Law 
Enforcement Supervisors and Managers were selected and deployed to each 
of the Field Offices, there has been a significant reduction in the 
number of resignations and a noted stabilization of the FAM workforce.
    Turnover does not exceed training costs. The cost of half of a 
percent per month attrition does not exceed the monthly budget 
allocation for training.
    The Federal Air Marshal Service (FAMS) recruits from a variety of 
sources including those individuals with Federal law enforcement 
experience. It is the goal of the FAMS to select the best-qualified 
individuals for the workforce, following all applicable OPM 
regulations. Since September 2001, the FAMS has actively recruited 
individuals with prior Federal law enforcement experience, as have many 
other Federal, State, and local agencies with law enforcement 
responsibilities. Competition for those best-qualified individuals has 
been intense. During the emergency stand-up period running through July 
2002, approximately 50 percent of the FAMs hired had previous Federal 
law enforcement experience. Hiring personnel with former Federal law 
enforcement experience realizes cost savings; however, all personnel, 
regardless of their backgrounds, require specialized Federal Air 
Marshal Training.

     WYDEN AMENDMENT TO S. 165--AIR CARGO SECURITY IMPROVEMENT ACT

    Question. S. 165, as it passed the Senate, requires a report on 
plans by the Transportation Security Administration to gather data on 
plane passengers. He said he wanted to determine how the collection of 
data impacts civil liberties and privacy. Has the Administration taken 
a position on the Wyden provision? Does it share the same concerns 
about personal privacy and data mining issues?
    Answer. The Administration does not oppose the Wyden provision. TSA 
is committed to ensuring that personal privacy is protected in the 
CAPPS II program and welcomes the opportunity offered by Senator Wyden 
to demonstrate that commitment. TSA is developing CAPPS II in ways that 
protect personal privacy. Strict firewalls and access rules will 
protect a commercial air traveler's personal information from 
inappropriate use, sharing or disclosure. Also, CAPPS II will include 
real-time auditing capabilities in the system architecture to ensure 
compliance with domestic and international laws and the privacy 
policies of TSA and other Federal agencies. In addition, it is TSA's 
goal to listen to the views of our stakeholders, the traveling public, 
privacy advocacy groups and the Congress and to use the feedback to 
help create and develop the CAPPS II system. With regard to data 
mining, as understood by TSA, ``data mining'' means sifting through 
vast amounts of data to identify any possible patterns. CAPPS II starts 
with a known person, the air traveler, and seeks to authenticate his/
her identity and to determine whether that person poses a terrorist 
risk to the aircraft, other passengers, or the public. It is not 
seeking out unknown patterns in vast quantities of data.

                        TRUSTED TRAVELER PROGRAM

    Question. In conjunction with development of the CAPPS II program, 
there has been some discussion of also exploring development of a 
``trusted traveler'' program similar to those in place at certain 
overseas airports for frequent, especially business, travelers. Has the 
Department explored piloting such a program in this country? If not, 
why not? If so, what has the Department learned in this regard?
    Answer. The concept of the Registered Traveler (RT), or ``trusted 
traveler,'' is still in its development stage. TSA is conducting a 
business-based feasibility study to examine the range of program 
alternatives, evaluate viable technologies and develop a range of 
funding and cost-sharing options. As TSA makes progress with CAPPS II 
and further defines the registered traveler concept, we will be in a 
better position to determine how a RT program might be implemented and 
identify other advantages for travelers who volunteer to participate.
    TSA is still in the process of developing CAPPS II to identify 
those persons who are involved with or linked to foreign terrorism and 
who pose a threat to aviation security. At the same time, TSA is 
reviewing the RT concept, per Section 109 of the Aviation and 
Transportation Security Act (ATSA), which provided TSA with the 
discretion to ``[e]stablish requirements to implement trusted passenger 
programs and use available technologies to expedite security screening 
of passengers who participate in such programs, thereby allowing 
security screening personnel to focus on those passengers who should be 
subject to more extensive screening.''
    The current thinking around RT is that passengers who apply to the 
RT program will voluntarily submit to background checks. Based on these 
checks, TSA would be able to assess whether the passenger presents a 
risk to aviation security. If it is determined that the passenger does 
not pose such a threat, they will be registered as a RT, or, 
alternatively, if they do pose a threat to aviation security, they 
would not be registered. Thus, there are no levels of clearance--people 
either participate in the program or they do not. If they are in the 
program, it is possible that this group of people could be entered into 
the CAPPS II system as individuals who do not present a risk to 
aviation security.
    In this situation it is envisioned that RTs would generally be 
exempt from secondary screening. For the majority of cases, RTs would 
only receive secondary screening if they trigger an alarm at the walk 
through metal detector (WTMD). The benefit to the RT is the potential 
for expedited security screening.

                       TSA: GOALS AND MANAGEMENT

    Question. A recent General Accounting Office report has given the 
Transportation Security Administration high marks, saying it is off to 
``an impressive start'' in motivating its workforce to achieve 
performance goals. At the same time, the agency has focused the vast 
majority of its resources on the aviation side of the ledger almost to 
the exclusion of other modes of transportation. The budget request for 
fiscal year 2004 appears to continue this trend, with only $86 million 
planned for Maritime and Land Security out of a budget request of $4.82 
billion. There are reports that TSA is working on a national security 
plan that will address all modes of transportation, including the 
development of partnerships with the private sector. Can you give us 
some examples of what these might be? Do you anticipate modifying or 
realigning your budget request to accommodate these plans?
    Answer. We do not anticipate modifying the TSA request for this 
purpose. DHS, overall, has requested substantial resources in fiscal 
year 2004 across the Department outside of aviation, including 
resources in the Coast Guard for ports and maritime security; in BCBP 
for cargo security; in IAIP for vulnerability assessment, intelligence, 
and infrastructure protection for all sectors including transportation; 
and in EP&R for emergency response. ODP recently announced grants 
including $75 million for port security and $65 million for mass 
transit security in fiscal year 2003. TSA is continuing key standards-
setting efforts, and will work closely with modal administrations of 
the Department of Transportation to help leverage resources of that 
agency, where appropriate, to accomplish security goals.

         TSA: BUSINESS ASSISTANCE IN DEVELOPING SECURITY PLANS

    Question. Transportation Security Administrator, Admiral Loy, 
recently told a group of business leaders that he needs their 
assistance in developing a national security plan for transportation 
systems. He said, ``This is an all-hands evolution. We are sort of in 
this together.'' What types of assistance is TSA looking for from the 
private sector? Is there a timetable for deliverables on this national 
transportation security plan? What measures are being used to determine 
whether the plan is working?
    Answer. Industry participation is vital to TSA's success and our 
security paradigm involves industry input at almost every step of the 
process. From domain awareness, where industry has the benefit of day-
to-day observation, to prevention, protection, response, restoration 
and consequence management, TSA, its modal partners and industry will 
be essential to the establishment and effectiveness of a comprehensive 
transportation security plan.
    Specific measures of effectiveness will be developed as the plan is 
put in place and appropriate security standards are decided.

                           LETTERS OF INTENT

    Question. The fiscal year 2003 Iraqi War Supplemental (Public Law 
108-11) included a provision allowing the Under Secretary for Border 
and Transportation Security to issue letters of intent to airports to 
provide assistance in the installation of explosive detection systems. 
What is the status of this issue? Is the Office of Management and 
Budget delaying the issuance of these letters?
    Answer. OMB supports the use of LOIs as a tool for improving 
security, leveraging private sector resources and is working with TSA 
on its in-line installation plan and the use of LOIs in support of that 
plan.

              TSA'S CRUISE SHIP TO AIRLINES PILOT PROJECT

    Question. My staff had the opportunity while in Miami to observe 
the operation of a temporary pilot project which has been instituted 
between a major cruise line and a major airline. In this pilot, 
disembarking cruise passengers who are immediately transiting through 
to the airline have their bags examined by Transportation Security 
Administration screeners at a dock-side facility and receive their 
boarding passes from airline representatives. Then their bags are 
transferred to the airport in a secure vehicle while the passengers 
take a bus to the airport and, upon arrival, proceed directly to the 
gate. Under this system, the passenger is able to avoid waiting in 
additional lines at the airport, while at the same time congestion is 
slightly reduced at the airport itself. By all accounts, this is a 
system that is working well and demonstrates a fresh approach to both 
security as well as passenger processing. How much does this pilot 
program cost and are funds included in the fiscal year 2004 budget for 
it to be continued? Are there other locations to which this project 
could be expanded? What other innovative ideas, if any, is your agency 
considering piloting in the coming year?
    Answer. The program mentioned in this question is called Synergy 
and is currently working well in Miami. There are no additional costs 
in this program, and it actually improves security by eliminating much 
of the congestion accompanying a cruise ship's passengers all arriving 
at the airport simultaneously. Other, similar programs are proposed for 
areas with hotel concentrations, as well as other major cruise ship 
embarkation points. TSA will pursue all avenues to allow air commerce 
to more freely move while maintaining the same high level of security.

                  TRANSPORTATION WORKER IDENTITY CARD

    Question. You have included in your budget request for the next 
fiscal year funds to begin implementing the Transportation Workers 
Identity Card program. Given that some transportation workers in 
certain locations often have criminal records, what will be some of the 
determining or prohibiting factors under which a worker will be 
provided or denied a card?
    Answer. At the present time, the determining factors for whether or 
not a person obtains any federally-based TWIC across transportation 
sectors have not been determined. Many considerations must be assessed 
and evaluated, and ultimately these may vary depending on the nature of 
an employee's work and risk to the transportation system. The three 
primary acts which guide our current policy on credentialing include 
the Aviation and Transportation Security Act of 2001, the USA PATRIOT 
Act of 2001 and the Maritime Transportation Security Act of 2002. The 
acts differ both in specificity and in the length and range of offenses 
that would be disqualifying for obtaining a credential.

                       PORT SECURITY ASSESSMENTS

    Question. Have you reviewed the port security assessments that have 
been completed to date to determine if there are patterns in port 
vulnerability that ports generally should begin to address immediately?
    Answer. Review of the port security assessments completed to date, 
both by the ports themselves using TSA port security grant funds and 
those completed by the Coast Guard, has yielded valuable preliminary 
information regarding security enhancement requirements. These 
assessments have identified a number of physical security enhancements 
that were either non-existent or needed improvement, such as fencing, 
lighting, and closed circuit television systems. Other common 
recommendations included: setting standards for transportation worker 
identification systems, creating security plans, enhancing 
communications systems, and establishing screening equipment standards 
for cargo and passengers.

                           SUPPORT CONTRACTS

    Question. In response to questions at the hearing, you spoke to the 
difficulties TSA has experienced with a number of its contracted out 
functions--including screener training, human resources and the like. 
Please provide the Subcommittee with a list if the contracts that TSA 
has let for specific functions since its creation, the number of people 
hired to perform the contracts, the prices of each contract and if a 
contract has been terminated and a new contractor brought on to perform 
the same function.
    Answer. TSA has awarded 6 significant contracts for its 
``contracted out services''. The six contracts and their associated 
information are listed in the attached document. None of these 
contracts have been terminated, although the period of performance for 
one contract has expired. Each of these contracts is a performance-
based service contract (PBSC), where the contractor is required to 
deliver services in accordance with specific performance metrics. In 
general, TSA requires these contractors to achieve desired outcomes, 
and does not require them to adhere to non-performance standards (such 
as contract staffing levels). The contractor has the flexibility to 
achieve performance metrics utilizing innovative approaches that have 
not been restricted by procedural or resource requirements. TSA does 
not require these contractors to report the number of people employed.
    To this point, TSA has awarded contracts to Cooperative Personnel 
Services and Accenture to perform human resources management functions 
previously provided to TSA in part by NCS Pearson for the deployment of 
the aviation security workforce. The current contracts now cover the 
entire TSA workforce, not only the screener component. And, the 
recently awarded contract to Lockheed Martin services for security 
training services replaces the contract with Lockheed Martin Services 
for passenger screener training. In both situations the new contract 
requirements are for a broader range of services than those provided 
under the original contract.

                     S. 165--AIR CARGO SECURITY ACT

    Question. The Senate recently passed this legislation. What new 
activities will this law impose on your agency? If enacted into law, 
what impact will this law have on your agency's budget? What additional 
resources--personnel, funds, etc. will be required?
    Answer. TSA generally does not believe it will be necessary to 
increase personnel and funding to meet the requirements of the Senate 
bill. Should this bill, or TSA's air cargo security strategy, suggest 
new resources are needed, these will be found in base TSA funding. TSA 
has already set up screening protocols for air cargo, is regularly 
inspecting air cargo facilities, and is working to complete its 
``known'' shipper database. $30 million in requested fiscal year 2004 
funding will enable TSA to refine and improve its screening protocols, 
through development of a risk-based, freight screening process, and 
investigate cargo screening technologies.
    This legislation would also transfer responsibility for 
investigating foreign applicants for flight training from the Attorney 
General to the Under Secretary for Border and Transportation Security. 
TSA may assess fees for the cost of the investigations.
    The legislation further provides that TSA may establish a program 
to use identification verification technologies. The use of 
surveillance and recognition technology may ultimately proves useful in 
airport applications, but it would require maintenance of an 
appropriate photo watch-list based on intelligence and law enforcement 
resources from outside TSA.
                                 ______
                                 

             Question Submitted by Senator Patrick J. Leahy

    Question. As you may know, law enforcement officials from New 
England and New York have been national leaders in establishing an 
initiative for cargo container security called Operation Safe Commerce 
Northeast (OSC Northeast). OSC Northeast represents a comprehensive 
coalition of Federal agencies, State governments and private sector 
businesses committed to the concept of enhancing border and 
international transportation security without impeding free trade and 
international commerce. Originally conceptualized a month before the 
tragic events of September 11, 2001, I commend Vermont U.S. Attorney 
Peter Hall and others for being such forward thinkers about the need to 
monitor the security of overseas freight that is coming into our 
country.
    On April 21, 2003 the Wall St. Journal carried an article warning 
that Canadian ports could provide a back door into the continent for 
terrorists targeting the United States. The Canadian Ports of Montreal 
and Halifax are among the principal seaports servicing much of the 
northeast and mid-west. For example: of the 1.2 million containers 
unloaded in Montreal last year, half (600,000) were destined for the 
United States. One billion U.S. dollars of trade is conducted daily 
between the United States and Canada, therefore, a disruption of trade 
between the two countries would be devastating to our respective 
economies.
    Last year (May 2002), OSC Northeast conducted a beta study of 
international container cargo entering the United States via Montreal. 
This project, involving both United States and Canadian participants, 
monitored, tracked and sealed a container from its point of origin in 
Eastern Europe through the Ports of Hamburg Germany to its final 
destination in Hillsboro, New Hampshire. To date, I believe this is the 
only group to have conducted and completed such a study and compiled a 
detailed report of findings and recommendations.
    This group, which is chaired by the Governor of New Hampshire and 
the U.S. Attorneys for Vermont and New Hampshire, is prepared to 
proceed with a Phase II initiative dealing with container verification 
and the transshipment of international cargo. Most recently they have 
partnered with Lawrence Livermore National Laboratory--one of the 
nation's premier applied science labs--to further examine international 
cargo entering the continent via Canada and then transshipped via rail 
and truck inland, or transshipped via feeder vessels for delivery along 
the Atlantic (New England) coast. This interesting initiative consists 
of a collaboration of State, Federal and private sector (United States 
and Canadian) partners prepared to assist the Nation and homeland 
security.
    Therefore, in light of the recognized disruption to the northeast 
and mid-west economies should a catastrophic event occur related to 
international trade corridors the TSA should better engage and utilize 
the resources of the OSC Northeast group. To replicate such a group 
would take a team one full year just to organize and prepare. I 
understand the TSA is preparing to provide funding awards to the three 
largest United States load centers, as prescribed in the fiscal year 
2002 Supplemental Appropriations Bill: Los Angeles/Long Beach, Seattle/
Tacoma and New York/New Jersey. And data from all these sources should 
be used to detect and analyze vulnerabilities in our supply chains. I 
hope the TSA will take a closer look at funding the OSC Northeast 
initiative too. We are very vulnerable along our Northern Border, and 
this group would enhance the safety of cargo entering the United States 
through New England and Canadian ports.
    What steps are TSA taking to incorporate the efforts of OSC 
Northeast into our national port security strategy? Will TSA be able to 
fund Phase II of the OSC Northeast initiative?
    Answer. OSC Northeast was a public-private partnership that yielded 
invaluable information regarding our Nation's port security strategy. 
TSA has incorporated lessons learned from OSC Northeast, as well as 
from other initiatives and experience in order to capture, analyze, and 
build further upon the knowledge base.
    Appropriated funding prioritized Operation Safe Commerce (OSC) 
pilot program funds to the three largest container Load Centers in the 
United States--the ports of Los Angeles and Long Beach, the ports of 
Seattle and Tacoma, and the Port Authority of New York/New Jersey. One 
of the project criteria for the OSC grants is to consider a supply 
chain through the Load Centers, which includes feeder ports and supply 
chains to Canada. To date, no supply chains have been submitted to the 
OSC Executive Steering Committee for consideration that include 
Northeast U.S. ports, eastern Canadian ports, or truck or train 
shipments destined for eastern or central Canada. TSA expects to 
complete work on this pilot program during fiscal year 2004, which we 
hope will provide useful solutions for supply chain security.
                                 ______
                                 

   Questions Submitted to the Federal Law Enforcement Training Center

              Questions Submitted by Senator Thad Cochran

    Question. The Federal Law Enforcement Training Center's fiscal year 
2004 budget requests $146 million. This amount represents a decrease of 
roughly 13 percent. Will the 2004 funding request provide for 
sufficient instructor staffing, training, and facility upgrades?
    Answer. Yes, the President's fiscal year 2004 budget request 
provides sufficient funding for FLETC. It was based on levels of 
training requested by the partner agencies.
    Question. The fiscal year 2003 supplemental appropriations bill 
provided the Federal Law Enforcement Training Center with an additional 
$2 million to support Operation Liberty Shield activities. How were 
these funds used to support Operation Liberty Shield?
    Answer. The funding provided for additional training requested by 
our Partner Organizations and the security costs associated with the 
increased threat levels. As a result of increased security 
requirements, our partner agencies requested 35 additional mandatory, 
basic training programs, totaling 7,084 student weeks of training, in 
order to deploy 744 more agents and officers. The increased threat 
levels required the implementation of a roving security patrol at the 
Artesia training site and an increase to the roving patrol already in 
place at the Glynco training site.
    Question. When the Department of Homeland Security elevates the 
Threat Advisory System, how does the heightened readiness affect the 
Federal Law Enforcement Training Center, and what impact does this 
elevated readiness have on the agency's budget?
    Answer. When the DHS elevates the threat advisory level, the 
following increased security measures are implemented in accordance 
with published directives:

                        THREAT LEVEL 4 (ORANGE)

    This threat level will be implemented based upon anticipated needs 
or communicated threats and will encompass all previously applied 
security measures at security levels 1, 2, and 3. Additionally, a 100 
percent positive identification process, consisting of a valid FLETC-
issued identification card and a second form of a state or federally-
issued government identification with a full-face photograph, will be 
implemented. Both forms of official identification must be produced and 
displayed to FLETC Security Police by all incoming personnel seeking 
access to any FLETC facility. Access will be denied if these specific 
identification requirements are not met. Additionally, FLETC Security 
Police will conduct random verifications and examinations of displayed 
FLETC identification at the various facilities within the FLETC proper; 
as such display of FLETC identification is required of all persons on 
any FLETC facility.

                          THREAT LEVEL 5 (RED)

    This threat level will be implemented based upon anticipated needs 
or communicated threats and will encompass all previously applied 
security measures at security levels 1, 2, 3, and 4. The facilities 
will be closed to all visitors and only essential personnel on official 
governmental business will be granted access. All non-essential 
contract personnel will be dismissed. A 100 percent search of all 
vehicles (commercial, government and privately-owned) entering FLETC 
facilities will be conducted and increased security police patrols of 
all areas will be implemented. At this threat level, all Partner 
Organizations will be tasked with providing security to their personnel 
at any off-facility housing areas in support of local police agencies. 
The FLETC Director may cancel any or all training within the affected 
bureau facilities.
    The security activities associated with the heightened threat 
advisory levels are ordinarily accomplished within the parameters of 
the Security Police contract at no additional cost to FLETC. However, 
if security threat situations dictate that the service contractor 
employ additional resources and/or authorize overtime to accomplish the 
required security activities, then additional fiscal resources will be 
necessary.
    Question. Since September 11, the training needs of Federal 
agencies with homeland security missions have increased substantially. 
What is FLETC doing to respond to increased training requests from its 
partner organizations?
    Answer. The near-term increased demand for law enforcement training 
has been accommodated by maximizing the use all available facilities 
and resources at Artesia, Glynco and Charleston. A FLETC management 
team worked systematically through a series of constraints analyses to 
optimize FLETC throughput capacity. As system constraints were 
identified, temporary measures/facilities were brought on-line to 
eliminate or reduce the constraint, increasing the FLETC overall 
training capacity. Additionally, FLETC has developed a number of 
creative scheduling solutions to accommodate the increased training 
demand (i.e. extended training week and extended training day).
    To accommodate the mid-term demand, FLETC is currently studying all 
available options to meet the fiscal year 2004 through 2006 training 
requests, including shifting some basic and/or advanced training 
normally conducted at Glynco, Georgia to alternate sites which may 
include Artesia, New Mexico, Charleston, South Carolina, or, the soon 
to be completed, Cheltenham, Maryland facilities. This option will only 
be employed after consultation with the affected partner organizations 
and consideration of response ramifications.
    Question. Many of the Federal agencies that rely on FLETC for 
training would prefer to establish their own training facilities. What 
additional steps does FLETC need to take to ensure partner 
organizations that coordinated Federal training is best for the agency 
and the taxpayers?
    Answer. H.R. 2590, enacted into law by President Bush on November 
11, 2001, provided appropriations in fiscal year 2002 to the Federal 
Law Enforcement Training Center (FLETC). A provision contained in this 
legislation directed the FLETC to initiate collaborative interagency 
efforts to establish written standards for the accreditation of Federal 
law enforcement training. As the principal source of consolidated 
Federal law enforcement training, the FLETC assists all Federal 
agencies. Currently, the Federal Law Enforcement Training Office of 
Accreditation, located at Glynco, is working to quantify what 
facilities exist and the capability of those facilities.
    In addition, at the request of the Under Secretary, Border and 
Transportation Security (BTS) Directorate, Department of Homeland 
Security (DHS), the Federal Law Enforcement Training Center has been 
tasked with establishing a Training Academy Committee to identify and 
assess the training capabilities of all of the BTS training academies. 
The committee will use a two phased methodology to identify the 
training assets and to develop a plan for operating the facilities 
employed by each of the Directorate's bureaus, and will also include 
the Coast Guard, Secret Service, and the Bureau of Citizenship and 
Immigration Services. The operational plan will provide the framework 
for coordinating academy training. The Committee will develop and 
submit a report at the conclusion of each phase according to the 
timelines established by its charter. Once the committee has identified 
all of the BTS training capabilities, FLETC can develop a more 
definitive utilization plan of facility usage at all BTS sites.
    Question. On March 1, 2003, FLETC was transferred to the Department 
of Homeland Security. Is FLETC working to develop a cohesive training 
curriculum that will cross-train all Department of Homeland Security 
law enforcement personnel in counter terrorism practices?
    Answer. FLETC is currently working with the newly formed Department 
of Homeland Security (DHS) law enforcement organizations to modify, 
design, and develop appropriate training curricula to ensure their 
specific mission requirements are met, to include the cross-training of 
agency personnel. In the interim, all DHS law enforcement personnel 
attend either FLETC basic training programs (Mixed Basic Police 
Training Program, Criminal Investigator Training Program, Federal Air 
Marshal Training Program) or FLETC integrated basic programs and 
receive anti-terrorism and counter-terrorism training as part of their 
basic training, The same personnel also attend FLETC's advanced Anti-
terrorism and Counter-Terrorism Training Programs.
    Question. The Congress intends for agencies within the Department 
of Homeland Security to improve information sharing. What training 
techniques is the Federal Law Enforcement Training Center utilizing to 
encourage information sharing among law enforcement personnel?
    Answer. The Federal Law Enforcement Training Center, through the 
Financial Fraud Institute (FFI), employs training techniques which 
encourage information sharing among law enforcement personnel in the 
following ways:
    First, FFI offers the Intelligence Analyst Training Program (IATP), 
which is a comprehensive 4-week training program designed for the law 
enforcement intelligence community. This program focuses on 
intelligence methodology, analytical skills, research techniques, and 
the processes necessary to support the effective collection, analysis 
and sharing of intelligence data. FLETC is currently proposing to 
expand this program to accommodate the training needs of the Department 
of Homeland Security.
    Second, in addition to the IATP, FFI offers twelve other advanced 
training programs to a cross-section of Federal, State, and local law 
enforcement. This training ranges in topics from International Banking 
and Money Laundering to Computer Forensics. FFI provides advanced Money 
Laundering and Financial Investigative training to High Intensity 
Financial Crime Areas and High Intensity Drug Traffic Areas Federal 
task forces to assist in the national effort to combat money laundering 
and terrorist financing. FFI also provides advanced training in the 
area of computer network security, computer intrusions, and internet 
forensics. These computer forensic training programs encourage law 
enforcement personnel to coordinate with and to interact among law 
enforcement agencies and the private sector to combat computer crimes. 
This cooperation is stressed as being vital to the effective 
investigation of advanced technology crimes.
    Third, FFI serves the international law enforcement community by 
exporting training in international money laundering and computer 
forensics to the International Law Enforcement Academy (ILEA) training 
sites worldwide.
    Through the Criminal Investigators Training Program (CITP), the FFI 
introduces new criminal investigators to the information stored in a 
number of law enforcement data and intelligence resources, to include: 
NCIC/NLETS, the Financial Crimes Enforcement Network (FinCEN), El Paso 
Intelligence Center (EPIC), Narcotics and Dangerous Drugs Information 
System (NADDIS), and Interpol. FFI also trains law enforcement 
personnel in modern electronic information storage techniques which 
allow for the safe and efficient sharing of investigative materials.
    Finally, FFI exposes students through its Internet Investigations 
Training Program (IITP) to the Cybercop Secure Portal which provides an 
encrypted secure collaborative network where over 3,700 law enforcement 
and private sector security personnel share sensitive but unclassified 
information. This portal is sponsored by the Extranet Secure Portal 
Group and is used by many other personnel within the Department of 
Homeland Security.
    Question. As terrorists turn to the use of biological and chemical 
weapons to target America and our allies, what kinds of chemical and 
biological training has the training center developed to counter these 
activities?
    Answer. In response to terrorist attacks, as well as the threat of 
biological and chemical weapons that target our country, the FLETC's 
Security Specialties Division has developed courses and training 
programs to train law enforcement personnel to be prepared for the 
worst case scenario. One of the more effective actions taken was the 
development of the Weapons of Mass Destruction Training Program 
(WMDTP).
    The WMDTP is a 5 day train-the-trainer program. The program goal is 
to instruct the trainer on how to identify the characteristics and 
effects of chemical, biological and nuclear/radiological terrorist 
weapons. Furthermore, the students/trainers are trained as first 
responder officers to these terrorist attacks. As trainers, the 
students are given course materials and taught how to share this 
information and train other officers and administrators to better 
prepare this country should such an incident occur. This program is 
offered to any law enforcement officer in the United States.
    The course content of the WMDTP includes: Overview of Terrorism, 
Chemical Agents and Physiological Effects, Biological Agents and 
Radiological Weapons, Nuclear Devices, Delivery and Dissemination 
Devices, Principles of Decontamination, Conventional Explosives as WMD, 
Detection and Identification of CBR Agents Planning for WMD incidents, 
Personal Protective Equipment and Managing a WMD attack.
    Question. The Federal Law Enforcement Training Center has partnered 
with the Office of Personnel Management and the Office of Management 
and Budget to provide e-learning opportunities. Does the fiscal year 
2004 budget request provide funding for additional distance learning 
programs for law enforcement training?
    Answer. In September 2002, the Federal Law Enforcement Training 
Center (FLETC) sent the Office of Personnel Management (OPM) a Letter 
of Intent to partner in providing law enforcement e-Learning 
opportunities. This partnership included ``support for the creation and 
integration of robust custom law enforcement courseware based upon 
government and industry standards''. In OPM's fiscal year 2004 e-
Learning Exhibit 300, OPM requested $585,000 in support of the FLETC. 
Of these monies, approximately $185,000 was to support additional 
distance learning programs for law enforcement training. Fiscal year 
2004 was the first budget submission that incorporated our partnership 
with OPM. The FLETC will continue to work through OPM's joint e-
Learning initiative for future support of distance learning law 
enforcement content creation and hosting.
    Question. The Federal Law Enforcement Training Center provides 
training to State, local, and international law enforcement officers. 
How is FLETC responding to the increased number of requests from State 
and local law enforcement, especially for hazardous materials and 
weapons of mass destruction training?
    Answer. First response to terrorism or weapons of mass destruction 
incidents are normally handled by State and local officers. Federal 
agencies may be hours away from the scene and State and local law 
enforcement agencies need the training and equipment to respond to 
critical incidents. Some examples of Federal Law Enforcement Training 
Center (FLETC) training programs available to State and local officers 
are the First Responder Training Program (FRTP), Weapons of Mass 
Destruction Training Program (WMDTP), Seaport Security Anti-terrorism 
Training Program (SSATP), and Critical Incident Response Training 
Program (CIRTP). Since September 11, 2001, the demand for these types 
of training programs has increased significantly.
    In fiscal year 2003, the FLETC received an additional $1 million in 
appropriations to expand its delivery of tuition-free training to Small 
Town and Rural (STAR) law enforcement agencies. When possible, the 
FLETC has increased student enrollment in the FRTP from 24 to up to as 
many as 70 students.
    Additionally, the FLETC is partnering with the Environmental 
Protection Agency (EPA) to coordinate delivery of hazardous materials 
training programs such as Advanced Environmental Crimes Training 
Program (AECTP). The FLETC is also developing a partnership with the 
Federal Emergency Management Agency (FEMA) to assist in the delivery of 
various training programs to include: incident command, emergency 
response to terrorism, public information and weapons of mass 
destruction programs.
    Question. Does FLETC have adequate capacity to meet Federal agency 
law enforcement training demands as well as those training needs of 
State, local, and international law enforcement agencies? Is there a 
priority?
    Answer. At this time, FLETC does not have the training capacity to 
meet all the Federal, State, local, and international law enforcement 
agencies training demands while utilizing a standard 8-hour day, and 5-
day training week. However, given adequate scheduling flexibility and 
the use of non-traditional training sites, the FLETC does have the 
capacity to meet the short-term training demands of our Partner 
Organizations. The long-term solution to the training capacity issue is 
the development, refinement, funding, and completion of the FLETC 
Master Plan for facilities.
    Classes are scheduled on a priority basis as indicated below, 
allocating facilities to:
  --Basic Training Programs,
  --Agency Specific Basic,
  --Center Advanced,
  --Agency Advanced and
  --Others (i.e., State, Local, and International).
    Question. The Committee remains concerned about the security of 
power plants and nuclear facilities. Is the Federal Law Enforcement 
Training Facility working with the Office for Domestic Preparedness to 
develop best practices for first responders in protecting identified 
critical infrastructure and assets?
    Answer. The FLETC's Security Specialties Division offers a Critical 
Infrastructure Protection Training Program (CIPTP) which addresses 
protection for all critical infrastructure sectors and key assets as 
outlined in The National Strategy for the Physical Protection of 
Critical Infrastructures and Key Assets, February 2003. Power plants 
and nuclear facilities are included as assets in this document. It also 
addresses security measures for cyberspace, because cyberspace is what 
allows our critical infrastructure to work. The CIPTP is designed for 
those individuals who have the responsibilities to protect and manage 
critical infrastructures, key assets, resources or facilities. Though 
FLETC's priority is the Federal law enforcement community, when space 
is available, participants are accepted from all levels of law 
enforcement.
    The CIPTP provides the participants with an overview of critical 
infrastructure protection, a threat brief, a Critical Infrastructure 
Protection (CIP) Model, instruction related to the components of the 
CIP Model, a case study related to contemporary issues, and a practical 
exercise. Heavy emphasis is placed on two points: One, the fact that 
protecting critical infrastructure and key assets requires a multi-
disciplinary approach involving many people from numerous disciplines; 
and two, the need to build public-private partnerships, because 85 
percent of the infrastructure is owned by the private sector.
    Question. Section 109 of the Maritime Security Act tasked the 
Secretary of Transportation with the development of standards and 
curriculum for the training and certification of maritime security 
professionals. What is the Federal Law Enforcement Training Center's 
involvement in this process?
    Answer. FLETC has established a partnering relationship with the 
U.S. Coast Guard and the Global Maritime and Transportation School, 
U.S. Merchant Marine Academy (USMMA), in anticipation of legislation 
being passed directing the development of a Seaport Security Training 
Program. Preliminary discussions are on-going with regard to training 
site selection and curricula identification, but no funding or 
direction has been given for this activity to date.
    Question. The Federal Law Enforcement Training Center provides 
training to rural law enforcement personnel through its partnership 
with Minot State University and Southwest Texas State University. Does 
FLETC have plans to expand this program or develop other partnerships?
    Answer. Since 1991, the FLETC has developed many long-term 
partnerships with Federal agencies, training partners, State and local 
agencies, and universities. The FLETC, through its National Center for 
State and Local Training, serves on the International Association of 
Chiefs of Police (IACP) and the National Sheriffs' Association (NSA) 
Education and Training Committees, as well as the National Guard 
Counterdrug Training Advisory Counsel.
    In 1996 and 1999, the National Center partnered with Illinois State 
University, to conduct random sample training needs assessments of 
small town and rural law enforcement agencies. Over 2,200 law 
enforcement agencies--county, city, and Indian Country--were surveyed 
to determine their training needs. The results of the 1996 study 
provided the foundation for the development of the STAR training 
series. Since fiscal year 2000, the National Center has contracted with 
Minot State University (MSU), to conduct a training needs assessment of 
all Federal, tribal, State, and local law enforcement agencies in the 
Northern Plains States Region (North Dakota, South Dakota, Montana, and 
Wyoming).
    In fiscal year 2003, Congress allocated $1,000,000 to the National 
Center to expand its contract with MSU for research and validation 
efforts in support of the STAR training series nationwide. 
Additionally, the National Center received $500,000 to contract with 
the MSU to provide a comprehensive evaluation/assessment of the 
effectiveness of law enforcement vehicle pursuit training, previously 
conducted nationwide with law enforcement executives. The MSU is to 
provide recommendations for curriculum revision, training delivery 
methods, and program policy modifications in fiscal year 2004.
    The National Center is currently partnering with Southwest Texas 
State University by providing assistance in the delivery of their 
Advanced Law Enforcement Rapid Response Training Program (ALERRT). This 
program is designed to provide law enforcement officers the skills 
necessary to respond to active shooters.
    The National Center has been conducting a number of site visits to 
training facilities that submitted requests for consideration as hosts 
for National Center and/or FLETC training. Some of these locations are 
in Idaho, Louisiana, California, and Maryland. National Center staff 
evaluates each facility based upon accreditation standards, geographic 
location, demographic considerations, and the requirements to host a 
program.
    Question. The Federal Law Enforcement Training Center is 
responsible for management oversight of the International Law 
Enforcement Academy in Gabarone, Botswana, and will be responsible for 
another facility to be located in San Jose, Costa Rica. How do these 
facilities further FLETC's training mission?
    Answer. In the Department of Treasury's Strategic Plan for fiscal 
year 2000-fiscal year 2005, one of the objectives was to enhance basic, 
advanced, and in-service training programs to meet the changing needs 
and increasing demands of all law enforcement agencies.
    Following the attacks of September 11th, and in a world where there 
is increasing globalization of crime, U.S. law enforcement at all 
levels need to interact with foreign law enforcement organizations.
    For over 30 years, the Federal Law Enforcement Training Center 
(FLETC) has fulfilled its mandate to provide high quality, cost 
effective law enforcement training utilizing modern facilities, state 
of the art equipment and modern teaching methodologies and techniques.
    As the nation's leading organization for interagency law 
enforcement training, FLETC has become the expert in the development 
and management of training facilities, training needs assessment, 
course and curriculum development, instructor training, certification, 
program accreditation, testing, and evaluation.
    With facility management and academic responsibility for multiple 
locations in the United States, which trains a diversity of Federal, 
State, local and international students, FLETC offers a wealth of 
technical experience in the management of International Law Enforcement 
Agencies (ILEA). The ILEAs offer core programs focused on leadership, 
terrorism, white collar crime, drug enforcement, financial crimes, 
ethics, rule of law, police procedures, and the investigative process. 
All ILEA locations-Botswana, Budapest, Bangkok, and Roswell, NM-are 
under the Department of State's appropriation. The FBI, DEA and FLETC 
have leadership roles in administering these sites. Costa Rica's 
consideration as an ILEA site is still under review, so FLETC has not 
taken on the day-to-day operational oversight.
                                 ______
                                 

            Questions Submitted by Senator Pete V. Domenici

    Question. Congress created the Federal Law Enforcement Training 
Center (FLETC) to be the consolidated training center for almost all 
law enforcement agencies. As the law enforcement training arm of the 
Department of Homeland Security (DHS) it seems logical that FLETC 
should develop and conduct standardized training for all Homeland 
Security law enforcement and inspection personnel.
    Such a training approach would ensure that all law enforcement 
personnel receive appropriate and consistent instruction. This is 
particularly important as you retrain and cross-train border agencies 
which have been merged under DHS (e.g. Customs, Immigration, and 
Agriculture Inspectors).
    Congress specifically created the Federal Law Enforcement Training 
Facility in Artesia, New Mexico to handle the advanced and special 
training of almost all Federal law enforcement personnel.
    In the past, Federal agencies have chosen not to use FLETC 
facilities for training and instead have contracted with non-federal 
institutions. Over the past few years, Congress has provided over $30 
million for the FLETC Artesia facility, alone.
    When the need for Federal Air Marshal training arose after 
September 11, FLETC-Artesia answered the call to duty by developing and 
providing this training in a remarkably short period of time. By way of 
example, FLETC-Artesia brought in three 727 airplanes for use in 
training to go along with the 18 firing ranges and 3 shoot-houses.
    FLETC-Artesia boasts 683 beds, state-of-the-art classrooms, and a 
brand new cafeteria to accommodate approximately 700 students a day.
    FLETC-Artesia's close proximity to the Southwestern border, 
recently constructed facilities and optimal training conditions 
certainly suggest the center should be highly utilized by DHS. How do 
you intend to provide training for the newly hired DHS personnel as 
continued training for existing DHS personnel in light of the new 
security challenges facing our country?
    Answer. As we enter a new era in law enforcement operations in the 
United States, FLETC is a good example of the new government approach 
intended by the legislation creating the DHS: a means to harmonize the 
work of many law enforcement agencies through common training, while at 
the same time maintaining quality and cost efficiency. In fiscal year 
2003, 65 percent of FLETC's projected training workload will come from 
nine law enforcement agencies transferred to the new Homeland Security 
department. In fiscal year 2004, this workload will continue to be 
above 73 percent of our estimated total Federal training workload.
    Under the leadership of Secretary Ridge and Under Secretary 
Hutchinson, FLETC intends to work closely with all segments of DHS. 
Placing FLETC within the DHS will help to support the ``unity of 
command'' and the coordination and efficiency themes sought in the 
public law that created DHS. FLETC has a long history of service to 
many of the DHS components--the U.S. Secret Service, the former Customs 
and Immigration and Naturalization Services including the U.S. Border 
Patrol (USBP), the Federal Protective Service and more recently, the 
Transportation Security Administration (TSA).
    With the start-up of the Bureaus of Customs and Border Protection 
and Immigration and Customs Enforcement, FLETC is ready to help 
facilitate, develop, and implement new training and cross training 
programs. We recognize that much of this effort and expertise will 
necessarily come from the agencies involved, but there likely will be 
significant adjustments made over time to all DHS-related training 
programs, basic and advanced. Already, an effort is underway to 
systematically review existing training for these new entities and to 
address whatever capabilities are needed to meld the duties of the 
participants. In the meantime, training will continue unabated to 
achieve all of the hiring expectations of our agencies.
    Question. How do you intend to use FLETC facilities for training 
DHS employees?
    Answer. The national ``war on terrorism'' precipitated by the 
events of September 11, 2001 placed new and increased demands on the 
nation's Federal law enforcement agencies. Officers and agents 
immediately began to work extended hours and many have been reassigned 
geographically and/or to expanded duties. Nearly all Federal law 
enforcement agencies made plans to increase their cadre of qualified 
officers and agents, and submitted urgent requests to the FLETC for 
basic law enforcement training far in excess of the FLETC's normal 
capacity. These requests were for increased numbers of graduates and 
for their speedy deployment to buttress the hard-pressed Federal law 
enforcement effort.
    The events of September 11 also increased the need for certain 
advanced law enforcement training conducted at the FLETC, especially 
classes associated with such issues as counter-terrorism, weapons of 
mass destruction, money laundering, etc. Likewise, the need for 
instructor training classes increased, to strengthen the cadre of 
instructors qualified to handle the training surge--at the FLETC and 
within the agencies.
    In addressing the unprecedented increase in training requirements, 
FLETC has conducted capability analyses to determine the set of actions 
most likely to result in optimum throughput of students at each of its 
training sites without compromising the quality of training. With the 
consultation and concurrence of its partner organizations (POs), FLETC 
leadership directed that training be conducted on a 6-day training 
schedule, thus generating a 20 percent increase in throughput 
capability. More importantly, the 6-day training schedule drives a 
corresponding compression of the length of each training program, 
effectively delivering each class of new law enforcement officers to 
their agencies weeks sooner than under the conventional training 
schedule. Should the 6-day training schedule be insufficient to meet 
the demand, an extended work day will be considered.
    In addition to the 6-day training schedule, FLETC has expanded its 
staff with a supplemental cadre of re-employed annuitants (primarily 
retired Federal law enforcement officers) who are contributing their 
skills and experience as instructors to help sustain the surge in 
training operations. This is a 5-year authority provided by Congress in 
fiscal year 2002.
    Further, the Federal Law Enforcement Training Center has been 
tasked by BTS with establishing a Training Academy Committee to 
identify and assess the training capabilities of all of the BTS 
training academies. This study will be the basis for determining the 
schedule and priority for training elements of DHS in a coordinated 
manner.
    Question. How should DHS use FLETC Artesia's facilities and 
specialized training capabilities?
    Answer. FLETC intends to utilize its Artesia facility to its 
maximum potential. At the request of the Under Secretary, Border and 
Transportation Security (BTS) Directorate, Department of Homeland 
Security (DHS), the Federal Law Enforcement Training Center has been 
tasked with establishing a Training Academy Committee to identify and 
assess the training capabilities of all of the BTS training academies. 
The Committee will use a two phased methodology to identify the 
training assets and to develop a plan for operating the facilities 
employed by each of the Directorate's bureaus, and will also include 
the Coast Guard, Secret Service, and the Bureau of Citizenship and 
Immigration Services. The operational plan will provide the framework 
for coordinating academy training in all BTS bureaus. The Committee 
will develop and submit a report at the conclusion of each phase 
according to the timelines established by its charter. Once the 
Committee has identified all of the BTS training capabilities, FLETC 
can develop a more definitive utilization plan of facility usage at 
Artesia and all other sites.
                                 ______
                                 

             Questions Submitted by Senator Robert C. Byrd

                           TRAINING CURRICULA

    Question. Have provisions been formulated regarding possible 
curriculum changes due to the merger of departments and the eventual 
cross training of agency personnel?
    Answer. FLETC is currently working with the newly formed Department 
of Homeland Security (DHS) law enforcement organizations to modify, 
design, and develop appropriate training curricula to ensure their 
specific mission requirements are met, to include the cross-training of 
agency personnel.

                 FEDERAL AIR MARSHALS TRAINING LOCATION

    Question. Does FLETC, in conjunction with TSA, plan to consolidate 
training of Federal Air Marshals at one location (Artesia) as opposed 
to the expense of training in Atlantic City?
    Answer. The Transportation Security Administration (TSA) has 
recently requested the FLETC conduct 3 weeks of their 4-week agency 
specific basic training program, which is firearms and physical 
training intensive, at our Artesia facility. It is our understanding 
that TSA will continue to conduct the final week of their agency 
specific training, which involves primarily tactics, at their Atlantic 
City facility.

                        MASTER PLAN CONSTRUCTION

    Question. When do you contemplate delivering to Congress the 
revised construction master plan? Does the plan include construction 
requirements at the FLETC-used facilities in Charleston, SC?
    Answer. The completed FLETC Master Plan project is expected this 
summer. FLETC has not included construction requirements of the 
Charleston, SC training facility in its master plan, nor has it 
estimated the cost of transforming the Charleston campus into a full-
fledged, permanent facility. No cost estimates have been developed or 
reviewed by the Department of Homeland Security to date. A study group 
has been formed to examine the planning and decision making process on 
training program implementation for all of the new components in DHS. 
Once the study group formed by the Under Secretary for Border 
Transportation Security has completed its work and decisions made on 
the content, length and type of training needed by the agencies brought 
under the DHS legislation, a determination will be made on the future 
of the Charleston site.

            LACK OF CONSTRUCTION FUNDING IN FISCAL YEAR 2004

    Question. What will be the impact on training from the lack of any 
construction funding in fiscal year 2004?
    Answer. Facility procurement, design and construction normally 
require 18 months to 2 years to complete. Any training facilities that 
cannot be appropriated and completed during this period will require 
the use of alternative approaches to training, including distance 
learning and use of available Federal, State and local training sites.

                     RURAL LAW ENFORCEMENT TRAINING

    Question. How much is in the base budget for the on-going rural law 
enforcement training program at Minot State University?
    Answer. The fiscal year 2004 base budget does not provide for any 
on-going rural law enforcement training programs at Minot State 
University. The fiscal year 2003 enacted appropriation included $3.3 
million to support these programs. This funding is not continued in the 
fiscal year 2004 President's request.

                PLANNED USAGE OF THE CHELTENHAM FACILITY

    Question. What agencies have already made plans, and coordinated 
with FLETC, to use the facilities in Cheltenham, MD?
    Answer. The Cheltenham facility is currently utilized by seven of 
its 62 partner organizations. The primary users of the Cheltenham 
facility are the U.S. Capitol Police, U.S. Park Police, the Washington, 
D.C. Metropolitan Police Department, the Prince George's County Police, 
Sheriffs, Fire/EMS Departments, and Pentagon Police. The U.S. Capitol 
Police conducts their basic follow-on, agency specific and advanced in-
service training at Cheltenham on a daily basis. These agencies utilize 
the existing 13 building Cheltenham tactical village for in-service 
agency specific tactical team training, as well as the classroom and 
conference center for in-service chem-bio, emergency medicine, and WMD 
training sessions on a weekly basis. Other groups, such as the Federal 
Law Enforcement Training Accreditation Group and FLETC Distance 
Learning program, have utilized classroom space in the Cheltenham 
conference center for day and week long seminars. Also, the Prince 
George's County Fire and EMS Training Academy utilize vacant FLETC 
buildings for recruit firefighter training on a regular basis.
    To date, 62 separate Federal law enforcement agencies in the 
metropolitan Washington, D.C. area, including the D.C. Metropolitan 
Police Department, have expressed their intention to use the indoor 
firing ranges and driver training range for requalification training.
    Cheltenham will be used by State and local law enforcement 
agencies. In fact, the Metropolitan Police Department of Washington, 
D.C., Maryland State Police, Prince George's County Police and Sheriffs 
Department are currently utilizing Cheltenham facilities on a weekly 
and monthly basis. However, with the exception of the D.C. Metropolitan 
Police Department, which was specifically identified in the legislation 
that created Cheltenham, Federal agencies will be given scheduling 
priority.

                         CONCLUSION OF HEARINGS

    Senator Cochran. Until our next hearing, this subcommittee 
will stand in recess.
    [Whereupon, at 12:20 p.m., Tuesday, May 13, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

</pre></body></html>
